<html>
<title> - EXAMINING THE POLICIES AND PRIORITIES OF THE U.S. DEPARTMENT OF EDUCATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                              
                        EXAMINING THE POLICIES AND
                           PRIORITIES OF THE
                      U.S. DEPARTMENT OF EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

             HEARING HELD IN WASHINGTON, DC, APRIL 10, 2019

                               ----------                              

                           Serial No. 116-17

                               ----------                              

      Printed for the use of the Committee on Education and Labor
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
              
              
              
              
    EXAMINING THE POLICIES AND PRIORITIES OF THE U.S. DEPARTMENT OF    
    
                               EDUCATION
                               
                               
                               
                               


 
                       EXAMINING THE POLICIES AND
                           PRIORITIES OF THE
                      U.S. DEPARTMENT OF EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 10, 2019

                               __________

                           Serial No. 116-17

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-592               WASHINGTON : 2020              
              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------            
                                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 10, 2019...................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     4
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    DeVos, Hon. Betsy, Secretary, U.S. Department of Education...     9
        Prepared statement of....................................    12

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Memo dated December 27, 2017 from Bradfield, Mr. Patrick 
          A., Director, Federal Student Aid Acquisitions, U.S. 
          Department of Education................................    99
        Link: Reissuance of Final Audit Report...................   101
    Chairwoman Foxx:
        A Good Investment: The Updated Productivity of Public 
          Charter Schools in Eight U.S. Cities...................   102
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio:
        Link.....................................................   133
        Evaluation of the Alabama Accountability Act: Academic 
          Achievement Test Outcomes of Scholarship Recipients 
          2016-2017..............................................   134
    Hayes, Hon. Jahana, a Representative in Congress from the 
      State of Connecticut:
        Letter dated July 16, 2018 from Botel, Mr. Jason, 
          Principal Deputy Assistant Secretary, Office of 
          Elementary and Secondary Education.....................   181
        Office of the Secretary, U.S. Department of Education 
          Control Document.......................................   194
        Email from Hilsey, Shaina................................   197
        Email from Rinkus, Mr. Christopher.......................   198
        Email from Briggs, Ashley................................   199
        Email from Botel, Mr. Jason..............................   200
        Email from Miller, Meredith..............................   201
    Levin, Hon. Andy, a Representative in Congress from the State 
      of Michigan:
        Email from Navient.......................................   202
        Email from Federal Student Aid...........................   204
        Email from the Department of Education...................   206
    McBath, Hon. Lucy, a Representative in Congress from the 
      State of Georgia:
        United States District Court Northern District of Ohio 
          Eastern Division.......................................   209
    Morelle, Hon. Joseph D., a Representative in Congress from 
      the State of New York:
        Joint Status Report......................................   231
        Addendum to Temporary Provisional Program Participation 
          Agreements (TPPPAs) for Institutions Owned by Dream 
          Center Educational Holdings, LLC (DCEH)................   234
    Questions submitted for the record by:
        Adams, Hon. Alma S., a Representative in Congress from 
          the State of North Carolina............................   258
        Castro, Hon. Joaquin, a Representative in Congress from 
          the State of Texas.....................................   267
        DeSaulnier, Hon. Mark, a Representative in Congress from 
          the State of California................................   260
        Fulcher, Hon. Russ, a Representative in Congress from the 
          State of Idaho.........................................   269
        Ms. Fudge................................................   253
        Harder, Hon. Josh, a Representative in Congress from the 
          State of California....................................   262
        Lee, Hon. Susie, a Representative in Congress from the 
          State of Nevada........................................   264
        Ms. McBath...............................................   263
        Mr. Morelle..............................................   261
        Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
          Congress from Northern Mariana Islands.................   254
        Chairman Scott...........................................   246
        Takano, Hon. Mark, a Representative in Congress from the 
          State of California....................................   257
        Timmons, IV, Hon. William R., a Representative in 
          Congress from the State of South Carolina..............   270
        Thompson, Hon. Glenn, a Representative in Congress from 
          the State of Pennsylvania..............................   268
        Trahan, Hon. Lori, a Representative in Congress from the 
          State of Massachusetts.................................   264
        Wilson, Hon. Frederica S., a Representative in Congress 
          from the State of Florida..............................   254
        Wright, Hon. Ron, a Representative in Congress from the 
          State of Texas.........................................   270
    Secretary DeVos's response to questions submitted for the 
      record.....................................................   272


                 EXAMINING THE POLICIES AND PRIORITIES

                  OF THE U.S. DEPARTMENT OF EDUCATION

                              ----------                              


                       Wednesday, April 10, 2019,

                       House of Representatives,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The committee met, pursuant to notice, at 9:02 a.m., in 
room 2175, Rayburn House Office Building. Hon. Robert C. 
``Bobby'' Scott (chairman of the committee) presiding.
    Present: Representatives Scott, Davis, Grijalva, Courtney, 
Fudge, Sablan, Wilson, Bonamici, Takano, Adams, DeSaulnier, 
Norcross, Jayapal, Morelle, Wild, Harder, McBath, Schrier, 
Underwood, Hayes, Shalala, Levin, Omar, Trone, Stevens, Lee, 
Trahan, Castro, Foxx, Roe, Thompson, Walberg, Guthrie, Byrne, 
Grothman, Stefanik, Allen, Smucker, Banks, Walker, Comer, 
Cline, Fulcher, Taylor, Watkins, Wright, Meuser, Timmons, and 
Johnson.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Ilana Brunner, General Counsel Health and Labor; 
Jacque Chevalier Mosley, Director of Education Policy; Mishawn 
Freeman, Staff Assistant; Christian Haines, General Counsel 
Education; Ariel Jona, Staff Assistant; Kimberly Knackstedt, 
Disability and Education Policy Advisor; Stephanie Lalle, 
Deputy Communications Director; Andre Lindsay, Staff Assistant; 
Max Moore, Office Aid; ; Veronique Pluviose, Staff Director; 
Benjamin Sinoff, Director of Education Oversight; Lakeisha 
Steele, Professional Staff; Katherine Valle, Senior Education 
Policy Advisor; Loredana Valtierra, Education Policy Fellow; 
Banyon Vassar, Deputy Director of Information Technology; 
Claire Viall, Professional Staff; Adrienne Rolie Webb, 
Education Policy Fellow; Cyrus Artz, Minority Parliamentarian, 
Marty Boughton, Minority Press Secretary; Courtney Butcher, 
Minority Director of Coalitions and Members Services; Bridget 
Handy, Minority Legislative Assistant; Blake Johnson, Minority 
Staff Assistant; Amy Raaf Jones, Minority Director of Education 
and Human Resources Policy; Hannah Matesic, Minority Director 
of Operations; Kelley McNabb, Minority Communications Director; 
Jake Middlebrooks, Minority Professional Staff Member; Brandon 
Renz, Minority Staff Director; Alex Ricci, Minority 
Professional Staff Member; Mandy Schaumburg, Minority Chief 
Counsel and Deputy Director of Education Policy; Meredith 
Schellin, Minority Deputy Press Secretary and Digital Advisor; 
and Brad Thomas, Minority Senior Education Policy Advisor.
    Chairman SCOTT. The Committee on Education and Labor will 
come to order. I want to welcome everyone, and note that a 
quorum is present.
    The committee is meeting today to examine the policies and 
priorities of the United States Department of Education. 
Pursuant to rule 7c, opening statements are limited to the 
Chair and Ranking Member. This allows us to hear from our 
witness sooner and provides all members with adequate time to 
ask questions.
    I will now recognize myself for the purpose of making an 
opening statement.
    Madam Secretary, I want to begin by expressing the 
committee's appreciation for your time today. The House rules 
require that each member is allotted a full 5 minutes for 
questioning, and we are grateful that you have allocated 
sufficient time to uphold that precedent.
    The Department of Education bears the tremendous 
responsibility of implementing and enforcing Federal laws 
covering roughly 13,000 school districts and more than 50 
million public school students. All of these students deserve 
an equitable high-quality public education. That is their 
right, and it is the responsibility of the Department of 
Education as well as Congress in partnering with States and 
localities to make it a reality.
    Unfortunately, under the President's fiscal 2020 budget, it 
would be nearly impossible to meet that challenge. At a time 
when access to education is synonymous with access to 
opportunity, the President's budget proposes a 12.5 percent cut 
to the Department of Education.
    These cuts are spread across vital programs that serve 
communities across the country. The budget, for example, 
weakens Title I-A, support for schools in low-income areas, it 
eliminates funding for after-school programs, and seeks a 40 
percent cut in adult education.
    The President's proposed cuts to higher education funding 
are particularly deep. Despite the rising cost of college and 
increasing burden of student debt, the budget seeks to slash 
over $200 billion over 10 years, from student loan assistance. 
These cuts will deny countless students the personal growth and 
economic mobility that comes with a college degree.
    The budget is more than numbers on a spreadsheet. There is 
a clear message in those numbers, and regrettably this is the 
same message the Department has been sending students, parents, 
and educators over the past 2 years.
    Today's hearing is an opportunity to discuss the 
Department's actions and the justification for those actions 
under the present leadership.
    This hearing is especially important given the Department's 
lack of transparency. The committee's ability to fulfill its 
oversight function, relies on a healthy working relationship 
with the Department.
    When we ask reasonable questions, we expect responsive and 
timely answers. But on multiple occasions across several 
issues, the Department has refused to answer reasonable 
questions about its work and failed to provide adequate fact-
based justifications for its actions.
    For example, starting in September 2017 we repeatedly 
raised questions about the Department's failure to demonstrate 
effective oversight regarding the implementation of the Every 
Student Succeeds Act.
    Specifically, the Department has approved State education 
plans that violate the law's requirements for schools to 
measure and address achievement gaps using subgroup 
performance. We have not yet received a substantial response to 
address these concerns.
    In November 2017, we repeatedly asked the Department to 
answer questions about its refusal to faithfully implement the 
Borrower Defense Rule which has left more than 100,000 
defrauded students waiting to restart their lives. We have not 
received substantive responses to those questions.
    March 2018, we asked the Department to justify its decision 
to rescind the Obama era guidance addressing racial disparities 
in school discipline. Research has consistently shown that 
black students, boys, and students with disabilities face 
harsher discipline for similar offenses as their white peers. 
Instead of working with schools to correct these disparities, 
the Department used the tragic school shooting in Parkland, 
Florida as a basis to undermine students' civil rights 
protections.
    By linking disparities in school discipline with school 
shootings, the Department is sending a terrible message that 
schools are safer when they discriminate against students of 
color. The Department has failed to adequately justify its 
rescission of this guidance.
    In July 2018, we asked the Department to produce evidence 
supporting its effort to delay the equity in the IDEA Rule. 
This rule helps school districts address racial disparities and 
special education. We have not received a substantive response.
    In fact, that lack of evidence recently led a U.S. District 
Court to rule that the delay was arbitrary and capricious and 
therefore unlawful.
    In August 2018, we asked the Department to clarify its 
position on the use of taxpayer funds to arm teachers, which 
has left a dangerous opening for school districts to use 
Federal education funding to put firearms in classrooms. We 
have not received a substantive explanation of that position.
    Since November 2018, we have been asking the Department to 
justify its reinstatement of the Accrediting Council for 
Independent Colleges and Schools, a troubled accreditor for 
for-profit colleges with a history of propping up low-quality 
schools.
    The Department reinstated ACICS despite its own analysis 
that the accreditor had not met two of the required conditions 
for reinstatement. Two weeks after the reinstatement, another 
school accredited by ACICS abruptly closed, stranding nearly 
20,000 students. We have not received an adequate response to 
those questions.
    And in February 2019, we sent multiple inquiries to the 
Department about the apparently inappropriate effort by the 
deputy secretary to halt or influence the Office of the 
Inspector General in its investigation into the reinstatement 
of ACICS. This apparent intervention undermines the Inspector 
General's critical role as an independent watchdog. We have not 
received a substantive response to that inquiry.
    And over the past 3 months we have asked the Department 
about its abandoned attempt to replace the acting Inspector 
General in the Department with the Department's own acting 
general counsel, a nearly unprecedented attempt to put a senior 
Department official in the position to police decisions he was 
personally involved in making. Once again, we haven't received 
a response to that question.
    It is the--only the partial list of actions that your 
Department has failed to justify and questions it has refused 
to answer. Behind each of these unjustified actions and 
unanswered questions, there are students, parents, educators, 
and taxpayers across the country who are waiting for answers, 
and only can speculate as to the reason behind these actions.
    They deserve to know why the Department is not acting in 
the best interest of faithfully executing the law or taking 
seriously the Federal Government's responsibility to make sure 
that all Americans have access to quality education, from 
childcare to early learning, to college and career.
    So, Madam Secretary, I look forward to the opportunity to 
discuss the important issues under your Department which are so 
vital to our Nation's future.
    And now I yield to the ranking member for the purpose of an 
opening statement.
    [The statement of Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Madam Secretary, I want to begin by expressing the Committee's 
appreciation for your time today. The House rules require that each 
Member is allotted a full 5 minutes for questioning and we are grateful 
that you've allocated sufficient time to uphold that precedent.
    The Department of Education bears the tremendous responsibility of 
implementing and enforcing Federal laws covering roughly 13,000 school 
districts and more than 50 million public school students. All of these 
students deserve an equitable, high-quality public education. That's 
their right, and it's the responsibility of the Department of Education 
as well as Congress in partnering with States and localities, to make 
it a reality.
    Unfortunately, under the President's Fiscal Year budget, it would 
be nearly impossible to meet that challenge. At a time when access to 
education is synonymous with access to opportunity, the President's 
budget proposes a 12.5 percent cut to the Department of Education. 
These cuts are spread across vital programs that serve communities 
across the country. The budget, for example, weakens Title I-A support 
for schools in low-income areas, eliminates funding for afterschool 
programs, and seeks a 40 percent cut to adult education.
    The President's proposed cuts to higher education funding are 
particularly deep. Despite the rising cost of college and increasing 
burden of student debt, the budget seeks to slash over $200 billion 
over 10 years from student loan assistance. These cuts will deny 
countless students the personal growth and economic mobility that comes 
with a college degree.
    The budget is more than numbers on a spreadsheet. There's a clear 
message in those numbers and, regrettably, this is the same message the 
Department has been sending students, parents, and educators over the 
past 2 years.
    Today's hearing is an opportunity to discuss the Department's 
actions and the justification for those actions under the present 
leadership.
    This hearing is especially important given the Department's lack of 
transparency. The Committee's ability to fulfill its oversight function 
relies on a healthy working relationship with the Department. When we 
ask reasonable questions, we expect responsive and timely answers. But 
on multiple occasions, across several issues, the Department has 
refused to answer reasonable questions about its work and failed to 
provide adequate, fact-based justifications for its actions.
    For example...
    Starting in September 2017, we repeatedly raised questions about 
the Department's failure to demonstrate effective oversight regarding 
the implementation of the Every Student Succeeds Act. Specifically, the 
Department has approved State education plans that violate the law's 
requirements for schools to measure and address achievement gaps using 
subgroup performance. We have not yet received a substantive response 
to address these concerns.
    In November 2017, we repeatedly asked the Department to answer 
questions about its refusal to faithfully implement the Borrowers 
Defense rule, which has left more than 100,000 defrauded students 
waiting to restart their lives. We have not received substantive 
responses to those questions.
    In March 2018, we asked the Department to justify its decision to 
rescind the Obama-era guidance addressing racial disparities in school 
discipline. Research has consistently shown that Black students, boys, 
and students with disabilities face harsher discipline for similar 
offenses as their white peers.
    Instead of working with schools to correct these disparities, the 
Department used the tragic school shooting in Parkland, Florida, as a 
basis to undermine students' civil rights protections. By linking 
disparities in school discipline with school shootings, the Department 
has sent a terrible message that schools are safer when they 
discriminate against students of color. The Department has failed to 
adequately justify the rescission of this guidance.
    In July 2018, we asked the Department to produce evidence 
supporting its effort to delay the Equity in the I-D-E-A rule. The rule 
helps schools address racial disparities in special education.
    We have not received a substantive response. In fact, that lack of 
evidence recently led a U.S. district court to rule that the delay was 
arbitrary and capricious, and therefore unlawful.
    In August 2018, we asked the Department to clarify its position on 
the use of taxpayer money to arm teachers, which has left a dangerous 
opening for school districts to use Federal education funding to put 
firearms in classrooms. We have not received a substantive explanation 
of its position.
    Since November 2018, we been asking the Department to justify its 
reinstatement of the Accrediting Council for Independent Colleges and 
Schools a troubled accreditor of for-profit colleges with a history of 
propping up low-quality schools. The Department reinstated A-C-I-C-S 
despite its own analysis that the accreditor had not met two of the 
required conditions for reinstatement. Two weeks after the 
reinstatement, another school accredited by A-C-I-C-S abruptly closed, 
stranding nearly 20,000 students. We have not received an adequate 
response to those questions.
    In February 2019, we sent multiple inquiries to the Department 
about the apparently inappropriate effort by the Deputy Secretary to 
halt or influence an Office of the Inspector General investigation into 
the reinstatement of A-C-I-C-S. This apparent intervention undermines 
the Inspector General's critical role as an independent watchdog. We 
have not received a substantive response to that inquiry.
    And over the past 3 months, we have asked the Department about its 
abandoned attempt to replace the acting Inspector General in the 
Department with the Department's own acting general counsel, a nearly 
unprecedented attempt to put a senior Department official in a position 
to police decisions he was personally involved in making. Once again, 
we have not received a response to that question.
    This is only a partial list of the actions your Department has 
failed to justify and the questions it has refused to answer. Behind 
each of these unjustified actions and unanswered questions, there are 
students, parents, educators, and taxpayers across the country who are 
waiting for answers and only can speculate as to the reason behind the 
actions.
    They deserve to know why the Department is not acting in their best 
interests, faithfully executing the law, or taking seriously the 
Federal Government's responsibility to ensure all Americans have access 
to a quality education, from child care and early learning to college 
and career.
    Madam Secretary, I look forward to this opportunity to discuss the 
important issues under your Department, which are so vital to our 
Nation's future.
    Now, I will yield to the Ranking Member for the purpose of an 
opening statement.
                                 ______
                                 
    Mrs. FOXX. Thank you, Mr. Chairman, for yielding. And thank 
you, Madam Secretary, for being here. Today's hearing will 
provide members of the committee with a chance to hear about 
the Department's priorities, and what Department leadership is 
doing to provide greater opportunities to students at every 
level of education.
    The committee Republicans are deeply committed to ensuring 
that all programs under the Department's jurisdiction are 
implemented effectively and help grantees and stakeholders 
provide students a high-quality, effective education. This has 
been an ongoing effort that I know Secretary DeVos is an equal 
partner in.
    During the Obama Administration, the Department handed down 
a slew of regulations and Federal red tape that hampered 
programs. Since assuming office in 2017, Secretary DeVos has 
worked to reduce the regulatory burden on State and local 
leaders and has also worked to help provide flexibility where 
she can to help connect students with in-demand jobs.
    Everyone here knows that we have a national skills gap 
problem. Currently there are more than 7 million open jobs 
across the country and the number of jobs they can see keeps 
growing. These jobs are going unfilled because not enough 
workers have the necessary skills to fill them.
    There is a pervasive stigma around skills-based education, 
and my colleague can know it is long been a priority of mine to 
end this misconception.
    A baccalaureate degree is not the only way to a good-paying 
job. There are a multitude of pathways to lifelong success and 
we need to work more to make skills-based education a viable 
and valuable path for people again.
    So I am eager to hear about the Department's ongoing 
implementation of the Strengthening Career in Technical 
Education for the 21st Century Act. This committee's bipartisan 
legislation to reform career and technical education which the 
President has signed into law last July, the law will empower 
State and local leaders to engage with employers and connect 
more Americans with on-the-job learning opportunities, like 
apprenticeships.
    I am also interested to hear about the Department's 
continued efforts to expand school choice for students, 
families, and teachers. Every student is different, and 
families should be empowered to choose the learning environment 
that best suits their child's strengths.
    Many Republicans will always believe that a one-size-fits-
all approach does more harm than good, and that is true most of 
all of education. Students deserve an education that challenges 
them to reach higher and inspires them to be lifelong learners.
    Students deserve choices, and they have the best chance at 
lifelong success, if they have access to expanded opportunities 
at every level of education. congressional oversight of the 
executive branch is an important power of Congress, it is both 
necessary and appropriate to ensure that laws are properly 
implemented and taxpayer dollars are responsibly spent.
    It behooves us to be thorough and exacting in our review of 
the Department's activities and budget request, but make no 
mistake thorough and exacting does not mean prejudiced and 
pernicious.
    Secretary DeVos, you have been unwavering in the dedication 
to your job in the midst of strong headwinds. I want to assure 
you that Committee Republicans recognize the work you are doing 
to connect students with effective education. We are grateful 
for your efforts, and you can expect this side of the dais to 
ask questions that shed light on the progress the Department 
has made since you were confirmed as Secretary, in your 
priorities moving forward.
    Students of all ages and at every level of education should 
be empowered to pursue whatever education pathway will equip 
them with the unique skills they need to thrive in the 
workplace.
    I thank Secretary DeVos again for being here today. I look 
forward to our discussion about how we can bring greater 
opportunities within reach for students across the country.
    Thank you, Mr. Chairman.
    [The statement of Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    Thank you for yielding.
    Thank you, Secretary DeVos, for being here today. Today's hearing 
will provide Members of the Committee with a chance to hear about the 
Department's priorities and what Department leadership is doing to 
provide greater opportunities to students at every level of education.
    Committee Republicans are deeply committed to ensuring that all 
programs under the Department's jurisdiction are implemented 
effectively and help grantees and stakeholders provide students a high-
quality, effective education. This has been an ongoing effort that I 
know Secretary DeVos is an equal partner in. During the Obama 
Administration, the Department handed down a slew of regulations and 
Federal red tape that hampered programs. Since assuming office in 2017, 
Secretary DeVos has worked to reduce the regulatory burden on State and 
local leaders and has also worked to help provide flexibility where she 
can to help connect students with in-demand jobs.
    Everyone here knows that we have a national skills gap problem. 
Currently, there are more than 7 million open jobs across the country, 
and the number of job vacancies keeps growing. These jobs are going 
unfilled because not enough workers have the necessary skills to fill 
them.
    There's a pervasive stigma around skills-based education, and my 
colleagues know it's long been a priority of mine to end this 
misconception. A baccalaureate degree is not the only way to a good-
paying job. There are a multitude of pathways to lifelong success, and 
we need to work to make skills-based education a viable and valuable 
path for people again.
    So, I am eager to hear about the Department's ongoing 
implementation of the Strengthening Career and Technical Education for 
the 21st Century Act, this committee's bipartisan legislation to reform 
career and technical education, which the President signed into law 
last July. The law will empower State and local leaders to engage with 
employers and connect more Americans with on-the-job learning 
opportunities, like apprenticeships.
    I'm also interested to hear about the Department's continued 
efforts to expand school choice for students, families, and teachers. 
Every student is different, and families should be empowered to choose 
the learning environment that best suits their child's strengths. 
Committee Republicans will always believe that a one-size-fits-all 
approach does more harm than good, and that's true most of all in 
education.
    Students deserve an education that challenges them to reach higher 
and inspires them to be lifelong learners. Students deserve choices, 
and they have the best chance at lifelong success if they have access 
to expanded opportunities at every level of education. congressional 
oversight of the Executive branch is an important power of Congress. 
It's both necessary and appropriate to ensure that laws are properly 
implemented and taxpayer dollars are responsibly spent. It behooves us 
to be thorough and exacting in our review of the Department's 
activities and budget request. But make no mistake, ``thorough and 
exacting'' does not mean prejudiced and pernicious.
    Secretary DeVos, you have been unwavering in your dedication to 
your job in the midst of strong headwinds. I want to assure you that 
Committee Republicans recognize the work you are doing to connect 
students with effective education.
    We're grateful for your efforts, and you can expect this side of 
the dais to ask questions that shed light on the progress the 
Department has made since you were confirmed as Secretary and your 
priorities moving forward.
    Students of all ages and at every level of education should be 
empowered to pursue whatever education pathway will equip them with the 
unique skills they need to thrive in the work force. I thank Secretary 
DeVos again for being here today, and I look forward to our discussion 
about how we can bring greater opportunities within reach for students 
across the country.
                                 ______
                                 
    Chairman SCOTT. Thank you. I will now introduce our 
witness. The Honorable Betsy DeVos serves as the eleventh U.S. 
Secretary of Education. She was confirmed by the U.S. Senate on 
February 7, 2017. She has been involved in education policy for 
nearly three decades, and an advocate for children and a voice 
for parents.
    For 15 years she has served as an in-school mentor for at-
risk children in the Grand Rapids public school system. Prior 
to her confirmation she served as Chair of the Windquest Group, 
an enterprise and investment management firm.
    In addition to her leadership in the education arena, she 
has served on boards of numerous national and local charitable 
and civic organizations, including the Kennedy Center for the 
Performing Arts, Kids Hope USA, ArtPrize, Mars Hill Bible 
Church, and Kendall College of Art and Design.
    She is a graduate of Calvin College in Grand Rapids, 
Michigan, where she earned a Bachelor of Arts degree, and she 
and her husband, Dick, have four children and seven 
grandchildren.
    I am pleased to recognize our colleague from Michigan, Mr. 
Walberg, who is a close friend of the Secretary, and has asked 
to say a few words.
    Mr. WALBERG. I thank the Chairman for that. And thank you 
for holding this hearing, inviting the Secretary to be with us. 
And indeed, we have made opening statements about education and 
our perception of it and, Madam Secretary, your predecessor, we 
certainly, from this side of the aisle, asked tough questions 
of the Secretary. And so that is to be expected.
    But I appreciate the opportunity to welcome you here as a 
fellow Michigander. But also of having had a long-time 
experience with you and your family, your commitment in 
education, to have had the privilege of serving on an 
educational task force that you led and to see that words 
weren't just words but were backed up significantly with 
actions relative to quality education across the board. Whether 
it is public, private, parochial, any approach to education 
that allowed parents the choice to provide the best education 
for their kids you were involved with and promoted.
    And I know as Secretary, you have the opportunity to lead 
in the Department, but also to give additional advice, ideas, 
some will be taken by the administration, others won't.
    But always an effort to move forward, not be satisfied with 
status quo. Education is not a status quo place if it is true 
education.
    And I thank you for your leadership there, your example. I 
have had the opportunity to meet students that you have 
impacted, students from all strata, that are students going on 
into engineering, students going on into healthcare, students 
coming from higher economic strata, students coming from lower 
economic strata, all receiving an educational opportunity that 
was unique, and built the opportunity for them for expanded 
success in their life.
    So, I want my colleagues to understand, from a personal 
perspective, where you have come from, what you are looking 
for, and that you will work with us toward non-status quo 
education to meet the needs of the future.
    Thanks for being with us. And thank you for allowing me 
this opportunity.
    Chairman SCOTT. Thank you. Madam Secretary, I will remind 
you that your written statement has been distributed, it will 
appear in full in the hearing record pursuant to committee rule 
7d and committee practice. You are asked to limit your oral 
presentation to about 5 minutes of your written statement.
    You have testified here before so you know how the lighting 
system works, and after your testimony we will have questions 
for members. So, I will now recognize the Secretary of 
Education, Ms. DeVos.

    STATEMENT OF THE HONORABLE BETSY DEVOS, SECRETARY, U.S. 
                    DEPARTMENT OF EDUCATION

    Secretary DEVOS. Thank you, Mr. Chairman. Chairman Scott, 
Ranking Member Foxx, and members of the committee, thank you 
for the opportunity to testify on this administration's 
education priorities, which are also reflected in the 
President's Fiscal Year 2020 budget.
    I thought it would be useful to begin by recalling 
Congress' commitment when it created the U.S. Department of 
Education 40 years ago.
    Then Congress vowed that the move would ``not increase the 
authority of the Federal Government over education or diminish 
the responsibility for education which is reserved to the 
States,'' and I will add communities and parents.
    Yet over the past 40 years, Federal taxpayers' spending on 
education has increased about 180 percent, amounting to over 
$1.2 trillion cumulatively, and we are still 24th in reading, 
25th in science, and 40th in math, when compared to the rest of 
the world.
    Doing the same thing and more of it won't bring about new 
results. A great education shouldn't be determined by where you 
live, nor by who you know. It shouldn't be determined by family 
income, and education shouldn't be an old school, one-size-
fits-all approach.
    That is why I propose something different, freedom. This 
administration focuses on freedom for teachers, freedom for 
parents, and freedom for all students, because we recognize 
each as a unique individual and each should be treated as such.
    Every child should be free to learn where and how it works 
for them--where and how it unlocks their potential, and so we 
propose a historic investment in America's students. Education 
freedom scholarships, our bold proposal will offer a dollar-
for-dollar Federal income tax credit for voluntary 
contributions to 501(c)(3) nonprofit organizations that provide 
scholarships to students.
    These students, their families, teachers, schools, States, 
all can choose to participate in the program, or they can 
choose not to participate. It is a choice, and since the 
proposal relies entirely on voluntary contributions to 
nonprofit organizations, it won't take a single dollar from 
local public schools, school teachers, or public school 
students.
    Something else, education freedom scholarships aren't only 
for students who want to attend private schools. In fact, some 
States may choose to design scholarships for public school 
options, such as apprenticeships or transportation to a 
different public school.
    States have the opportunity to be really imaginative and to 
serve the unique needs of their students. A proposal of an 
annual $5 billion Federal tax credit for students draws a 
bright contrast to what some have proposed; $100 billion for 
buildings versus $5 billion for students.
    This administration urges this body to invest in students. 
We believe students of all ages should be free to pursue the 
education that is right for them. That includes multiple 
pathways to higher education and successful careers. We propose 
to expand use of Pell Grants for quality short-term programs.
    It is borne from a recognition of reality, the vast 
majority of students today do not pursue a traditional 4-year 
college degree, and there are millions of opportunities for 
careers that don't require university degrees.
    We must urgently rethink our approach to higher education, 
because today Federal student aid holds $1.5 trillion in 
outstanding loans, a number that continues to grow. More than 
total auto debt and credit card debt, 43 percent of those 
student loans are either in default, more than 30 days 
delinquent, or are negatively amortized, and taxpayers are on 
the hook for it all.
    So we are putting the power of information in students' 
hands. They need open and easy access to information about 
institutions and programs in order to make better and more 
responsible decisions.
    We are excited to expand the college scorecard, and the 
MyStudentAid mobile app to help do just that. We also propose 
consolidating numerous repayment plans, and raising the cap on 
our borrowers' monthly payment, 12.5 percent of discretionary 
income.
    This is one way the Federal Government can become a more 
responsible lender. Policy should not entice students into 
greater debt, nor should they put taxpayers dollars at greater 
risk. Education freedom isn't just for parents and students 
either. Teachers need greater freedom as well. This 
administration seeks to empower America's teachers and elevate 
their profession.
    I regularly meet with a number of excellent teachers who 
tell me they would like to choose their own professional 
development and customize it for their needs. To that end, we 
want to focus on what teachers find useful for themselves, not 
what is dictated by the district office.
    These teacher vouchers treat teachers as the professionals 
they are. Teachers also tell me about the value of mentors or 
residency opportunities, so we want to help ensure new teachers 
have more opportunities to learn from the best.
    It is also essential that teachers and students be safe at 
school. In the wake of tragic acts of school violence in our 
country, President Trump asked me to lead a Federal commission 
on school safety.
    To support the commission's recommendations, we propose 
empowering communities to develop their own school emergency 
plans, and to focus on counseling and healthy behaviors for 
their students.
    In the end, budgets are about priorities; ours are 
students, parents, teachers and taxpayers. If our country is to 
remain secure, strong, prosperous, and free, we need students 
of all ages, who are prepared to pursue successful careers and 
lead meaningful lives.
    Thank you, again, for this opportunity to testify. I look 
forward to your questions.
    [The statement of Secretary DeVos follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman SCOTT. Thank you. We will now have questions. And 
I will begin. I recognize myself for 5 minutes.
    Madam Secretary, in December 2018, you rescinded the 
Rethink Discipline guidance package. That guidance package 
clarified school districts' obligations and the Department's 
enforcement of Title VI of the Civil Rights Act. The guidance 
also provided useful information to districts on how they can 
proactively reduce racial disparities and rates of exclusionary 
discipline without jeopardizing school safety.
    Lacking evidence to support the rescission, the Trump 
administration turned its attention to the Parkland, Florida, 
shooting, blaming that tragedy on the school discipline 
guidance and the use of disparate impact theory to enforce 
Title VI.
    As articulated in the final report of Federal Commission on 
School Safety, the administration Stated that enforcement of 
Title VI using disparate impact analysis ``lacks the foundation 
and applicable law.''
    And my question is, has the Trump administration abandoned 
the use of disparate impact analysis in Title VI enforcement?
    Secretary DEVOS. Thanks, Mr. Chairman, for that question. I 
know this is an issue about which we have spoken in your 
office, and I am glad to address it again.
    The Department continues to enforce disparate--the 
regulation that you have articulated, and will continue to do 
so until and unless the regulations changed.
    Chairman SCOTT. And so the ``lacks foundation in applicable 
law'' was a misstatement?
    Secretary DEVOS. Well, no, I think that is certainly a 
discussion and continues to be looked at and studied by both 
our agency and other agencies that are both, they will be 
charged with that.
    Chairman SCOTT. As you pointed out, the disparate impact 
analysis is legal and required under Title VI in the 
regulations?
    Secretary DEVOS. Yes. We continue to enforce as it has been 
regulated to date.
    Chairman SCOTT. Yesterday we learned the Department has 
entered into a resolution agreement with Texas Tech Medical 
School that requires the school to cease use of race in 
admissions. And now Texas Tech is mourning their loss to the 
University of Virginia in the Final Four. But in this, how many 
similarly situated cases are there involving race and college 
admissions that the OCR has active now?
    Secretary DEVOS. Well, let me first address the case that 
you have cited. As you know this was a 14-year-old case, and 
Texas Tech Medical School had voluntarily entered into the 
resolution agreement. I know that there are at least a couple 
of other active cases that the Office for Civil Rights is 
involved with today. And those will continue to be 
investigated.
    Chairman SCOTT. What are we doing to increase the number 
of--since this is the medical school, you are aware that there 
are fewer African-American men in medical school now than in 
1978, there is a disparity, a significant lack of African-
American men, what is the administration doing to increase the 
number of African-American men in medical school today?
    Secretary DEVOS. Well, from the Department's perspective we 
are continuing to follow the Supreme Court's guidelines around 
use of different measures in admissions, and we will continue 
to do so. We acknowledge that it is a desirable goal to have a 
very diverse population in every educational setting.
    Chairman SCOTT. and so what is the administration doing to 
increase the number of African-American men in medical schools?
    Secretary DEVOS. Well, I don't think that we have an 
offensive measure to try to do. It is certainly up to different 
institutions to both follow the Supreme Court rulings in this 
matter, and also to follow their own mission of their schools.
    Chairman SCOTT. That means you are doing nothing?
    Secretary DEVOS. It means that we are following the laws 
that we are charged with following, and we will continue to do 
so.
    Chairman SCOTT. Thank you. Ranking Member, Dr. Foxx?
    Mrs. FOXX. Would you please recognize Mr. Guthrie?
    Chairman SCOTT. The gentleman from Kentucky, Mr. Guthrie.
    Mr. GUTHRIE. Thank you. I appreciate the courtesy. I 
appreciate it very much. Secretary DeVos, I know we have talked 
together about the Education Freedom Scholarship Act. And one 
of my just concerns about how I would like to hear it explained 
in that program, I know, in Kentucky, cities like Louisville 
and other cities have a robust private education system, so if 
there is a child in a school district, the stress, they would 
have access to this, they have readily access to a private 
school that is functioning and is there, and is moving forward.
    A lot of my counties in Kentucky are very rural, so the 
public school would be the only option, even if they had access 
to funds to do something different it would be the only option 
currently. I mean, that may change if that was the case.
    So, could you explain how this program would help students 
rural--not just rural Kentucky, but rural America that don't 
have the separate infrastructure in place?
    Secretary DEVOS. Sure, I'd be happy to. This is a really 
great opportunity for all States and all sorts of communities 
to really tailor make options and choices to the students that 
they're serving. And I think about rural communities in 
particular where a small school might not be able to offer the 
range of courses that their students might like to access.
    So one of the opportunities would be course choice to take 
a very high-quality course via the internet with a highly 
qualified teacher somewhere in the world and to do so as a one-
off as a student.
    Another possibility would be for if there are several 
students within that rural school for whom a different type of 
learning would be appropriate, they could basically form a 
micro school housed within that same building that would 
approach learning in a different manner.
    I also think about possibilities around career and 
technical education and perhaps several communities would join 
together and offer some robust career and technical 
opportunities and maybe there is transportation scholarships 
for students to get to that opportunity along with that 
specific opportunity itself.
    So there is really limitless ideas that you could come up 
with to really tailor make your--the education options for the 
students that you are serving.
    Mr. GUTHRIE. So your vision, this isn't a voucher in your 
hand to go show up to a private school and help pay your 
private school tuition, there is just as you said a limitless 
use of these funds for great opportunities for every--a lot of 
children, young people.
    Secretary DEVOS. Right. I really think we should think very 
broadly about what choices we are talking about and not get 
reflexive and talk about, you know, some immediate reaction to 
what school choice is.
    I think we can think very broadly about offering the 
different kinds of opportunities to students that need 
something different or want something different and this is a 
great and historic opportunity to come in alongside what is 
already happening in States and augment it with some new 
opportunities.
    Mr. GUTHRIE. One of the exciting things I have changing 
subjects is and I think that it is almost everybody sitting 
here today are looking at apprenticeship programs. They want 
apprenticeship programs to be successful where people can earn 
a good middle class income when they don't have to have the big 
debt from going to 4 years of school if the 4-year school is 
not appropriate access and there are other alternatives.
    I know that we have talked about apprenticeships and could 
you talk about your view of apprenticeship programs and how the 
Department can help us in our legislation to make sure people 
have these opportunities?
    Secretary DEVOS. Well, we have talked a lot about 
apprenticeships and I think that there is almost unanimity 
around this notion that more students need to have the 
opportunity to both earn and learn.
    And I think about a student that I met a couple of months 
ago, Isabel, who went to school in Minneapolis and started an 
apprenticeship while she was in high school, decided to 
continue on. At age 21 she has--she owns her own home, she owns 
her own car. She has a 401(k) and her own healthcare plan and 
she has now been offered a job to move with that company to 
Switzerland. And, you know, that is the kind of situation more 
students need to be able to access.
    So the President's budget proposes a pre-apprenticeship 
opportunity at the level of $60 million. Of course the whole 
Perkins Act, Perkins Reauthorization, helps move more 
opportunities into apprenticeship programs and the Department 
of Labor is working very hard on introducing some new 
opportunities around apprenticeships as well but this is a very 
broad opportunity that I think needs to be seized.
    Mr. GUTHRIE. Well, thank you. Thank you for being here and 
we hope to all seize it. I think it is bipartisan for sure 
here. So thanks and thanks for the courtesy and I appreciate it 
and I yield back.
    Chairman SCOTT. Thank you. The gentlelady from California.
    Ms. DAVIS. Thank you. Thank you, Madam Secretary, for being 
here. Madam Secretary, you mentioned that students are saddled 
with debt. I think everybody would be nodding their heads over 
that. As we know, thousands of students are reporting 
complaints about the Department's contracted loan servicers to 
the Consumer Financial Protection Bureau.
    Five weeks ago, Senator Murray, ranking member of the 
Senate HELP Committee, and I sent a request for information 
related to the scathing Office of Inspector General report that 
detailed the Department's failure to oversee its loan servicing 
contractors. And today we haven't received any responses to 
those questions.
    So I wanted to ask you, you know, whether--when we are 
going to receive that?
    Secretary DEVOS. Well, thanks for the question, 
Congresswoman. The Department does take very seriously its 
commitment to students and are very committed to serving them 
well.
    In fact, the Federal student aid most--more recently took 
over $2 million from our services, our servicers, and we have 
recently communicated through a letter concerned--
    Ms. DAVIS. Could I ask you, Madam Secretary, can you commit 
to 2 weeks that we might have that report? We might have your 
responses to that?
    Secretary DEVOS. I certainly will hope that we can get it 
in 2 weeks. It depends on the level of data that is necessary 
to complete it. We have been trying to be very responsive to 
all the requests from members of this committee and Members of 
Congress and--
    Ms. DAVIS. Yes. Is there--I guess for all of us, we are 
just wondering--
    Secretary DEVOS. Ninety-three percent of our--93 percent of 
the over 1,000 letters that we received in--since I have been 
here have been responded to and we continue to be very, try to 
be very diligent about answering the request for information.
    Ms. DAVIS. So I think just to have a ballpark in terms of, 
for these kinds of requests, that we make through the 
Department, what is a reasonable timeline?
    Secretary DEVOS. Again, I think it is reasonable for us to 
respond promptly. If it requires the compilation of a lot of 
data that takes a lot of time and resources to do, it may take 
longer than either you or I would like.
    But I am--I give you my commitment that we will do our best 
to respond as promptly as possible.
    Ms. DAVIS. Okay. I wanted to go on then and talk about what 
the Department has said publicly about that report because it 
was scathing, as you probably saw. The Department--your 
Department asserted that it has made significant ongoing 
improvements to its oversight and monitoring policies and 
procedures since the review period of the OIG's report.
    So what are the significant improvements to oversight and 
monitoring that have been implemented since October 1 of 2017?
    Secretary DEVOS. Well, I just mentioned that just in the 
last year and a half, we have reserved over $2 million from our 
vendors. We have been in constant communication where there 
have been issues raised and we will continue to monitor the 
servicers to make sure they are upholding the agreements that 
they have made on behalf of the students that they are 
communing with.
    Ms. DAVIS. What could you add to that for the students that 
are there, they are listening even today and wondering, you 
know, what is going to change for them?
    Secretary DEVOS. Well, we have as you probably know a very 
forward leaning next gen initiative to modernize the whole 
student financial aid framework which has been a patchwork of, 
you know, confusion for students over the years.
    I have learned that the average number of loans a student 
holds is 4.6 and they are most often with different servicers.
    Ms. DAVIS. Yes. Well, I think--
    Secretary DEVOS. So it becomes very confusing for students 
to try to manage and pay back their loans when they are having 
to deal with multiple different services.
    Ms. DAVIS. Thank you. Madam Secretary, could you tell 
students that there are going to be more audits of these 
servicers? What is it, again, that is going to go into greater 
depth for them? Because next gen I think is evolving, but we 
are not there yet. You are not there yet even in terms of 
managing that, so I think we need to be really ready to give 
them a better response.
    I know that people are certainly wondering why this is such 
an important report. I think it is because, in fact, the 
Department has this oversight responsibility for Federal 
student loans and we want to be sure that these claims are 
being addressed.
    I also wanted to mention that, you know, you are talking 
about oversight, but I think the students are really wondering 
if the 5,300 complaints mean something that folks are out there 
and they are not able to work.
    So, I mean, our bottom line is that there are millions of 
students and more who have completed higher ed degrees and are 
suffering from this crushing debt. And so we want them to feel 
that they can count on you, they can count on the inspector 
general to do these kinds of reports and then we need to have 
the kind of response back.
    So I thank you for that. We will look within a short amount 
of time I hope for those responses. Thank you.
    Chairman SCOTT. Thank you. The gentleman from Michigan, Mr. 
Walberg.
    Mr. WALBERG. Thank you, Mr. Chairman. And again, thank you, 
Madam Secretary, for being here. Just to followup a little bit 
on the Education Freedom Scholarships. They are tax credits, 
not vouchers.
    Secretary DEVOS. That is correct. The proposal is a Federal 
tax credit that individuals or corporations would be able to 
contribute to and States would decide whether they wanted to 
participate or not.
    If they did, they would be able to craft their own program 
or programs to meet the needs of students in their States and 
give them choices, additional choices to what they have today.
    Mr. WALBERG. So not mandatory. Voluntary opportunity to 
use--
    Secretary DEVOS. Indeed.
    Mr. WALBERG [continuing]. a person's own funds--
    Secretary DEVOS. Exactly.
    Mr. WALBERG [continuing]. to make sure that the kids have 
the opportunities. I was delighted to hear your answer to 
Representative Guthrie on the issue of a career and technical 
education.
    Just came from a hearing earlier where associated general 
contractors put out a couple numbers: 286,000 shortage of 
construction workers this past February, the most recent 
figures. And that the average wage in construction now is $30 
an hour. The average wage.
    And these professional trades are truly professions that 
can provide a wonderful life and great opportunity without 
having that overweening student debt that is coming.
    Also, it has been exciting in meeting with some of our more 
forward thinking colleges and universities that are coming up 
with ideas that will reduce potentially 30 percent of tuition 
costs as a result of working with business and industry and 
allowing actual business industry to set up curriculum programs 
and work with-pay for the setting up of those curriculum 
programs that meet the needs of the real world jobs that are 
out there now. And that doesn't happen without having 
flexibility.
    But we still have. We still have student finance issues and 
last year I introduced the FASFA Act along with Representative 
Delbene of Washington, which would streamline and simplify the 
financial aid process.
    In March, this committee held a hearing on college 
affordability. During that hearing the president of Western 
Carolina University testified how the FAFSA form can act as an 
insurmountable obstacle to students in obtaining Federal aid, 
particularly for first generation and low-income families. 
Could you describe how the FAFSA Act would simplify and improve 
the FAFSA process for students as well as families?
    Secretary DEVOS. I would be happy to, Congressman. And I 
think often of the FAFSA form that Senator Alexander likes to 
regularly unfurl and the goal to dramatically shorten that form 
and make it much easier for students apply for Federal student 
aid.
    As you know, we have introduced the MyStudentAid mobile app 
which they, you know, the naysayers said couldn't be done and 
wouldn't be done. It was done and it was done on time. Students 
can now complete their FASFA on their smartphones. If the 6103 
exemption at legislation which was passed by the Senate is 
taken up and passed by the House as well, that will 
dramatically shorten the number of questions on the FAFSA form.
    And then I know that there is the legislation that you have 
introduced and are championing would also eliminate a number of 
additional questions that are really not necessary. And that 
combination I think is a really important move to make it much 
smoother and simpler for students who have to apply for Federal 
student aid on a regular basis.
    Mr. WALBERG. On the side of the universities, how would it 
benefit them with this simplified process? I have read 
statistics that 30 percent of FAFSA applications must undergo 
an income verification process.
    Secretary DEVOS. Right. Well, it would eliminate that 
process because it would--the information would be drawn 
directly from the IRS on student and family income and it would 
greatly secure that data as well. Because right now it goes 
through a number of steps and it is a--at much greater risk.
    So that combination would dramatically reduce the burden on 
institutions on the verification process.
    Mr. WALBERG. Well, I appreciate that. See the time is 
expiring here. I yield back.
    Chairman SCOTT. Thank you. The gentleman from Arizona, Mr. 
Grijalva.
    Mr. GRIJALVA. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being here. You know, last year my home State, 
Arizona, was among several that experienced teacher walkouts, 
strikes, primarily citing working conditions and primarily 
citing teacher pay among the reasons that they took the actions 
that they did.
    I think we know that our Nation's educators are grossly 
underpaid. It varies from State to State. Some States do not 
provide the support in terms of teacher salaries or have 
significantly moved to improve teacher salaries.
    We can make the comparisons to other professionals with the 
same education and technical requirements, teachers are grossly 
underpaid, classroom teachers are.
    And I mention this and ask you, Secretary DeVos, 
conceptually do you believe that Federal--that the Federal 
Government should have--find ways to supplement public school 
teacher incomes?
    Secretary DEVOS. Well, Congressman, our budget has a couple 
of proposals to really focus in and elevate the profession of 
teaching and to honor and respect teachers for the 
professionals they are.
    And to give them more opportunity to control their own 
destinies in the form of their own professional development 
through the teacher voucher program and then also with the 
mentorship and residency program that, you know, today I have 
heard from so many teachers that they have--they feel obliged 
almost to move in consideration and leave the classroom when 
they mostly love being in the classroom, but in order to 
continue to develop--
    Mr. GRIJALVA. But--
    Secretary DEVOS [continuing]. themselves--
    Mr. GRIJALVA [continuing]. particularly would that respect 
for teachers be translated--do you think--could be translated 
into their paycheck?
    Secretary DEVOS. Well, obviously teachers and their--the 
States and local communities have the most direct input into 
that, but I think we can and should find ways to ensure that 
teachers have more autotomy and more freedom to do what they do 
best and that is to serve students in their classroom and for 
great teachers to have the opportunity to teach others.
    Mr. GRIJALVA. I think my point is that I think they should 
get more pay and that in doing so is there a role for the 
Federal Government to help supplement, not supplant, but 
supplement, the income for school classroom teachers? That is a 
discussion for some other time.
    You know, Basis Charter Schools Incorporated, which is big 
in my State of Arizona, is privately owned and nearly all of 
its funding comes from State and Federal tax dollars. There are 
oversight questions related to their financial sustainability 
and its administrative costs.
    Charter schools like Basis tried to expand as quickly as 
possible which you have Stated you support. Despite all the 
fiscal red flags and in Basis' case, while they might be 
profiting outside my State, their in-State operation posted a 
primitive deficit of $49 million.
    This story has been played out in Arizona, California, 
Texas, here in Washington, DC. The lack of oversight on charter 
school finances has demonstrated significant waste of taxpayer 
dollars.
    In your budget proposal, despite numerous cuts to important 
program like Gear Up and Impact Aid, you are requesting $60 
million for the charter school program. Given what I just said, 
how do you justify that?
    Secretary DEVOS. Well, Congressman, there are over 1 
million students on waiting lists for charter schools 
nationally; over 11,000 right here in the District of Columbia. 
One in eight students in Washington, DC, wants to get into a 
charter school and cannot; more than 50,000 in New York City. 
So--
    Mr. GRIJALVA. Okay. I--
    Secretary DEVOS [continuing]. charter schools provide great 
opportunities for lots of students and there is clearly a lot 
of demand for more of them.
    Mr. GRIJALVA. Okay. Then let me then give you some 
examples. Because one of the questions is also about monitoring 
and oversight of charter schools as they are receiving 
significant and sometimes their only source of financial 
support comes from State and Federal Governments.
    How is your Department monitoring charter schools? You 
know, program grant funding to awardees that never open, open 
and close within an academic year, or never open again for the 
second academic year.
    How are we monitoring and what kind of oversight is being 
done to make sure that if those are anomalies that those 
anomalies occurred at all. But they continue to occur, 
situations keeps coming up and the issue of monitoring and 
oversight continues to be a pressing question and I want to 
know what direction the Department is going on that given the 
expansion of support for charter schools?
    Secretary DEVOS. Well, charter schools are authorized by 
the States in which they reside and the programs in which the 
Department interacts with clearly has agreements and has 
oversight over those particular pieces of the program. But they 
are authorized within the State.
    And we know that there have been charter schools that 
haven't been able to make it and have closed down and that is 
good and that's appropriate. If they can't serve students well, 
they shouldn't exist. The same should be true of traditional 
public schools if they can't operate well.
    Chairman SCOTT. The gentleman's--
    Mr. GRIJALVA. Thank you very much.
    Chairman SCOTT. Thank you. The gentleman from Georgia, Mr. 
Allen.
    Mr. ALLEN. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for taking on this challenge of education and know 
that it has been in your courage to take on this challenge 
because, you know, it is very, a complex issue.
    You know, coming from the business world, specifically 
construction, I know about the shortage of workers.
    In fact, everywhere I go in my district we have a shortage 
of workers. And so it is putting tremendous pressure on our 
education system and of course in our State, I think out of a--
out of the budget, over 50 percent of the money goes to 
education.
    I know in our county, over 50 percent of the money goes for 
education and so it is--and then you look at the statistics and 
you look at the last 20 years where the cost has gone from 
6,000 to 11,000 per student. Yet teacher salaries have not 
really increased so you wonder, well, where is the money going? 
And I am sure you are looking into all that and you have been 
an outspoken supporter of expanding the choices in education 
and I support your efforts in that because every student is 
different.
    Every students needs are different and we need to do 
everything we can in our communities to meet those needs. Could 
you tell us a little bit more about your--you know, how you 
envision your proposal to for the education innovation and 
research program under the Every Student Succeeds Act and how 
it works and why you feel it is important?
    Secretary DEVOS. Well, thanks, Congressman. Yes, this is 
actually our proposal to help teachers guide and control their 
own professional development. And the proposal is really a 
pilot program to establish teacher vouchers that teachers would 
be able to pursue their own professional development. And I 
think about, you know, different opportunities an early stage 
teacher might have to take development that would help them 
with classroom management for example. Perhaps a middle stage 
teacher wants to get better at the subject matter they are 
teaching. And maybe a later stage teacher is really good at 
teaching other teachers and will pursue a mentorship or 
residency program to help new teachers learn to be better 
teachers.
    So it would be--the proposal would be meaningful amounts 
for teachers to be able to elect to pursue whatever is right 
for their own personal and professional development at the 
stage of teaching that they happen to be.
    Mr. ALLEN. Okay. Are you familiar with the--where we are as 
far as the teacher shortage in the country right now? I mean, I 
know we have one in our State. Is it pretty much nationwide?
    Secretary DEVOS. Well, I know that there is certainly 
challenges to recruiting teachers in certain subject areas. I 
know that States are getting creative about how they attract 
teaching new teachers into the profession and there is 
different approaches to certifying them.
    I also know that there is in rural areas where it is 
particularly difficult, they are being--you know, becoming very 
creative about how they really meet the needs of students 
without necessarily having to hire a full-time teacher for a 
specific class that doesn't have many students.
    Mr. ALLEN. Yes. We are making great strides in Georgia on 
our graduation rates and what not but on the Strengthening 
Career and Technical Education for the 21st Century Act, 
obviously we need to accelerate movement of students into the 
workplace.
    And thank you for you sort of explained what you're trying 
to do there as far as implementing this law. Anything you would 
like to comment further on initiatives that now that you have 
kind of heard a little bit of what we are talking about here 
today. Anything else you would like to add to that?
    Secretary DEVOS. Well, I think it is a great opportunity 
for States to look anew and communities to look anew at what 
the real needs are in their communities and for employers to 
really explicitly partner with educators to collectively design 
programs to meet the broader needs of their region and their 
communities.
    And places that I visited that have been particularly 
effective at this are doing really well with filling the needs 
of the employers and the opportunities in the area but there is 
still room for a lot more development, a lot more improvement 
in that area.
    Mr. ALLEN. Well, thank you again very much. And I yield 
back.
    Chairman SCOTT. Thank you. The gentleman from Connecticut, 
Mr. Courtney.
    Mr. COURTNEY. Thank you, Mr. Chairman. Thank you, Madam 
Speaker, for being here today. I just want to followup on my 
colleague, Congresswoman Davis, regarding the OIG report among 
servicers.
    Again just for the record, the OIG found 61 percent 
noncompliance by loan servicers in most basic functions in 
terms of, you know, not recording payments from student 
borrowers, reporting them to credit agencies inaccurately which 
is like going into credit hell when that happens for student 
borrowers.
    And again, I mean, that is an appalling rate. And I would 
ask, Mr. Chairman, that the OIG report be admitted to the 
record.
    Secretary DEVOS. Congressman, if I could just--
    Mr. COURTNEY. Actually let me just do this first. Okay, and 
then I will have a question for you, I promise.
    Chairman SCOTT. No objection.
    Mr. COURTNEY. Thank you, Mr. Chairman. So not only are we 
seeing again this kind of batting average, poor batting average 
by the Department regulating loan servicers, under your 
leadership you have taken numerous steps to undermine State 
enforcement of student borrower protections.
    Last December, without any public notice, your Department 
issued a memorandum barring loan servicers from releasing 
information to State law enforcement officials.
    And again, Mr. Chairman, I would ask unanimous consent to 
enter a memo sent by the Department to all loan servicers into 
the record.
    Thank you. So this memo has had the effect of undermining 
all State investigations into shady practices as well as 
Federal investigations by the Consumer Financial Protection 
Bureau into loan servicers.
    Brazenly the Department did not even publicly notice this 
memo and it was only obtained because someone at the Department 
leaked it. So I want to ask, given the fact that State law 
enforcement has had a spectacular record of success in terms of 
getting restitution for student borrowers who again had their 
funds misappropriated, shutting down deceptive practices and 
again as the New York AG, Minnesota AG, Illinois AG, 
Connecticut AG, I mean, they have all been doing this work 
collaboratively with the Federal Government, what is the 
rationale for the Department to shut off that flow of 
information regarding student loan servicers which has been 
standard operating procedure for decades?
    Secretary DEVOS. Congressman, first let me comment on the 
OIG--
    Mr. COURTNEY. See I asked you a question and we don't have 
much time, so could you just sort of explain--
    Secretary DEVOS. I understand, but that--
    Mr. COURTNEY [continuing]. what the--this is a decision you 
made to shut off this information to people who are law 
enforcement. They are investigating things like fraud. I mean, 
so please explain that decision in that memo.
    Secretary DEVOS. I will be happy to, but I want to comment 
to the OIG report.
    Mr. COURTNEY. I didn't ask you about that.
    Secretary DEVOS. All the findings of which we have all--we 
have addressed. They were for a period of time that, you know, 
that was--it was from a long period of time ago. They have been 
addressed.
    With regard to the loan servicers and State involvement, 
Federal student aid is a Federal program and to involve every 
single State in a separate oversight capacity really preempts--
    Mr. COURTNEY. So again--
    Secretary DEVOS [continuing]. Federal--
    Mr. COURTNEY. So preemption does exist. There is no 
question about it. When Congress acts, like ERISA, we preempted 
State regulation of insurance back in the 1970's by an act of 
Congress.
    In terms of student loan servicing enforcement, Congress 
has never preempted that away from attorney generals who are 
just simply doing--enforcing in many instances their own State 
consumer protection laws.
    So, you know, again, that decision that you made with--
again, without giving even the courtesy of a notice and had to 
be sort of found out indirectly, again is not certainly with 
the imprimatur of Congress.
    So in addition, you know, to sort of ignoring law 
enforcement who has been doing a great job in terms of 
protecting student borrowers in the 2019 appropriation by 
Congress we directed the Department to respond to all requests 
from these law enforcement agencies within 10 days of receipt 
and to make publicly available on its website a detailed list 
of all individual requests made to the Department.
    Again, to date, we have seen nothing from the Department. 
This, again, was Congress directing your Department to at least 
disclose those requests that you are refusing for people who 
are again are just simply trying to enforce law.
    Secretary DEVOS. Well, Congressman, we continue to take our 
responsibilities to student borrowers very seriously and 
continue to take the steps to make--ensure that the servicers 
are doing the jobs that they have been contracted to do.
    Mr. COURTNEY. Well, again, you are certainly not working 
with us in terms of trying to at least let us see whether or 
not your, again, total unilateral decision is, in fact, 
resulting in good enforcement actions being stymied and 
stifled.
    And with that, again, I have other questions for the record 
regarding preemption of State student loan borrower laws which 
we will be entering into the record, Mr. Chairman. And with 
that, I will yield back.
    Chairman SCOTT. Thank you. The gentleman from Tennessee, 
Dr. Roe.
    Mr. ROE. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here and also thank you for being in 
Sevier County to unveil the new app for the FAFSA and I asked 
my educators how many of those questions, 100-plus they looked 
at admitting people, and they said about 10 of them. We need to 
take that bill up to Senate heads today and pass it. It is so 
complicated and for the students, I don't know how they get 
through it.
    I am going to go a little different. I talked to a 
professor of mine this weekend who is very concerned about 
grade inflation. He is a retired professor at home and now 
today, in colleges, A is the most common grade in both 4- and 
2-year colleges and we have now--I think 42 percent of all 
colleges have an A and 77 percent an A or B. And back when I 
was in school in the sixties in college, the most common with 
fewer students going was a C. High school grades have inflated 
exactly the same way now and if you look at standardized 
testing, it has been level so the grade hasn't improved to 
standardized testing when you compare apples-to-apples. So, my 
question is why has that happened and then I do not expect you 
to finish today answering it, but don't we need to do something 
about that when three fourths almost 80 percent get an A or a B 
and I heard Alan Dershowitz on TV the other day complain about 
that at Harvard.
    Secretary DEVOS. Well, it is a very good question, 
Congressman, and it also begs--there is other data that begs 
the question as well, you know, why are we 24th in the world in 
reading and 25th in science and 40th in math as compared to the 
rest of the world? You know, we continue to, I think, expect 
different results from doing the same thing and we put more and 
more resources behind doing the same things and that is why 
this administration has proposed something like the Education 
Freedom Scholarships Initiative to change that dynamic. To do 
something different to allow for students to have different 
opportunities and, you know, we look at the fact that 40 
percent of students entering a 4-year college or university 
have to take a remedial class and 60 percent going to community 
colleges. It is a commentary on the whole preparation that they 
experience in the K12 system.
    Mr. ROE. Well, I think it is something we definitely need 
to look into because an A does not mean, you know, anything.
    Anyway, I want to talk about a couple of other things and 
one of the things we talked about the other day is I have a 
very interest in career technical education and the three 
numbers I mentioned to you are 77, 97, and 0. And I talked to 
one of the presidents of our technical schools at home and they 
graduate 77 percent of the students on time, 19 percent of 
college students at 4-year schools graduated on time, and 59 
percent graduate within 6 years with this huge debt. So, 77 
percent finish on time in what they started in whether it is a 
nursing assistant, welding, or whatever; 97 percent in 
Tennessee are placed in their career path, get a job; and 100 
percent graduate with 0 debt.
    So, it is a huge advantage and we, I think, need to be 
encouraging students to look at these career paths as Mr. 
Guthrie was talking about just a minute ago and I just would 
like to hear your comments on that.
    Secretary DEVOS. Well, I couldn't agree more and this 
administration is very, very supportive of elevating and 
supporting a multitude of career paths to a great adult future 
and acknowledges that we have got to continue to raise the 
specter of these opportunities and give them equal credence to 
the unspoken or often very verbally articulated pressure to go 
to a 4-year college or university. And yet we have, as you have 
just noted, so many great opportunities for young people to 
consider and pursue and it is not to say they can't return to 
an educational setting later on and do something different. 
They will have multiple careers in their adult lives so we have 
got to--
    Mr. ROE. Seven million empty jobs and very quick. And my 
time is expiring, but I had a round table with your educators a 
year ago about school safety and that discussion very quickly 
turned to mental health. And we went to our local hospital and 
we found that in our area we only had 11 inpatient beds for 
young people, young adults, with mental health issues. We are 
working on solving that problem locally now.
    Another problem that was local, we are in a rural area and 
we have a rural school that K through 12 only has 110 students, 
K through 12. So, if a student there wants to take calculus, 
they can now go online at one of the other larger high schools 
online. This was done by a private entrepreneur, Scott 
Niswonger, I will mention his name, who was able to provide 
these students a great high school education from distance 
learning. You have been very general with your time. I will 
yield back.
    Chairman SCOTT. Thank you. The gentlelady from Ohio, Ms. 
Fudge.
    Ms. FUDGE. Thank you very much, Mr. Chairman, and thank 
you, Madam Secretary, for being here today. Madam Secretary, if 
you could just help me out. Five minutes is a very short period 
of time, so if you could just be more concise with your 
answers, I would appreciate it. Madam Secretary, do you realize 
that it is your responsibility to educate every child in the 
United States?
    Secretary DEVOS. It is my responsibility to be the 
Secretary--
    Ms. FUDGE. It is just a yes or no, Madam Secretary.
    Secretary DEVOS. It is my responsibility to do my duty as 
Secretary of Education.
    Ms. FUDGE. Is that a yes or is that a no? Okay. You are 
very good at evading. That is a really simple question so we 
will move on. My concern is that you spent so much of your time 
focused on vouchers, how do we fund religious and private 
schools? And then you come up with something called The 
Education Freedom Scholarship, which by any other name is a 
voucher. We are once again picking winners and losers, which is 
something that my colleagues complained about for years and 
years about democrats. You, in fact, are trying to pick winners 
and losers. Now, I have never been aware of a tax credit that 
is a $1 to $1, 100 percent credit. So, now, we have already 
decided that we are going to make rich people richer with the 
tax cuts, we are going to make poor people about the same, 
middle class we are going to hurt with more taxes. So, now it 
is like you guys are not smart enough to take advantage of all 
these tax credits. Let me give you another bite of this apple. 
Let me let you give money to schools so that you can take 100 
percent tax credit. It is the most ridiculous thing that I have 
ever heard. But, once again, by any other name, it is a voucher 
and it is something to benefit the rich.
    Madam Secretary, are you aware that Alabama and Florida 
have State tuition tax credit programs and they have shown no 
improvement in academic achievement for students?
    Secretary DEVOS. I am aware they have programs and you are 
wrong. They have shown improvement for students.
    Ms. FUDGE. Well, I would love for you to send me that data, 
please.
    Secretary DEVOS. I would be happy to.
    Ms. FUDGE. You say in your remarks, as well as in your 
written testimony, that this proposal takes not one cent from 
local public school students or public school teachers. You did 
that in your own budget by cutting the education budget by 10 
percent. That is something that you did. But let me also 
suggest to you that, in fact, it is hurting taxpayers. If you 
give a 1-to-1 tax credit, it is going to create a $5 billion a 
year hole in the Federal Treasury. So, that's $5 billion that 
could be spent on education and other things. So, indeed, it 
does hurt students.
    You talk about freedom, which is just so enlightening for 
me that there is freedom. Do you know that freedom is not free? 
This freedom is going to cost us $5 billion a year, 50 billion 
dollars over 10 years. Freedom is not free. We learned that 
during the Civil Rights Movement.
    Secretary DEVOS. These are voluntary contributions that 
individuals--
    Ms. FUDGE. Reclaiming my time. This is my time. Freedom is 
not free. We have experienced it over and over again. There is 
a cost to everything we do. Yours just happens to be $50 
billion to the Treasury. I just wish that at some point we 
would just be honest with what we are doing, and we would just 
tell the American people that what we are doing with this is 
creating a shell game to fund private and religious schools and 
their providers using taxpayers as the middle man. That is what 
we are doing. It is nothing more than another attempt to 
disinvest in public education and that is why I asked you the 
first question, which you couldn't even answer. Do you 
represent all of the children of the United States? It is not 
your job to educate all of the children? It was not a trick 
question. It was a very simple question. So, I just hope that 
the next time you come in front of us that you would stop the 
evasion and just give us a simple answer. Mr. Chairman, I yield 
back.
    Chairman SCOTT. Thank you. The gentleman from Alabama, Mr. 
Byrne.
    Mr. BYRNE. Thank you, Mr. Chairman. Madam Secretary, it is 
good to see you again. I believe the Civil Rights Act is clear 
that no child should face discrimination in school based on 
race, color, or national origin, whether that is in access to 
classes and programs or through discipline practices. Do you 
agree that the law is clear and can you tell us what you are 
doing to prevent discrimination?
    Secretary DEVOS. Thanks, Congressman. I concur with you and 
we are working hard to ensure that all students' civil rights 
are respected and upheld.
    And a couple of things that I would like to mention what we 
are doing prospectively. We have an initiative to address the 
inappropriate use of seclusion and restraint. It is a joint 
initiative between the Office for Civil Rights and the Office 
for Special Education and Rehabilitative Services and it 
provides an opportunity to highlight this important issue and 
support schools and districts and States as they work to meet 
the needs of each of their students.
    Understanding that this is an important topic for many on 
this committee, I can assure everyone that the Department is 
committed to ensuring that these practices do not deprive any 
child of the opportunity to thrive and succeed in school. Even 
one child harmed through inappropriate use of seclusion and 
restraint is one too many.
    Another area that we have continued to be on the proactive 
side is to hold regular webinars, technical assistance for 
those who need to work on the web accessibility of their 
institutions and we are responding to complaints, but we are 
being proactive with all institutions and inviting them to know 
and understand the use of webinars on a regular basis. Those 
are a couple of areas that we are working hard proactively, but 
also, we are working reactively to make sure that all 
complaints that are brought to us are addressed.
    Mr. BYRNE. Well, thank you for being proactive. I think 
that shows your commitment to making sure the law is followed. 
I know you and I both want the best for all of our students and 
it has been my pleasure to work with you on the Education 
Freedom Scholarship proposal. I am so excited to see the 
support it is getting, not just here in Congress, but in States 
all across the Nation.
    I do want to clear up one point for my colleagues on the 
other side of the aisle. The Education Freedom Scholarship 
proposal is not a budget item in the Education budget's Fiscal 
Year 2020 budget. Am I right about that?
    Secretary DEVOS. You are right about that.
    Mr. BYRNE. So, it wouldn't take any funds away from our 
education program, would it?
    Secretary DEVOS. That is correct.
    Mr. BYRNE. Good. So, why don't you tell everybody a little 
bit about what it would do?
    Secretary DEVOS. Well, it would provide a tax credit, but a 
tax credit fund that States could elect to be part of and they 
could choose voluntarily to be part of it and then to formulate 
programs within their State and contrary to what your colleague 
on the other side of the aisle just alleged, it does not take 
anything away from any budget and, in fact, it is geared toward 
students and toward empowering students to make a different 
choice for their education through the form of scholarships. 
That would be access through scholarship granting organizations 
designated by each State. You know, 501(c)(3) scholarship 
granting organizations and we talked a bit earlier about 
possible uses. It could be to access really new and robust 
career and technical education opportunities in a region. It 
could be for transportation to get to different opportunities. 
It could be to access course choice in small rural schools and 
it could be used for just a wide variety of uses, but the key 
being that families and students would be empowered to make a 
choice that fits for them and for their future and what they 
want to learn and what they want to pursue.
    Mr. BYRNE. We have a great example in Alabama in Sumpter 
County, which is one of our poorest counties, and one of these 
schools was established and many of the students that are now 
going to that school are for the first time in their lives 
going to school with someone of the opposite race because we 
had total segregation in Sumpter County. And this school has 
brought African-American children and white children together 
in a school in Sumpter County for most of them for the first 
time of their lives and some of their, like, family's lives. 
So, this is not just providing better education, it is actually 
drawing this very poor rural community together and I think 
that is great for that community, but communities around the 
country. So, I thank you for your leadership on that.
    With that, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentleman from the Northern 
Mariana Islands, Mr. Sablan.
    Mr. SABLAN. Thank you very much, Mr. Chairman. Madam 
Secretary, thank you for being here today. Secretary DeVos, you 
arrived in your position at a time when Republicans passed a 
resolution of disapproval in both chambers to overturn the 
Every Student Succeeds Act, ESSA, accountability reporting, and 
State plan regulations. While these regulations were 
overturned, the law's requirements remained unchanged. ESSA 
includes important Federal guardrails to hold States and school 
districts accountable for meeting the needs of all students. 
While there is flexibility, the law is not a blank check. 
Compliance with the law's requirement is not optional. So, let 
me ask you, are you aware, Madam Secretary, that 40 States do 
not include disaggregated achievement data for at least one 
federally required subgroup on their State report card as 
required by Federal law?
    Secretary DEVOS. Congressman, I was pleased to be able to 
approve every State's ESSA plan and I didn't approve any plans 
that did not comply completely with the law and we are now in 
the monitoring phase and continued to ensure that States comply 
with the law.
    Mr. SABLAN. I would just like a yes or no answer on the 
record. Are you aware that approximately 40 States do not 
include disaggregated achievement data for at least one 
federally required subgroup under statute?
    Secretary DEVOS. Again, Congressman, all of the ESSA plans 
comply with the law and we continue to ensure that States do 
comply with that law.
    Mr. SABLAN. Madam Secretary, that is not a yes or no. So, 
let me ask you this then, can States and school districts 
address educational equity without this information?
    Secretary DEVOS. Congressman, again, we have ensured that 
all of the ESSA plans from every State comply with the law and 
we are committed to ensuring that as they implement them they 
continue to comply with the law.
    Mr. SABLAN. I only have 5 minutes so, respectfully, I will 
be reclaiming my time, Madam Secretary. The answer is no, we 
cannot advance equity without this information. The law 
requires States to disaggregate data by subgroups to ensure 
accurate data on student achievement and accurate data is 
critical for parents, educators, and policymakers. So, how do 
you plan to address this issue to make sure the States are 
compliant with the law and are held accountable for the success 
of all students?
    Secretary DEVOS. Again, sir, we continue to monitor the 
States as they implement their ESSA plans to make sure they are 
compliant with all aspects of the law and we are committed to 
doing so.
    Mr. SABLAN. Let me be very simple. English is my second 
language, but you are not giving me an answer. So, let me be 
very simple, Madam Secretary. Can I have today your commitment 
to improve ESSA oversight and hold States accountable for 
implementing the letter and intent of the law? Your commitment, 
yes or no?
    Secretary DEVOS. We are committed to continuing to ensure 
every State follows the law in the implementation of their ESSA 
plan.
    Mr. SABLAN. On the record, you are saying that you are--I 
think I say yes. So, let me go to my next issue. According to 
the Alliance for Excellent Education, the Department of 
Education approved at least 12 States to implement 
accountability systems that do not take into account the 
performance of historically underserved students, as required 
by law, despite what you just told me. Parents and communities 
are now starting to see the school letter grades issue by 
States based on these systems. I am concerned that this letter 
grade may provide misleading information. For example, in one 
State, 25 percent of schools that receive an A are identified 
for targeted support due to the performance of historically 
underserved students. In that same State, 71 percent of schools 
that received a B are identified for targeted support. Does it 
make sense to you for a school to receive an A or a B if its 
students of color or other subgroups consistently underperform? 
These are the facts. These are data.
    Secretary DEVOS. Congressman, again, we are committed to 
monitoring the States to ensure that they continue to comply 
with the law as they implement their ESSA plans.
    Mr. SABLAN. Madam Secretary, respectfully, you are not 
answering my question. The students, the educators, we deserve 
direct answers. So, let me ask again, how is the Department 
holding States accountable for using subgroup performance to 
inform action to intervene in and provide additional support 
for under-resourced schools?
    Secretary DEVOS. Congressman, again, I have told you and I 
will tell you again, we are committed to continuing to ensure 
that States are complying with the laws and that they are 
following the requirements of the law regarding ESSA.
    Mr. SABLAN. Thank you, Madam Secretary, you have not 
answered my question, but thank you very much for trying. I 
appreciate it. I yield back.
    Chairman SCOTT. The gentlelady from New York, Ms. Stefanik.
    Ms. STEFANIK. Thank you, Mr. Chairman. Madam Secretary, 
good to see you today. I wanted to focus my questions on higher 
ed. When I visit colleges and universities and community 
colleges in my district, it is very clear that the traditional 
student today is, in fact, nontraditional. Oftentimes, they are 
going back to pursue their education midcareer, they are 
working part-time or they are raising a family. And I think 
that we need to work to modernize opportunities in higher ed to 
make it available for the nontraditional students. The 
Department has proposed an expansion of Pell Grants to shorter 
term programs. How will this help contemporary students gain 
skills and career and technical education that is very 
impactful in finding jobs in today's economy?
    Secretary DEVOS. Thanks for that question, Congresswoman, 
and yes, we have proposed to expand Pell to be eligible for 
short-term, high-quality programs for certifications and 
certificates. We know that there are many jobs available today 
that require just a short-term kind of program and yet, we have 
been very rigid in terms of how we viewed the use of Pell funds 
and so we believe that expanding that and would look forward to 
working with Congress on the appropriate guardrails around 
that, but I think that short-term would be an excellent move.
    Ms. STEFANIK. I agree with you and I think it is a real 
opportunity for bipartisan modernization of the Pell program. 
Another Pell related question is we know when we are looking at 
the historic amount of student loan debt and that a large 
percentage of that student loan debt is students who have not 
completed. And I understand that 60 percent of those who 
actually obtain a Bachelors Degree today do so in 6 years so 
that is much longer than the traditional 4 years and we also 
know that the longer it takes a student to complete that 
degree, the more debt they accrue.
    One of the proposals that you and I have discussed and the 
Department has put forward is utilizing Pell for dual 
enrollment programs. Can you expand upon that?
    Secretary DEVOS. Yes, well, many students would like to 
pursue college level classes in high school. They have 
completed their high school requirements and we think that 
expansion of Pell into those opportunities is another way to 
modernize and acknowledge what the opportunities are for 
students today.
    Ms. STEFANIK. Absolutely. And I think it also will help us 
ensure that the completion rate increases and that students are 
graduating at a faster rate, therefore, taking out a lower 
amount of student loan and then having lesser student loan 
debt.
    The last question I wanted to ask is related to work study. 
I understand that each year Congress appropriates over $1 
billion to the Federal Work Study Program and this is a 
substantial sum of money. It largely goes to finance student 
jobs on campus and those jobs are not necessarily positions 
related to student's career academic interests. Your budget 
proposes reforms to this. Can you talk about that?
    Secretary DEVOS. I would love to. We believe that allowing 
students to essentially do an internship or an apprenticeship 
in jobs or with businesses related to careers that they want to 
pursue would be very compatible with their actual formal 
learning and so we have proposed to change work study 
requirements to allow for employers to have students, host 
students, as part of their academic studies and through a work 
study program in business.
    Ms. STEFANIK. I agree and, again, as I visit employers that 
are near local colleges, they are eager to partner. They are 
eager to identify the future of their work force as early as 
possible to help them develop those skills. So, I wanted to 
highlight these three very important bipartisan opportunities 
that we can pursue as a committee and I look forward to working 
with you.
    Secretary DEVOS. Likewise. Thanks.
    Ms. STEFANIK. I yield back.
    Chairman SCOTT. Thank you. The gentlelady from Oregon, Ms. 
Bonamici.
    Ms. BONAMICI. Thank you, Mr. Chairman. Madam Secretary, a 
budget is a Statement of priorities and values and I worked 
hard on the Every Student Succeeds Act and I am deeply 
disappointed that the President's budget would zero out funding 
for Title IV Part A grants. These are the flexible block grants 
that support well-rounded education, art, civics, safe and 
healthy schools, technology, so all students benefit, not just 
those in wealthy districts or neighborhoods. These grants have 
bipartisan support. They are an essential part of ESSA. It is 
unacceptable that the Department does not see their value
    So, previously, you told me that Title IV Part A funds are 
spread too thin to be effective. If that is your position, 
isn't the logical thing to fully fund Title IV Part A grants 
rather than eliminate them, which exacerbates inequality of 
opportunity? And that is a yes or no question.
    Secretary DEVOS. Well, Congresswoman, it is not a yes or no 
answer because we had to put forward a budget that met the 
requirement of a 10 percent reduction overall so we had to make 
difficult choices so we chose to--
    Ms. BONAMICI. And I need to reclaim my time and move on to 
another question, but you told me that they are spread too 
thin, so the logical thing is to fully fund them rather than 
spread them too thin.
    Now, I want to ask you about ACICS. The Department of 
Education fully reinstated ACICS as a recognized accreditor 
even after they oversaw some of the largest collapses of 
institutions of higher education in American history: 
Corinthian Colleges, ITT Tech, and after they were reinstated, 
ECA. And in every case ACICS disregarded clear warning signs 
and failed to act quickly enough to protect students and 
taxpayers.
    So, last year several of my colleagues and I sent you two 
letters about this. We urged you to rescind the decision. We 
expressed concern that the Department's decision was based, at 
least in part, on erroneous and misleading information, 
including claims that ACICS secured endorsement and support 
from other accrediting agencies, which turned out to be false. 
We also requested the information and documentation that you 
considered.
    So, you have not answered the letters so rather than having 
us wait longer, please explain why did the Department fully 
reinstate an accreditor that repeatedly accredited schools that 
harm students?
    Secretary DEVOS. Well, Congresswoman, it is a provisional 
reinstatement. There are still a couple of provisions that 
ACICS has to address and it is important to note that we were 
ordered by the court to reexamine the ACICS case, 36,000 pages 
of information the previous administration did not even 
acknowledge or deal with in this process, and so, we did so. It 
was a very in-depth review and study and the reinstatement came 
with a review of all of that information that heretofore had 
not been considered.
    Ms. BONAMICI. I am reclaiming my time. Do you have a 
timeframe for responding to those letters because we sent them 
last year? Can we get them in the next 2 weeks?
    Secretary DEVOS. I will certainly look into it, yes.
    Ms. BONAMICI. Thank you. We do need that underlying 
information what you considered because, again, some of the 
information was false.
    I have another question. Yesterday the Civil Rights 
Subcommittee held a hearing on the Equality Act. We know that 
transgender students are frequently bullied and victimized. We 
know also that the 2016 guidance to schools about transgender 
students was applauded by education experts, healthcare 
experts, educators, counselors, pediatricians, psychologists 
because it made students safer at school. But your Department 
rolled back that guidance creating uncertainty and concern. So, 
I have two questions. When you rolled back that guidance, did 
you know that the stress of harassment and discrimination can 
lead to lower attendance and grades as well as depression and 
anxiety for transgender students? Did you know that?
    Secretary DEVOS. Congresswoman, OCR is committed to 
ensuring all students have equal access to education free from 
discrimination.
    Ms. BONAMICI. Sorry, I would really like an answer. 
Students and families need to know this. We had a mother of a 
transgender student here yesterday. We need to know this. Did 
you know when you rolled back the guidance that the stress of 
harassment and discrimination can lead to lower attendance and 
grades as well as depression for transgender students? Did you 
know that when you rolled back the guidance?
    Secretary DEVOS. I do know that, but I will say again that 
OCR is committed to ensuring that all students have access to 
their education free from discrimination.
    Ms. BONAMICI. Let me ask you this as well. When you rolled 
back the guidance, did you know that a study recently published 
by the American Academy of Pediatrics revealed alarming levels 
of attempted suicide among transgender youth? Did you know that 
as well when you rolled back that guidance?
    Secretary DEVOS. I am aware of that data.
    Ms. BONAMICI. I am extremely concerned based on what we 
heard yesterday about the rollback of that guidance. In my 
remaining time, I want to followup on Congresswoman Fudge's 
question about Education Freedom Scholarships because a $5 
billion tax credit means $5 billion less in revenue. And I do 
want to point out that you did receive three Pinocchios from 
the Washington Post for trying to say that was not using public 
money. It is public money if it is $5 billion less in revenue. 
That revenue could go to fund Pell Grants, to fund Title IV 
grants. And I see my time is expired. I yield back.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Smucker.
    Mr. SMUCKER. Thank you, Mr. Chairman. Good morning, Madam 
Secretary. Thank you for being here. I would like to just 
briefly talk about education free scholarships and let other 
members of the committee know just a little bit about a similar 
program in Pennsylvania, the EITC program, that has been in 
effect for a number of years and we have had a lot of 
discussions in Pennsylvania around charter schools. We have had 
discussions about school choice programs. There have been 
voucher programs. But the EITC program in the midst of all 
those discussions has had broad bipartisan support throughout 
the entirety that the program has been in effect and, in fact, 
almost every year we have been increasing the number of tax 
credit programs that are available. Why? Because people on both 
sides of the aisle see the benefit to students who could not 
potentially have the opportunity to attend a great school see 
the scholarships that are available through the program have 
talked to the families and the parents who desperately want to 
get their child into a school that works for them and again, 
have supported this on a bipartisan basis, both Republican and 
Democrat Governors.
    So, I think it is a great proposal. I appreciate the work 
that you are doing to ensure that every child has the 
opportunity for the world class education that they deserve, 
that every child has the opportunity for an education that will 
prepare them for life after K-12 whether it is a college or the 
military or directly to the workplace. It is critical that we 
continue that work and I am troubled by some of the points that 
are made by folks in their questioning to you that you are 
picking winners and losers as a result of this program. Our 
system today picks winners and losers based on your ability to 
pay for tuition at a private school if your school is not 
effective.
    Now, I have three of my own kids who have been through the 
public school system. We are fortunate to have, in the district 
that I represent, some absolutely great public schools and we 
should do everything that we can to continue to support the 
work that those schools are doing. But if there are districts 
where a parent does not have an opportunity to send their child 
to a school that will provide that kind of opportunity, it is 
incumbent upon us to be ensuring we put policies in place and 
we provide the resources so that everyone has that opportunity. 
So, I guess I would like you just to speak to that for a 
minute.
    I know the work that you have done to ensure that every 
student has an opportunity, to ensure that we have great 
schools whether they are public schools, whether they are 
private schools, whether they are magnet schools, charter 
schools, which are public schools, but, you know, I would like 
to talk just a little bit about this idea that we are picking 
winners and losers and how the work that you are doing 
indicates that is not what you are trying to do.
    Secretary DEVOS. Well, thanks, Congressman, and I know that 
Pennsylvania has had great success in meeting students' needs. 
And let me just say, my focus is and always will be on students 
and on helping all students get a great education through an 
equal opportunity. The Education Freedom Scholarships proposal 
would help advance that for many, many students and it is 
focused on students. As you have identified, individuals today 
who have the financial resources to send their child or 
children to a different school or to move to a different place 
already have choices, but there are way too many families that 
don't have that choice and we continue to consign them in too 
many cases to schools that do not work for them. There are 
studies after studies showing that we continue to do the same 
thing and expect different results. I am suggesting we do 
something different and test out and see how many different 
results we will get by doing something completely different and 
Education Freedom Scholarships would take us in that direction.
    Chairman SCOTT. Time has expired. They have called votes, 
but we have time to get in one additional set of questions. The 
gentleman from California, Mr. Takano.
    Mr. TAKANO. Thank you, Mr. Chairman. Madam Secretary, good 
morning. I would like to get directly at the questions related 
to borrowers' defense. Just 2 weeks ago, on March 28, Senator 
Patty Murray questioned you before the Senate Appropriations 
Committee on the number of borrower defense claims that your 
Department has approved since the October 2018 court order. The 
Department's own quarterly data through December 31, 2018, 
established that zero claims have been approved. Is it still 
true that no borrower defense claims have been approved?
    Secretary DEVOS. Well, Congressman, they had been being 
approved before the court stepped in. They have not been since 
the court stepped in.
    Mr. TAKANO. Madam Secretary, excuse me, by your own 
Department statistics, as of December 31, it showed that your 
Department has approved zero claims and then you also answered 
before Senator Patty Murray you thought that one was approved, 
but then the next day you issued a statement saying that no, in 
fact, that zero claims have been approved.
    Secretary DEVOS. It is true that none have been approved in 
the last several months. That is due to a pending court 
decision, a court case that has precluded us from continuing 
to--
    Mr. TAKANO. Madam Secretary, that court decision you are 
talking about is October 2018 and it lifted the stay and 
ordered you to implement the rule. So, I take it that zero 
claims have been approved and that nothing has changed. I would 
like to better understand the process by which the Department 
decides on borrower defense claims and why it has taken you so 
long to process the nearly 160,000 pending claims. I want you 
to understand that merely processing claims and faithfully 
implementing the rule, which you have been ordered to do by the 
court, are different. We see that you haven't approved or 
rejected claims, but you are closing them. Is your Department 
cherry-picking borrower defense claims with the intent to close 
out those cases?
    Secretary DEVOS. We have been addressing closed school 
discharges with the students that clearly qualify for their 
student loan forgiveness, and that's to the tune of $172 
million.
    Mr. TAKANO. My question is, are you cherry-picking borrower 
defense claims with the intent to close them out?
    Secretary DEVOS. We have closed out 16,519 eligible 
borrowers.
    Mr. TAKANO. I understand you have closed out those claims, 
but are you specifically cherry-picking them in order to close 
them out.
    Secretary DEVOS. We are ensuring that those who are due 
relief because of closed school discharge are addressed 
immediately. There are other students who have submitted--
    Mr. TAKANO. Okay. I repeat that you have not approved or--I 
am reclaiming my time. You have not approved or rejected a 
single claim. You have closed thousands of cases. Have you or 
any of your political appointees instructed career staff at the 
Department to focus on prioritizing the closing of the claims 
over approving them, yes or no?
    Secretary DEVOS. That have prioritized, I am sorry?
    Mr. TAKANO. Have you or any of your political appointees 
instructed career staff of the Department to focus on 
prioritizing the closing of claims over approving them.
    Secretary DEVOS. We are focused on addressing all borrower 
defense--
    Mr. TAKANO. That is a yes or no question.
    Secretary DEVOS. It is not a yes or no answer.
    Mr. TAKANO. Have you ordered your political appointees--
    Secretary DEVOS. We have attempted--
    Mr. TAKANO. Madam Secretary, I remind you, you are under 
oath. The question is have you or any of your political 
appointees instructed career staff at the Department to focus 
on prioritizing the closing of claims over approving them?
    Secretary DEVOS. We are focused on ensuring that the 
students clearly have closed school discharges--
    Mr. TAKANO. I think that is a non-answer. I am reclaiming 
my time. On the off-chance that your Department were to ever 
approve a student claim, is it not true that if the school has 
closed that the taxpayers are now liable for this debt and not 
the school that defrauded the student?
    Secretary DEVOS. The closed school discharge claims are 
ones that we are processing that we have already addressed $172 
million.
    Mr. TAKANO. I am reclaiming my time. I am reclaiming my 
time. The answer is that when the school is closed, the 
taxpayers are liable for that unpaid loan. However, if the 
school is still open, the Department has the ability to begin 
processing the--recovering the recompense of these schools. 
Knowing this, a reasonable and prudent person might posit the 
idea that your Department may have the perverse incentive to 
intentionally delay implementation of the borrower defense rule 
to protect the financial interests of these for-profit 
institutions and their investors. Last month you also confirmed 
that the Department is still working to promulgate new borrower 
defense rulemaking. Is the fact that the Department is drafting 
a new rule, a possible explanation for the delayed 
implementation of the borrower defense rule?
    Secretary DEVOS. We are implementing the borrower defense 
rule as ordered to do and we are also in the process of 
continuing to refine the rule because we do not agree with the 
previous policy of the--
    Mr. TAKANO. Well, Madam Secretary, I will state again that 
160,000 pending claims, not a single approved claim, thousands 
and thousands of closed claims. I am very troubled by your non-
answers today. Madam Secretary, there is no freedom in a 
student being obligated to pay off a loan from a school that 
has defrauded them. It is an unjust burden. I yield back.
    Chairman SCOTT. As the clock shows, a vote has been called. 
There are several votes and it will be at least about a half an 
hour before we can get back. We will recess until 10 minutes 
after 11. Committee is in recess.
    [Recess]
    Chairman SCOTT. The committee will come back to order, and 
I want to welcome everyone back to the hearing with Secretary 
DeVos, but before we resume questioning, I needed to clarify a 
couple of things for the record. First, Madam Secretary, the 
OIG report referenced by my colleague from Connecticut, Mr. 
Courtney, on loan servicing did not only review records prior 
to your time as Secretary, the OIG did a review of records from 
January 2015 through September 2017, which means that the OIG 
did find failure to adequately supervise loan servicing during 
your--while you were Secretary. While I am glad you collected 
something from services for their noncompliance, the record 
should reflect that this amount only represents less than 0.1 
percent of the $1.7 billion that--budgeted for servicing. Given 
that 61 percent of the reports reviewed by the OIG showed 
failures, I would have expected a larger collection.
    Second, Madam DeVos, you mentioned the importance of 
allowing the Federal Work Study to better align with students' 
career goals, but failed to mention that you had proposed to 
cut the program by more than half in your budget. And third, 
during my questioning, I asked if Disparate Impact Analysis is 
legal and required under Title VI and the regulations. Your 
response was yes, we continue to enforce it, as it has been 
regulated to date.
    Based on that, I can assume that data that shows that a 
school district policy or practice has a potentially 
discriminatory effect--For example, when a district is 
expelling black students at a rate disproportionately higher 
than white students--the Office of Civil Rights, under your 
leadership, will be opening investigations, when data show the 
discriminatory effect, in compliance with that regulation. With 
that, I recognize the gentleman from North Carolina, Mr. 
Walker.
    Mr. WALKER. Thank you, Mr. Chairman. Early this year, I 
introduced the SOAR Reauthorization Act of 2019. This 
legislation reauthorizes the D.C. Opportunity Scholarship 
Program for 5 years, providing low-income students in the 
District of Columbia scholarships to attend high-quality 
elementary and secondary private schools. Ninety-one percent of 
students participating in the programs are minorities with an 
average family income of $24,000. These scholarships provide a 
lifeline to students who would not have opportunities to 
achieve academic success otherwise. Like you, Secretary, I have 
met some of these wonderful families, and have seen the hope 
this particular legislation brings to pass.
    Secretary DeVos, I want to thank you for your requesting 
increased funding for the D.C. Opportunity Scholarship Program. 
In your opinion, two-part question, why is it important for 
Congress to act now and reauthorize the D.C. Opportunity 
Scholarship Program, and what are some of the possible impacts 
of a lapse in funding for this program?
    Secretary DEVOS. Well, Congressman, first, let me say thank 
you for your leadership on championing this in your committee 
and in your body. I think that, well, first of all, the 
Opportunity Scholarship Program is serving students' needs 
today, and there is a demand, an increased demand for more 
students to be able to participate. So, there is a demand for 
more opportunity. That is why we have asked for an increase in 
funding there, doubling that program, and then it is important 
to act because these students' opportunities are going to run 
out if the funding is not reauthorized, and if it is not made a 
permanent part of their ability to plan.
    We know that more than half the students in the District of 
Columbia actually choose schools different than their assigned 
one, and this has made for a very robust and great improvement 
on many levels.
    Mr. WALKER. That is an interesting point that you just 
made. I do not want to get past that over half, or right at 
half, of these students would choose different schools. That is 
important, and it allows--it empowers the parents and these 
families to make the best education choices. There have been 
many claims. We have heard some interesting claims, even today, 
by my Democratic colleagues, about the SOAR Reauthorization Act 
of 2019 diverting resources from the public schools. How would 
you respond to those claims, specifically, in regards to the 
three-sector approach of this legislation?
    Secretary DEVOS. Well, the District of Columbia has done a 
great job of addressing the needs of all students, and allowing 
for students to find the right fit for them. It should be a 
model everywhere, frankly. Students need to go where their 
education is going to work and fit for them, and Washington, 
DC, has been a good model for this, and all students' 
achievement has been improved, as a result of having these 
choices and the competition between the various kinds of 
schools.
    Mr. WALKER. I think the evidence supports that. Let me 
switch topics and kind of go into the higher education, if I 
could, please, and talk about the historical black colleges and 
universities. I represent the largest HBC in the country. My 
wife is a two-time graduate of Winston-Salem State. I represent 
A&T. We have a little Aggie/Ram thing about football season, 
but that is a different time to talk about.
    I do understand the importance, and the roles, and I have 
seen the, really, the great work that some of our HBCUs are 
doing, and what they--and the role they play in the higher 
education system. Secretary DeVos, from my understanding, your 
budget request had included $626.4 million for programs related 
to HBCUs. Is that correct?
    Secretary DEVOS. That is correct.
    Mr. WALKER. Can you elaborate on the initiatives and plans 
of the Department to improve academic quality and increase 
opportunities in the aforementioned HBCUs?
    Secretary DEVOS. Well, we think HBC--this President and 
this administration know and respect the value that HBCUs bring 
to higher ed in our country, and we continue to support them 
and their missions. I meet regularly with the presidents of 
many of the HBCUs and the leadership of their consortium, and 
continue to look for ways to--for them to be able to strengthen 
the programs they are offering, and to be able to offer more 
students the opportunities that they already have.
    Mr. WALKER. Three years ago, Senator Tim Scott and I 
partnered, for the first time ever, to bring more than 80 
chancellors of historical black colleges and universities to 
Washington, DC. It was a way that we could hear firsthand, and 
see what the issues and the concerns were. You were gracious 
enough, I think it was maybe our second year, that you came 
out, after being named the Secretary of Education, that you 
came.
    One of the things that we learned from those meetings is 
the importance of Pell Grants and how, with an estimated 70 
percent of students eligible for Pell Grants, one of the things 
that we learned was to not just have these in the spring and 
summer, but to be able to incorporate that, those, year-round. 
With your support, we were able to see that come into law. My 
final question, for you, is how does the Department's budget 
expand access to these Pell Grants?
    Secretary DEVOS. Well, the budget proposes expanding Pell 
Grants to short-term, high-quality programs, so that students 
can access certification and certificate programs that do not 
take a full semester or a full year, and we think this is an 
important next step to modernize--
    Mr. WALKER. Sure.
    Secretary DEVOS [continuing]. the Pell offering.
    Mr. WALKER. Thank you for your service. And with that, Mr. 
Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentlelady from North 
Carolina, Ms. Adams?
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being here today. I listened to Congressman from 
North Carolina talk about Pell Grants, and I am 40 years, 
retired, college professor in Greensboro, at Bennett College. 
My question of your--in terms of following up on that, Pell 
Grants are great. Many of our students who attend HBCUs, 80 to 
90 percent of them depend on it and financial aid, and, yes, we 
have expanded it year-round. But I think we also need to--we 
got to expand the money year-round, because if you stretch it 
out, and we do not put the additional dollars in that, that 
does not help very much, but it is certainly an opportunity for 
students to do better. Is it true that your Fiscal Year 2020 
budget plan fails to request reauthorization of mandatory 
funding for MSIs, resulting in a cut of $255 million for MSIs, 
including $85 million to HBCUs, which represents some of our 
lowest endowed institutions, and I want to move quickly? So, if 
you could, tell me if you know that, yes or no?
    Secretary DEVOS. Well, ma'am, the budget has proposed 
consolidating many of those smaller grants into one that could 
be better targeted to the institutions and that way, primarily, 
the students that need it most, to give more flexibility to 
meet individual students' needs.
    Ms. ADAMS. So, that is a yes or a no?
    Secretary DEVOS. Well, it is a proposal to consolidate--
    Ms. ADAMS. Okay. That--
    Secretary DEVOS [continuing]. some of the smaller line 
items into one, with a mission--
    Ms. ADAMS. Oh, okay.
    Secretary DEVOS [continuing]. to serve those students--
    Ms. ADAMS. Right.
    Secretary DEVOS [continuing]. more broadly and more 
effectively.
    Ms. ADAMS. Thank you. All right. What was the rationale for 
eliminating funding that many institutions depend on, which 
could eventually force a handful of them to close?
    Secretary DEVOS. We, again, have made budget requests on 
the discretionary side. We also know that the mandatory side, 
of course, is not impacted by any of the budget requests. We 
continue to want to ensure that students have the most 
opportunity to access the funds that Congress intends to reach 
the most needy and vulnerable students.
    Ms. ADAMS. Okay. Let me move on because I have got a lot I 
want to ask. It appears to me that the Department may have its 
priorities a little bit confused because it is willing to see 
schools who have filled an--or fill a historical mission, and 
educates a large percentage of low-income, first generation 
college students face hardship. Yet, it continues to prop up 
low-performing and unscrupulous for-profits. So, I want to 
touch on a line of questioning that Ms. Bonamici started. You 
said that the decision is provisional, but it still does not 
make a lot of sense to me. In fact, the decision to re-
recognize and ignore the thorough analysis conducted by your 
staff, who concluded that ACICS did not meet two important 
recognition criteria: competency and conflict of interest. So, 
are you aware that less than a month after you re-recognized 
ACICS, Education Corporation of America, a large for-profit 
chain accredited by ACICS closed 70 campuses in 18 States that 
enrolled 1,900 students--19,000 students? Are you aware of 
that?
    Secretary DEVOS. Well, Congresswoman, with regard, broadly, 
to ACICS, we, again, followed the judge's order to consider 
36,000 pages of information that had not been considered by the 
previous administration and--
    Ms. ADAMS. So, you are aware?
    Secretary DEVOS [continuing]. the report, to which you are 
referring, did--also did not take into account that 
information, so.
    Ms. ADAMS. Okay. Madam Secretary, are you aware of that? 
Can you say yes or no?
    Secretary DEVOS. I am aware of the process that we went 
through to recognize and reinstate ACICS.
    Ms. ADAMS. Oh, okay. All right. Well, let me move on. I am 
not going to--you are not going to give me a yes or no, so. Are 
you aware that in the year leading up to your decision to re-
recognize ACICS, 61 accredited schools were closed, 61?
    Secretary DEVOS. Again, Congresswoman, I--we followed the 
process that--we followed a very thorough process in 
reexamining ACICS's ability to accredit, and are confident that 
the process was done accurately, particularly given the court 
order to consider--
    Ms. ADAMS. All right.
    Secretary DEVOS [continuing]. 36,000 pages of unconsidered 
information.
    Ms. ADAMS. What then is the justification for not seeking 
input from the Statutory Advisory Committee with the sole 
function of providing a policy recommendation to you, primarily 
relating to accreditation and the accreditor?
    Secretary DEVOS. I do not--
    Ms. ADAMS. And I only have a few seconds.
    Secretary DEVOS. Well, again--
    Ms. ADAMS. You cannot give me--Okay.
    Secretary DEVOS [continuing]. we have--we underwent a very 
thorough process.
    Ms. ADAMS. All right. Let me just say that the answers that 
you have provided reveal a fundamental lack of concern for the 
tens of thousands of students that were taken advantage of 
because of shoddy oversight by ACICS and, Mr. Chairman, I think 
it would be nice if we had a Department that actually puts 
students first, particularly our students who view higher 
education as their ticket out of poverty. I was one of those. 
So, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentleman from Texas, Mr. 
Taylor?
    Mr. TAYLOR. Thank you, Mr. Chairman. Madam Secretary, you 
did not get--you have not had a chance to answer a lot of 
questions. Is there anything you want to add to fill out, maybe 
round out an answer to a question so far?
    Secretary DEVOS. Well, there have been a number of things 
on which I was not able to really comment, and I think it is 
difficult if issues are being conflated and I did not--I also 
am here not to answer multiple choice questions, but really to 
have an exchange on a number of issues that are of mutual 
concern to all of us. Our concern is about students, and so--
    Mr. TAYLOR. Sure.
    Secretary DEVOS [continuing]. I will try to address them as 
I need to, again. Thanks. Thanks for the opportunity.
    Mr. TAYLOR. All right. Thank you, Madam Secretary. Well, I, 
you know--and I think what is of mutual concern to all of us 
is, certainly, the rising cost of college, and so something 
that we have found, in Texas, is that dual credit classes make 
a huge impact. If a student takes a dual credit class at the 
high school level, they have a higher percentage of--they have 
a higher GPA in college. They graduate sooner. They graduate 
with less debt, and they are more likely to graduate from 
college at all. So, rigor in high school makes a difference in 
college graduation rates, and I think that everybody here cares 
about more children successfully finishing high school and then 
going on successfully getting a college degree and being 
educated.
    I think that is what everybody in this committee is really 
committed toward, and so dual--again, going back to dual 
credit, dual credit is--has been very successful in my time in 
the Texas legislature, all through legislation, to make sure 
that students that took dual credit classes would receive 
funding from the State of Texas, and I have seen some really 
great innovations at home.
    I will highlight one of my districts, Allen Independent 
School District. They have--actually, they are building a dual 
credit academy that would actually provide an associate's 
degree when the student finishes high school, with their 
community college, and so we are--and that actually saves the 
taxpayer money because you are already paying for that high 
school degree, and so, if they graduate with an associate's 
degree, you are that much better off.
    One of the things that I have had discussions with, on both 
sides of the aisle, is having the Department of Education 
recognize high schools, like Allen Independent School District, 
that are actually doing a good job, having more dual credit 
classes. Have you given any thought on how the Department of 
Education can participate in recognizing schools that are doing 
a good job across the country, on a State-by-State basis, that 
are doing a good job on dual credit?
    Secretary DEVOS. Sure. Sure. Well, we had talked about this 
a bit, and I think it is a great idea that--one that we should 
look into to, perhaps, recognize creativity in this area, in a 
new way. It is not an area that we have had any kind of formal 
recognition in, but I would be happy to work with you to 
consider a program such as that.
    Mr. TAYLOR. All right. Well, it is certainly something, I 
think, that is important, you know, for our country. We need to 
have more people who are highly educated, and I think that 
clearly rigor in high school means results in college, and dual 
credit is definitely, without any doubt, has a definite 
positive impact that way. So, I look forward to--
    Secretary DEVOS. Thank you.
    Mr. TAYLOR [continuing]. working with you on that. Mr. 
Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentleman from New Jersey, 
Mr. Norcross?
    Mr. NORCROSS. Thank you, Mr. Chairman and Secretary. Thank 
you for coming here today, and I agree with our colleagues that 
we are all looking to create an education system that is better 
for our children, and I think one of the ways we can do that is 
making sure the teachers, along with administrators and 
certainly the kids, work toward that direction in working 
together.
    So, one of the things that I have known from my history, 
previous to coming here to Congress, is that a relationship 
between the employer and the employee works best when they work 
cooperatively. So, one of the things that you recently talked 
about is that you are thankful for the Supreme Court decision, 
in Janus, because it freed up those who believe, or have been 
coerced to be participants in something they did not want to 
participate in.
    In reality, teachers are being targeted, spammed, coerced 
by groups, such as Mackinaw, the center that you probably know 
something about, and public policy from the Freedom Foundation. 
They have called. They have emailed. They have advertised. They 
have gone door to door, trying to get teachers to leave what 
they believe is a fair foundation for learning, and that is 
their union.
    If teachers are choosing to join unions, why are the two 
foundations--that your families associate with--the top givers 
to those groups that are trying to get people to leave what 
they believe in, and that is joining a union. Why would you do 
that?
    Secretary DEVOS. Well, Congressman, I am an advocate for 
Freedom Across the Board, and we have a very significant 
proposal to help teachers exercise more freedom in their own--
    Mr. NORCROSS. By coercing?
    Secretary DEVOS [continuing]. personal, professional 
development.
    Mr. NORCROSS. If everything that you spoke against is 
about--
    Secretary DEVOS. Congressman, can I please--can I please 
finish--
    Mr. NORCROSS. You can, but I want to make sure you answer 
the question that I am asking--
    Secretary DEVOS. Well, I am--
    Mr. NORCROSS [continuing]. and that is one of the relation; 
to call, to email, to advertise, and go door to door. That is 
not an educational program. That is coercing, and in your 
Statement you talked about that. So, that is what I would love 
to have you answer.
    Secretary DEVOS. And, Congressman, the proposal that our 
administration has put forward would allow teachers to 
determine their own professional development, and to take 
advantage of developing themselves with autonomy, and not be 
assigned to do so by their district or their building or 
whatever, but allow them to continue--
    Mr. NORCROSS. What does that have to do with joining 
unions? They are not being assigned to join a union.
    Secretary DEVOS. In--and the Janis decision has allowed 
teachers to decide whether to be part of a union or not.
    Mr. NORCROSS. Absolutely.
    Secretary DEVOS. So, I am talking about the proposal that 
we have put forward to elevate teachers and their profession, 
and to continue to help them in their own development, to 
develop a mentorship and residency program--
    Mr. NORCROSS. And what does that have to do with joining 
unions? You are not answering that.
    Secretary DEVOS. It does not have anything. It has--it has 
to do with supporting teachers.
    Mr. NORCROSS. So, why are you--why are you answering that 
when we talk about--
    Secretary DEVOS. It has to do with supporting--teachers, 
and that is what we are--
    Mr. NORCROSS. But I am not asking about supporting 
teachers. You took a public position suggesting that joining a 
union of their own free will was something that you did not 
believe in. So, you are not answering me--
    Secretary DEVOS. No, I said that--I said I was pleased that 
they have--now have the ability to decide whether or not--
    Mr. NORCROSS. They have already had that ability, as you 
know, but you, through your foundations that you are associated 
with, have coerced, have sent letters, have gone door to door, 
doing exactly what you said they should not do. So, I am 
finding it very difficult to--
    Secretary DEVOS. Congressman, when I took this job, I 
resigned from anything and everything outside of this job. I am 
focused--
    Mr. NORCROSS. So, you no longer believe that?
    Secretary DEVOS. I am focused on students--
    Mr. NORCROSS. So, you no longer believe in that?
    Secretary DEVOS [continuing]. and I am focused on 
supporting teachers and great teachers to be able to advance in 
their jobs.
    Mr. NORCROSS. So, do you believe the teachers should have 
the ability to join a union?
    Secretary DEVOS. Clearly, they should--
    Mr. NORCROSS. Okay. So, you believe in democracy?
    Secretary DEVOS [continuing]. and they should have an 
ability to not, if they decide not to.
    Mr. NORCROSS. We agree with that. It is called democracy. 
It is something we do here in this country, pretty well, but do 
you still believe--you told me you have resigned from the 
foundations, that you no longer believe in coercion because 
that foundation helped pay those organizations, to call, knock 
on doors, coerce. Do you still believe in that?
    Secretary DEVOS. Congressman, I am here for one job, and 
one job--
    Mr. NORCROSS. Do you still believe in that? It is a very 
simple question. It is not multiple choice.
    Secretary DEVOS. And it is a very simple answer.
    Mr. NORCROSS. It is yes or no, and I want to be respectful, 
but you also have to respect us--
    Secretary DEVOS. I am here to support students and their 
futures.
    Mr. NORCROSS [continuing]. in actually answering the 
questions, and that is the part that you and I can agree with. 
We are here to try to ask questions and get answers, and that 
is the way we work together, but when you start answering 
something I did not ask, that is very disrespectful. I yield 
back the balance of my time.
    Chairman SCOTT. The gentleman from Texas, Mr. Wright?
    Mr. WRIGHT. Thank you, Mr. Chairman and Madam Secretary. 
Thank you for being here today. First, I want to applaud your 
dedication to freedom and education. Not only does that result 
in more choices, but also more innovation, which, I think, our 
system desperately needs. I also want to offer to you that it 
is not your responsibility to educate students. You are not in 
the classroom. That is a responsibility, first and foremost, of 
parents, then of teachers, administrators, schools, under the 
guidance primarily, of local and State governments, not the 
Federal Government.
    You can offer opportunity, guidelines, even restrictions, 
but your job is to carry out Federal laws that relates to your 
Department as determined by the President of the United States. 
Would you agree with that?
    Secretary DEVOS. I would agree with that.
    Mr. WRIGHT. Thank you. I wanted to speak just a moment on 
higher education. I know you have already discussed this at 
great length, but we had a hearing not too long ago on this 
that was mentioned earlier, and I was very disappointed that 
the panel's consensus seemed to be that the answer was more 
Federal money. There was a reluctance to even discuss how 
colleges and universities might lower their cost, and, as you 
know, there has really been no incentive for higher education 
to lower its cost, especially when the Federal Government is 
guaranteeing all of these loans. So, can you speak to that, and 
how we might entice or get, you know, colleges and universities 
to look at that side of the equation?
    Secretary DEVOS. Well, Congressman, it is a complex 
question for sure, and it is a concern. And I have a graph here 
that I think very graphically illustrates the rise in cost, 
from $7,000 for a 4-year degree in 1980 to now, on average, 
$19,000 in public universities. So, it confirms what you have 
already raised the spectra of. I think we start by helping 
students with more information and giving them more tools, when 
making a decision about where to go to school, and part of our 
next gen initiative is to add information to the college 
scorecard. That will allow students to compare, at a program 
level, by institution, what the cost of that education is going 
to be and what their likelihood is in terms of earning 
potential, at a program level, which is going to be far more 
valuable than the information that we currently have, which 
just gives an average for a school, which does not tell you the 
dramatic differences between, say, if you are a history major 
perhaps or an engineer, and that is one tool that I think that 
we can provide students.
    I think we need to work together, and I look forward to 
proposals that might be advanced from this body around how to 
hold schools accountable or how to have them have some skin in 
the game. I have not yet heard a really good proposal advance 
that might get after this, but the reality is that there is no 
incentive to restrain costs.
    Mr. WRIGHT. Right. Thank you. My last question has to do 
with something that also has already been discussed, and that 
is, I know that you are as dedicated as anyone to preparing the 
next generation of work force, and that entails all kinds of 
things and education. In my district, we have at least two 
school districts that have career centers, and it is really 
cutting edge, innovative stuff, and I know there is a lot of 
these around the country, but I would invite you to visit 
someday. I think you would be impressed because high school 
students are graduating with State certifications to go right 
into jobs, and everything from being certified welders to 
certified phlebotomists, one of them being Barbara and 
Mansfield, is starting a new program to teach high school 
students how to operate and maintain drones because that is an 
emerging market demand. And I want to know what your Department 
and what your budget is doing that would help these 
collaborative efforts like that, so that we can help educate 
these kids that are not going to go to college.
    Secretary DEVOS. Well, we have a couple of areas in which 
we have focused--proposed focused resources. One is around the 
Education Freedom Scholarships Initiative. Programs could be 
created in States to really enhance career and technical 
education options for students, and provide new ways to do 
that, provide transportation dollars for students. And then, on 
the other side, we have in the budget the $1.3 billion around 
the Perkins Five and to support continued implementation of 
these opportunities, both at the high school and post high 
school level, and then a pre-apprenticeship program that we 
have proposed to the tune of $60 million. That would help 
students that are--that need to actually come back to school 
before they can even be considered for an apprenticeship, but 
the whole notion of career and technical education 
opportunities is one that States have begun to address in 
specific ways.
    There are many more opportunities to do what is necessary, 
both for students and for their opportunities, in terms of 
employment, and the best way to do that, I think, is a 
cooperative effort on a regional level, between employers and 
educators, really looking at and addressing the needs of that 
region.
    Mr. WRIGHT. Right. Thank you very much and, Mr. Chairman, I 
yield the remainder of my time to Dr. Foxx.
    Chairman SCOTT. Thank you. The gentleman's time has 
expired.
    Mr. WRIGHT. Sorry. I tried.
    Chairman SCOTT. The gentlelady from Washington, Ms. 
Jayapal?
    Ms. JAYAPAL. Thank you, Mr. Chairman and Madam Secretary. 
Thank you for being here today. I wanted to just start 
somewhere where I think we would be on the same page, which is 
the mission Statement of the Department of Education. Can you 
just tell us the one sentence mission Statement of the 
Department of Education?
    Secretary DEVOS. The mission Statement of Department of 
Education is to help students be prepared for their futures, a 
mission that I am focused upon.
    Ms. JAYAPAL. Okay, good. I will just read it. I am not 
trying to trap you here, so. It is to promote student 
achievement in preparation for global competitiveness by 
fostering educational excellence and ensuring equal access. Do 
you agree with that?
    Secretary DEVOS. I do.
    Ms. JAYAPAL. Great. So, putting students first is essential 
to fulfilling the mission, as you have mentioned in your 
Statements, and that includes the Department of Education's 
role in setting standards for the schools that take Federal 
student aid money to ensure that students are actually getting 
that quality education through a process of accreditation, 
which, for people out there, is sort of like the Good 
Housekeeping Seal of Approval in order to get government money. 
And so we have got to make sure that we get this right because 
if the standards are not strong enough, and if the institutions 
are just out to scam students and taxpayers or do not provide a 
good education, then everybody loses. But here is the thing 
about accreditation agencies, they are actually funded through 
fees from the very institutions that they regulate. So, there 
is potential for real conflicts of interest here, and that is 
why it is important that the State Department sets up some 
standards to hold them to account, and the standards have to 
make sure that we are not playing into the old adage of ``the 
fox is guarding the henhouse.'' Right? You know that phrase, 
``The fox is guarding the henhouse,'' means that someone who 
cannot be trusted has been chosen to protect someone. Kind of 
like a bank robber guarding a bank.
    Okay, so earlier this year, you convened a committee to 
rewrite these basic standards in a process called Negotiated 
Rulemaking. Out of the 17 voting members on this committee, how 
many slots were allocated to representatives of students, since 
we are putting students first?
    Secretary DEVOS. Well, Congresswoman, let me just say that 
I am very proud and excited about this process--
    Ms. JAYAPAL. I know you are, you have said that. I just 
wanted to know how many slots on the committee were allocated 
to students.
    Secretary DEVOS. Negotiators were selected by a career 
team--
    Ms. JAYAPAL. How many slots were allocated to students out 
of 17? If you don't know the answer, I am happy to provide it 
to you.
    Secretary DEVOS. The negotiating team was put together--
    Ms. JAYAPAL. I am just going to, I am sorry, Secretary--
    Secretary DEVOS. Was put together by the career staff--
    Ms. JAYAPAL. We are only given 5 minutes so let me reclaim 
my time. I asked you a very specific question. Secretary, let 
me answer the question that you haven't answered, which is 2 
slots out of 17 were provided to representatives of students. 
How many slots were provided to attorneys general? State 
attorneys general?
    Secretary DEVOS. Again, Congresswoman, the negotiating team 
was assembled by career staff in accordance to the Negotiated 
Rulemaking process--
    Ms. JAYAPAL. So the answer to the question, the answer to 
the question is no State attorneys general were on the 
committee. Why is that important? Because State attorneys 
general, like mine, Bob Ferguson in Washington State, are some 
of the biggest players in actually protecting students from 
low-quality institutions.
    Now, I want to go on to talk about the actual list. As I 
look at the list of who you appointed, and I understand what 
the process was, there were essentially--the remaining slots 
were owners of several for-profit colleges, two major 
accreditors of for-profit colleges, and other industry 
representatives, and in my mind that is sort of like putting 
the foxes in charge of the henhouse.
    So, let us just talk about the rules as an example of what 
happened out of this committee. Under the new rules, if a 
school stops living up to its accreditor's standards, in many 
cases, because it is providing a subpar education, how long 
would the accrediting agency have to take action and inform 
students that there is a problem?
    Secretary DEVOS. Congresswoman, as you well know, the 
Negotiated Rulemaking process requires that--
    Ms. JAYAPAL. I am just asking you how long they would take.
    Secretary DEVOS. I am not going to comment on the specific 
recommendations of--
    Ms. JAYAPAL. Okay, well, let me--
    Secretary DEVOS. The commission--
    Ms. JAYAPAL. That is fine--
    Secretary DEVOS. I am going to talk about the next steps in 
the process.
    Ms. JAYAPAL. That is not my question and I control the 
time, Madam Secretary, with all due respect, so--
    Secretary DEVOS. I guess you don't really want to have a 
dialog.
    Ms. JAYAPAL. My question was, my question was how long 
would the accrediting agency have to take action and inform 
students that there is a problem? The answer to that question, 
with the rule that you are proposing, is 4 years. Four years is 
the time that a student is in college. The entire time they 
could be at an agency that is subpar, that is taking their 
money, that is taking taxpayer dollars, and yet not even know 
that is the case. So, let us look at--
    Secretary DEVOS. Of course you will have an opportunity to 
comment during the public commenting period--
    Ms. JAYAPAL. Let us look--you will be able to do that if 
the chairman wants to give you time at the end of my time, but 
I control my time, so let us look at another rule here, which 
is, it makes it easier for schools to buy out campuses that 
shut their doors to students while leaving taxpayers on the 
hook for outstanding debt.
    So, Wall Street investors could come in, they could take 
over a struggling campus, they could make a profit from that 
buy-out and then face very limited consequences to actually 
educate students who paid tens of thousands of dollars. Madam 
Secretary, I know my time is over, but I would just say that we 
have to make sure that the Department of Education is 
protecting our students and our taxpayer dollars, and these 
rules do not do that. Thank you, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you, Madam Secretary, did you want to 
comment?
    Secretary DEVOS. Sorry?
    Chairman SCOTT. Did you want to comment?
    Secretary DEVOS. I just wanted to comment that this process 
will now unfold to a draft rule being released and that you 
will have ample time to weigh into during the public comment 
period. That is what the rulemaking process does and that is 
what we intend to do. And so, if there are issues about which 
you disagree or others disagree, there will be ample time to 
weigh into that. The negotiators did a great job. I am proud of 
the work that they did. I am proud that they reached consensus 
on a number of different issues that were very wide-ranging and 
difficult, and I am looking forward to the next steps in that 
process.
    Chairman SCOTT. Thank you. The gentleman from Wisconsin, 
Mr. Grothman.
    Mr. GROTHMAN. Thank you for being here. And one of the 
things I wasn't initially going to comment on here today, but I 
am a little bit surprised, I am glad you haven't taken the bait 
and felt that the Federal Government should be a lot more in 
education than it is, and that you understand our Constitution. 
I think it bothers me that so many people got out of our school 
systems and come to see me as a Congressman to help improve 
their local school districts and they have, first of all, no 
respect for our constitution and the authority the States and 
locals have, and almost as sad, they seem to have a complete 
contempt for their local school districts and State governments 
and that they want you to send more bureaucrats to run around 
and look over the shoulders of local administrators, local 
school boards, so, thank you for your holding your ground.
    Do you have any suggestions what we can do to make sure 
that the next generation of Americans understands the role of 
Federal Government, the limited role of Federal Government in 
education under our constitution?
    Secretary DEVOS. Well, Congressman, I think there is a 
great opportunity for all schools to take seriously the, I 
think, responsibility to prepare young people to be good 
citizens and to learn about their Nation's history in a way 
that is current and relevant and practical, and that gives them 
a foundation on which to then go out and form their opinions 
and debate ideas.
    Mr. GROTHMAN. We have talked before about Ability One 
programs and State programs in which people with different 
abilities than ourselves, have an opportunity to experience the 
satisfaction of work, the ability to earn their own paycheck, 
and the ability to have a setting in which they are able to 
socialize with so many people. Right now there are people out 
there who want to get rid of these, what used to be called 
shelter workshops and now we call work centers; I wonder if you 
could comment, in the future if there is a direction the 
Department would like to go with regard to protecting, not just 
these work centers, but even more, the people who work in them?
    Secretary DEVOS. Well, Congressman, I know that you have a 
great heart for these individuals and some of the opportunities 
that are within your district and with regard to the specific 
guidance that you are asking about, we are still in the process 
of evaluating and reviewing it, and know that we share the same 
goal of ensuring that all individuals have, particularly 
individuals with disabilities, have the opportunity to work in 
an environment that is challenging for them and that works for 
them and that they will have choices in that prospect as well. 
So, we will continue to work together to try to meet that end.
    Mr. GROTHMAN. Okay, there are so many tens of thousands of 
people who enjoy working in their current settings and I know 
it is so difficult, you get this big job and the number of 
rules and laws that you are responsible for and the number of 
employees you are responsible for is overwhelming, do you think 
you would ever be able to take time out of your busy schedule 
and tour one of these facilities and see firsthand what is 
going on?
    Secretary DEVOS. I would love to be able to. I know our 
assistant secretary, Johnny Collett, has and has said that he 
really appreciated his visit and he gained much greater 
understanding of the places that you have been referring to.
    Mr. GROTHMAN. Okay, now I would like to switch gears 
entirely to dual enrollment programs and we have got to do what 
we can to get people in the world of work without excessive 
student loan debt and, quite frankly, the earlier they get to 
work in their life, the quicker they will be able to afford a 
new house, the quicker they will be able to get married and 
have children.
    Do you think an advanced degree can guarantee that students 
are receiving a high-quality education that can lead to a good 
job in their field, or do you have a comment in general on what 
we can do to facilitate dual enrollment programs?
    Secretary DEVOS. Well, this administration does support 
much more robust dual enrollment opportunities as well as 
supporting a variety of career paths that, heretofore, really 
haven't been supported in the ways that we think they should 
be, and that there is opportunity for so many students to 
pursue a really meaningful career, that does not require a 4-
year college or university degree. And so we will continue to 
support all of those initiatives that enhance those 
opportunities and support States and regions in their efforts 
to specifically address those opportunities in their 
geographies.
    Mr. GROTHMAN. I appreciate you standing up to this special 
interest and there is money to be made in standing in the way 
of this dual enrollment programs and the accreditation, but I 
appreciate you standing up to the people who think the 
accreditation group comes first and the students come second. 
So, thank you again for coming over here today.
    Chairman SCOTT. Thank you. The gentleman from New York, Mr. 
Morelle.
    Mr. MORELLE. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. And thank you, Madam Secretary, 
for your service and for being here this morning, this 
afternoon.
    Since 2014 more than half a million students have been 
displaced by college closures, and of those, just shy of 85 
percent of about 425,000 attended for-profit colleges. In my 
home State of New York, there were over 13,000 students 
displaced by for-profit college closures. More concerning are 
the high percentage of women, Pell Grant recipients, and 
minorities impacted by these closures. Just in my district, in 
2015 the closure of the for-profit school, Everest Institute, 
left 462 students in chaos.
    Many students attending for-profit colleges are working 
adults with families, often living paycheck to paycheck, while 
trying to invest in their future and provide a better life for 
their families, nontraditional students in many cases. And when 
the schools shut down there are students who fall on even 
harder times perpetuating the cycle of poverty that many are 
trying to escape in the first place.
    Just last month, 24 schools in the Argosy Chain closed 
stranding nearly 10,000 students. These closures are yet 
another, in a long line of major school closings, and aren't 
likely to be the last. The handling of these closures are poor 
examples of leadership and with all due respect, I think the 
Department has missed multiple opportunities to protect 
students from the hardships of college campus closures, so I do 
want to discuss those issues.
    With previous for-profit college closures such as ITT Tech, 
the Department required them to post the $250 million letter of 
credit to cover costs associated with closing the institution. 
According to the Department's pre-acquisition review paperwork 
at the time, Dream Center purchased Argosy Campus in 2017. The 
Department had roughly a $100 million letter of credit on file 
to cover liabilities if the institutions closed, which 
obviously it had come to a point where that letter of credit 
would be important.
    Was the letter of credit on file with Argosy on the last 
day of its closure, do you know?
    Secretary DEVOS. Congressman, let me just say that schools 
closing is always unfortunate and regrettable, and our focus 
with school closures is on students and helping them transfer 
to another program if they are able to. We are working closely 
with every school that is in the process of closing, or has 
closed, to ensure that those funds that were retained are used 
appropriately and that students have every opportunity to 
continue their studies if they choose to and if programs are 
found for them to be able to continue.
    Mr. MORELLE. You know--and I appreciate that. Do you know, 
though, in response and directly as it relates to my question, 
do you know whether there was a letter of credit--
    Secretary DEVOS. I will be happy to get back with you if 
you submit a question for the record on that.
    Mr. MORELLE. Okay, I appreciate that. I will say that I 
think it is hard for us to know. There is a lack of 
transparency around this, however, as evidenced by the 
Department's court filings in November of 2018, the Department 
either gave back or let all outstanding Dream Center letters of 
credit lapse and had no letters of credit on file as of the 
closure and I find--obviously, I find that troubling. Someone--
I dealt with letters of credit, insurance and collateral as a 
chairman of the Insurance committee in the New York State 
Assembly, and find this, frankly, if it is true, financially 
irresponsible.
    Mr. Chairman, I ask unanimous consent to submit the 
following: court filing from November 19, 2018, into the 
record, showing that no letter of credit was on file with the 
Department in November of 2018.
    Chairman SCOTT. Without objection.
    Mr. MORELLE. If I might also, I want to just talk about 
making hard choices to protect taxpayer dollars which all of 
us, I know, are very, very committed to, but I am concerned 
that the allegiance lies with corporations. When there has been 
an unwillingness to cut funding from critical programs that 
benefit students and taxpayers. And I am afraid that there is 
too little required of corporate actors and handing them tens 
of millions of taxpayer dollars from the Department is 
apparently, according to the filing, not responsible letters of 
credit.
    Letters of credit help to guarantee that if there are 
closings that we will have protections for them. And I want to 
know, Madam Secretary, if you will commit to publishing monthly 
reports indicating whether schools have letters of credit and 
whether the Department has those letters of credit on hand and 
how much they are worth?
    Secretary DEVOS. Well, Congressman, let me first say that 
the school to which you are referring did have appropriate 
letters of credit, and we are continuing to work closely with 
schools that are in financial trouble and let me just say 
that--
    Mr. MORELLE. Ma'am, I am sorry, you said you didn't know, 
but you did. I am sorry, are you amending your answer that they 
did have a letter of credit?
    Secretary DEVOS. The appropriate letters of credit have 
been in place for the institutions that you are referring to.
    Mr. MORELLE. Well, but the court filings that I just 
submitted into the record indicate, and these are the 
Department's court filings in conjunction with creditors, that 
the Department either gave back or let all outstanding Dream 
Center letters of credit lapse and that there were no letters 
of credit on file as of the date of the closure.
    Secretary DEVOS. Well, I will be happy to clarify with my 
staff and ensure that you have the information that you want 
and need.
    Mr. MORELLE. Well, I would like--I appreciate that, and 
obviously, what I would like to know in addition to that is if 
there was no letter of credit, what steps you would take to 
make sure that the liabilities were covered, or if not, who 
intends to cover those liabilities, and if there is a reduction 
in the face value of the letter of credit, how you made 
judgments around any payments or any exposure; because, I 
assume at some point someone else is responsible for it, 
whether that is the individual student, or taxpayers, I don't 
think I understand. So I would like very much some followup 
from you as to what those letters of credit are, which are 
protections for students, and frankly, having read some of the 
stories about students who are lapsed and having spoken with 
many of them in my office, both in my time as a State 
legislator and now, it is incredibly troubling.
    Chairman SCOTT. The gentleman's time has expired.
    Mr. MORELLE. I appreciate that, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentleman from Kansas, Mr. 
Watkins.
    Mr. WATKINS. Thank you, Mr. Chairman. Secretary DeVos, 
thank you for your patriotism and your leadership. It is truly 
an inspiration. I want to start off today by telling you that 
education is a family profession; my mother, my little sister, 
my grandfather, were all educators and it is so very important 
to my family as well as the district that I represent, Kansas 
Second Congressional District.
    So, all education is career education and I know it is 
critically important to each one of us to increase educational 
opportunities for every single one of our constituents. I 
believe our Nation should foster an all of the above education 
environment, one that is inclusive of all types of learning, 
institutions, schools, colleges, universities.
    As a former student and a current veteran, I know firsthand 
that America's career education can empower individuals with 
opportunities for lifelong success. Through their earned 
benefits from years of military service, student veterans have 
a wealth of choices available to them for their higher 
education and career ambitions. Rightfully so, career education 
colleges like Wichita Technical Institute in my hometown of 
Topeka, for instance, represent pathways for so many student 
veterans to achieve their American dream.
    So, ma'am, I have a question. Every day we hear from 
employers seeking to hire more workers but are unable to find 
them. As a result, many of them are looking to apprenticeships 
to meet the growing labor market demands. What are some common 
questions that you hear from employers who are interested in 
starting an apprenticeship or for work force development 
programs?
    Secretary DEVOS. Congressman, thanks for the question, and 
let me just add to your first Statement about your family and 
how important education is. My mom was a public school teacher 
as well and so we share that.
    Our focus continues to be on supporting multiple pathways 
to great careers and when I speak with employers, most often 
their question is, how can we engage with educators and make 
sure that students are prepared for the opportunities we have 
right now, today. And that is my continued urging to both 
employers and educators, is that they break down the silos that 
have existed and begin working together concertedly because 
there are such tremendous opportunities. And those 
opportunities really vary region by region, State by State, so 
there is no one size fits all approach.
    But we need to from this level, make sure that the 
impediments that are there, are broken down to the greatest 
extent possible and then supported through the programs that 
are working and programs that aren't should be revised or 
eliminated and allow the States and local communities to really 
drive what is needed at the most local level.
    Mr. WATKINS. That is very inspiring to hear, thank you for 
that answer. Mr. Chairman, I would like to yield the balance of 
by time to Ranking Member Foxx.
    Mrs. FOXX. Thank you, Mr. Watkins. Madam Secretary, the 
President's budget request asked for an increase of 133.1 
million over last year's funding levels to administer the 
student aid programs. The Stated reason for this increase is to 
help implement your next generation's financial services 
environment vision, which will update your technical and 
operational infrastructure to better support students with 
high-quality service. This all sounds encouraging, however, 
your agency has been met with lawsuits at every step of the 
procurement, including now.
    These disputes will likely delay your ability to proceed 
forward before the current student loans services contracts 
expire. There are over 34 million direct loan borrowers owing 
over 1.1 trillion who will be affected by the decisions your 
agency makes this year.
    I am monitoring the situation closely because students and 
their families deserve to know how this will impact their 
lives. From now on I expect regular updates from you and your 
staff about this ongoing procurement during which I expect to 
hear specific and realistic alternative timelines to 
implementing Next Gen.
    While I appreciated Next Gen as a prospective solution, 
Congress needs to know our programs will continue to be carried 
through without interruption while you are working on 
implementation. Thank you very much, Mr. Chairman.
    Secretary DEVOS. Yes, ma'am, we hear you.
    Chairman SCOTT. Thank you. The gentlelady from Minnesota, 
Ms. Omar.
    Ms. OMAR. Thank you, Chairman. Madam Secretary, countless 
news sources have reported on the conflicts of interest that 
run rampant through your top aides, especially those advising 
you on higher ed and loan servicing. When responding to 
questions about these conflicts you have failed to adequately 
convince Congress and the American people that these conflicts 
do not interfere with the billions of taxpayer dollars flowing 
from Education to corporate interests. Today I would like to 
better understand your decisions for selecting aides and 
ensuring that their conflicts do not harm taxpayers.
    Last May, four of my colleagues on this committee sent your 
general counsel a request for information about conflicts of 
interest surrounding your $2 billion Next Gen loan servicing 
solicitation. Given that this solicitation is given, I would 
like some information about the team that is leading it. Does 
Dr. A. Wade Johnson, is he the one that is spearheading this 
solicitation?
    Secretary DEVOS. Dr. Johnson is head of the Next Gen 
Initiative.
    Ms. OMAR. All right. According to the New York Times 
investigation, Dr. Johnson was the founder and chief executive 
of a private student loan company, Reunion Student Loan 
Financing Corporation, before assuming his official role at the 
department, is that correct?
    Secretary DEVOS. I--that probably is correct but--
    Ms. OMAR. Yes, it is.
    Secretary DEVOS. But let me just interject and say--
    Ms. OMAR. I would like to continue.
    Secretary DEVOS. And I would like to make clear that--
    Ms. OMAR. We will give you some time--
    Secretary DEVOS [continuing]. all of the individuals--
    Ms. OMAR. I will get to it, thank you so much. Dr. Johnson 
was also the executive at the two financial services companies, 
First Data Corporation and TSYS. Additionally, Dr. Johnson has 
hired at least one other STSYS veteran, Mr. Patrick Fox. Have 
any of Dr. Johnson's previous employers bid on elements of Next 
Gen's solicitation?
    Secretary DEVOS. Congresswoman, all of my staff, all of my 
team at the Department of Education and Federal Student Aid has 
gone through their ethics process, and takes their ethics 
obligations very seriously. We don't have conflicts and we will 
not be conflicted. We have continued to have a robust screening 
process and can stand and be very resolute about that.
    Ms. OMAR. Hmm. So, given that there is about $2 billion per 
year in taxpayer dollars flowing through this program, will you 
commit to releasing communication between the procurement team 
and any of Dr. Johnson's former employees?
    Secretary DEVOS. All of the procurement is walled off from 
the--
    Ms. OMAR. That would just be yes or no. Will you be 
committed to releasing any communication between Dr. Johnson 
and his former employers?
    Secretary DEVOS. Not to releasing internal communication, 
but the procurement team is walled off from the rest of the 
team and the procurement process is very definitely prescribed 
as to how it has to happen.
    Ms. OMAR. That has not clearly answered my question. The 
Federal acquisition regulations have a section on conflict of 
interest. It States the general rule is to avoid strictly any 
conflict of interest or even the appearance of conflict of 
interest in government contract relations.
    While many Federal laws and regulations place restrictions 
and actions of Government personnel, their official contact 
must, in addition, be such that they would not have the 
reluctance to make a full public disclosure of their actions. 
You seem to have reluctance to make a full public disclosure of 
the actions of the head of the Department's largest single 
procurement team, despite their being an obvious appearance of 
conflict of interest. How is your denial to release 
communication in line with extremely high conflict of interest 
standards that is required by Federal law?
    Secretary DEVOS. The individual you have referred to is not 
part of the acquisition or procurement team.
    Ms. OMAR. Okay. But we need the communication that is 
happening between the procurement team and the employers of Dr. 
Johnson.
    Secretary DEVOS. As I told you, that process is walled off 
from any other process.
    Ms. OMAR. Well, the public believes that there is a 
conflict of interest. The investigations say that there is a 
conflict of interest. If there is the appearance of conflict of 
interest, the American people have the right to know and make 
sure that there isn't a conflict of interest. Thank you for 
your time. I yield back.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Meuser.
    Mr. MEUSER. Thank you, Mr. Chairman. Thank you very much, 
Secretary DeVos, nice to have you with us. Thank you as well 
for your many years of work, philanthropy, and support of 
educating America's young people in private schools and in 
public schools. In Pennsylvania's Ninth District, where I 
represent, and I think in all districts, the education of our 
young people is an enormously important component for economic 
growth and the quality of life.
    I know your Department appreciates the importance of 
helping students explore the many pathways to success whether 
that be a 4-year university, career and technical education, or 
vocational schools. We do need to assure that there is an 
effective plan in place so students can make choices and have 
options that best suit their skills and interests.
    Your Department has demonstrated a commitment to this goal 
by strengthening CTE, which is very appreciated, and 
implementing short-term Pell Grants. I am certain that those 
initiatives have benefited many families throughout my 
district, so I appreciate it.
    Also in my district, we have a school, Conrad Wieser School 
District, created the Ben Franklin Science Research Institute 
that fosters STEM education. Secretary, I believe you are 
familiar with this program from your time serving as the chair 
of the Philanthropy Roundtable. They are familiar with you, and 
I certainly appreciate your support of this innovative program 
as do many. Currently the program uses nonprofit funding to 
purchase research equipment and opportunities to showcase 
individual research.
    They are in the process, presently, of applying for the 
Educational Improvement Tax Credit, which is a Pennsylvania 
program that offers corporations tax credits for donating to 
organizations for worthwhile STEM programs such as this. I know 
that the Pennsylvania's EITC credit will help this program grow 
and improve. Can you speak as to how your Education Freedom 
Scholarship proposal would allow schools and initiatives such 
as this across the Nation to create similar opportunities for 
their students?
    Secretary DEVOS. Well, thanks, Congressman. First the 
Education Freedom Scholarship program will improve education 
for all students, students who can participate and make 
different choices for their education. And what it would do is 
provide States like Pennsylvania, or any other State that opted 
to be a part of it, create new options and new opportunities 
so, the programs that you are referring to could be part of a 
menu of choices given to students in Pennsylvania for their 
futures and to find their right niche for pursuing their career 
and their meaningful future.
    Mr. MEUSER. Great. They will be very helpful, and they will 
be put to some very important use for I am sure thousands and 
thousands of students. And I, as a Member of Congress, do look 
forward to making the Education Freedom Scholarships a reality.
    Mr. Chairman, I yield the balance of my time to Dr. Foxx.
    Mrs. FOXX. Thank you very much. I would like to followup on 
that conversation about the Education Freedom Scholarships.
    Madam Secretary, I want to begin by correcting something 
that a couple of my colleagues on the other side of the aisle 
have raised regarding the Education Freedom Scholarships 
proposal. They are disputing your argument that your proposal 
would not take any funds from public schools. My colleagues 
seem to believe that individuals' income belongs to the 
government and should be considered ``public money.'' I could 
not disagree more.
    We as a people have agreed to pay some of our income to the 
government in the form of taxes, but that does not mean the 
government is entitled to anyone's income. The Secretary's 
proposal gives taxpayers greater freedom in how their income, 
their property, is used to support education. If a State 
chooses to establish a program and a taxpayer chooses to 
support it with their income, we should support that choice. We 
should not claim ownership of that taxpayer's hard-earned 
money.
    Madam Secretary, would you like to say anything else about 
that?
    Secretary DEVOS. Well, thanks, Congresswoman Foxx. I concur 
with everything you have said. It is an inaccurate statement to 
say that it is taking public resources. These are voluntary 
contributions made to scholarship granting organizations to 
benefit kids, kids and their futures, and that's what it is all 
about.
    Mrs. FOXX. One more quick comment. You showed a great chart 
a while ago how much the cost and what it is considered a 4-
year degree. I would only like to suggest that in 1980 it 
probably was a 4-year degree, and now it is a 6-year degree, so 
the cost is even greater.
    Thank you, Mr. Chairman.
    Chairman SCOTT. Thank you. Mr. Harder.
    Mr. HARDER. Thank you, Mr. Chairman. Secretary DeVos, thank 
you so much for coming to join our committee today.
    I wanted to start by asking you to confirm a statement that 
you made on the subject of literacy. I think in 2017 for 
National Literacy Month you said, ``Reading opens kids' minds 
and expands their world. Literacy is the foundation of learning 
and it's the starting point on the pathway to the American 
dream.'' Can you confirm that you made that statement?
    Secretary DEVOS. If you said I did, I probably did. You are 
reading from something, so. Sounds like something I would say.
    Mr. HARDER. I think it is on the website. Yes. Well, thank 
you. It sounds like something, I actually happen to really 
agree with that. I was a late bloomer on literacy; I was not a 
competent reader until second grade. But I personally benefited 
from some of the literacy programs funded at the Federal level, 
and so this is an issue that is very close to my heart.
    Do you know how many of our elementary and middle school 
kids currently are able to read at grade level, according to 
the most recent national report card, approximately how many?
    Secretary DEVOS. Not nearly enough. Not nearly enough. In 
fact, it is well below 50 percent.
    Mr. HARDER. I think it is about a third. Does that sound 
about right?
    Secretary DEVOS. That does sound about right, yes.
    Mr. HARDER. So I think we are in agreement about two 
things. One is that literacy is the foundation of learning, and 
second, that we are at a time where only one-third of our 
elementary and middle school kids can read at grade level.
    And so can you help explain to me why the budget that you 
proposed eliminates every single dedicated Federal literacy 
program, including the Innovative Approaches to Literacy, which 
provides books to school kids, and the LEARN Program, which 
helps our school districts develop comprehensive literacy 
programs, why would you cut those programs at a time like this?
    Secretary DEVOS. Well, two things. First of all, we had to 
submit a budget that was 10 percent lower than the 2019 
enacted. And so we chose to focus on programs that were going 
to most broadly benefit the students who are most in need and 
most vulnerable, protecting Title IX, protecting IDEA funding, 
and protecting English as a second language funding.
    And to suggest that the Federal Government is going to 
ultimately solve problems of literacy would suggest that over 
the last 50 years we would have seen dramatic improvements in 
literacy. The fact is we have not. The fact is that there is a 
study that just came out from Harvard and Stanford this week 
that shows that 50 years, the differences in performance on 
math, reading, and science tests between disadvantaged and 
advantaged U.S. students have remained essentially unchanged 
for 50 years.
    Mr. HARDER. What Is the second reason?
    Secretary DEVOS. I didn't say a second.
    Mr. HARDER. You mentioned there were two reasons, one.
    Secretary DEVOS. I said the first thing is the budget we 
submitted. And second, there is this study that shows continued 
Federal funding to try to fix problems has not yielded the 
results that we all hoped for.
    So our proposal is to pivot and do something completely 
different. That is why we have proposed an Education Freedom 
Scholarship that will help.
    Mr. HARDER. Well, Secretary DeVos, and sorry for 
interrupting, I actually think this program's data is pretty 
clear. This program requires annual reports from its grant 
recipients, and children that benefit from access to reading 
materials from infancy to K through 12 have dramatically 
increased rates of literacy, which are directly tied to this 
program and its funding.
    So I don't understand why you think it is such a hard 
choice to cut every single Federal dedicated literacy program 
at a time when only one-third of our school kids can read.
    Secretary DEVOS. The reality is that where we are seeing 
the most gains in terms of student literacy is those States 
that have decided to focus in on this and have expected that 
kids read by third grade before being graduated on. We need to 
focus more on this, but those solutions are best done at the 
State and local level.
    We have continued to pour billions of dollars into Federal 
funding for education only to see results continue to remain 
stagnant at best, and in many cases decline, for the students 
who need the most help.
    Mr. HARDER. Well, Secretary DeVos, I hear your words and 
yet one of the programs that you cut, the LEARN Program, helps 
those States and local districts develop comprehensive literacy 
programs to actually solve this problem. And so, you know, 
look, I think what kills me about this isn't just the context 
of the fact that we are cutting some of the most critical 
programs to improve literacy, it is the hypocrisy of what I see 
from this Department. If you go on the website of the 
Department of Education right now, the picture is you reading a 
book to a kid. And that is phenomenal. And you have gone around 
the country reading books to kids, talking about the importance 
of literacy. But then you get back to Washington, you go into 
the cloak of bureaucracy in a back room somewhere and you cut 
every single program.
    Indeed, you actually eliminate every single program fully 
developed and fully dedicated toward addressing the problem 
that you are actually saying needs to be solved. And I think 
that hypocrisy is disappointing, shocking, and frankly, really 
heartbreaking at a time when we have some real challenges in 
our educational system.
    Thank you, Mr. Chairman, and I yield back.
    Secretary DEVOS. And if I could just say that if these 
problems had been solved by the Federal Government we would 
have seen different results in the last 50 years. We have not.
    Chairman SCOTT. Thank you. The gentleman from Indiana, Mr. 
Banks.
    Mr. BANKS. Thank you, Mr. Chairman. Thank you, Secretary 
DeVos, for being here today.
    I want to start first with a conversation that you and I 
had before this committee a year ago related to education 
savings accounts for military families. I think both of us 
agreed at that time that our military families deserve the best 
education options possible, yet far too often we hear 
complaints from military families about the lack of options 
when they move from installation to installation. Some 
localities offering a better education and not having better 
options to choose.
    A year ago, when I introduced military education savings 
accounts you expressed before this committee that the funding 
source impact, using impact aid dollars, prevented you from 
supporting that legislative proposal. I took that opposition to 
heart, and at the time you vowed that you and your team would 
work with us to try to find better options.
    So we reintroduced our legislation this year. And in this 
year's version there are zero cuts to impact aid. In fact, 
impact aid is not mentioned at all in our legislation.
    I wondered if you maybe could testify for a moment to the 
virtues of giving our military families better education 
options and whether you might be able to support this renewed 
effort without cutting impact aid dollars.
    Secretary DEVOS. Well, Congressman, we share the same goals 
of helping our military families have more choice and more 
latitude as they do move around so frequently. And we know that 
there is a huge percentage that actually leave active duty 
because of this issue. So we have to find a way to give more 
families more choices.
    We have been working with the Department of Defense to see 
about a pilot program that they might be able to establish to 
test this out. But I would be happy to work with you, to 
continue to work with you, on finding a way to fund this in a 
way that is going to work to meet the needs of military 
families and work from a budget prospective.
    Mr. BANKS. We appreciate your commitment to doing that.
    I want to switch gears a little bit to another conversation 
that we have had before. Last year I sent your Department a 
letter requesting that you, ``Convene a senior level working 
group to understand how the People's Republic of China attempts 
to gather U.S. technology on U.S. universities and college 
campuses, and to develop recommendations for protecting the 
U.S. technology advantage.''
    I think we both agree that there is a serious threat on our 
college campuses today posed by our adversaries who steal our 
secrets, steal sensitive research on college campuses. Have we 
seen any progress over the past year since we exchanged letters 
on this subject?
    Secretary DEVOS. Well, I know that there have been a number 
of meetings between agencies that do touch on students in our 
country. And we know that there is more concerted or more--I 
guess, there is more attention to specifics around that on the 
part of a couple of other agencies that have more direct, you 
know--
    Mr. BANKS. I understand the time that we exchanged letters 
back in June and July of last year that you received, you or 
your Department received a briefing from the Intelligence 
Committee on these threats, is that correct?
    Secretary DEVOS. That is correct, yes.
    Mr. BANKS. Can you tell us quickly, can you estimate how 
many of your senior leaders in your Department have a security 
clearance to receive briefings of this nature?
    Secretary DEVOS. I think it is a handful.
    Mr. BANKS. Very few.
    Secretary DEVOS. Very few, yes.
    Mr. BANKS. Could we do more to grant more security 
clearances to your senior team to dive more deeply into these 
issues?
    Secretary DEVOS. I will be happy to check into that and get 
back with you.
    Mr. BANKS. Last week, Indiana University in my State ended 
their relationship with the Confucius Institute, MIT dropped 
grants from Wawa technologies, again on the same subject. I 
assume that you see that as progress?
    Secretary DEVOS. Well, I know that has been--that the 
Confucius Institutes, in particular, have been an issue raised 
as an area of concern, yes.
    Mr. BANKS. So due to the briefings that you have received, 
the information that you have seen on the subject, you agree 
that the Confucius Institutes, the Wawa grants to college 
campuses that also do sensitive research poses a threat?
    Secretary DEVOS. I think that issue has been raised both in 
our agency as well as other agencies, and there has been much 
more increased attention paid to these issues and schools that 
are taking this threat more seriously.
    Mr. BANKS. Has the Department of Education informed or 
educated college campuses about those threats?
    Secretary DEVOS. We have raised the question. The 
Department of Education's purview really is--extends to college 
campuses reporting their relationship in terms of gifts and 
contributions. And we have done much more, I would say 
assertive about insisting that they be accurate in doing so.
    Mr. BANKS. Last week, Acting Secretary Shanahan testified 
before the House Armed Services Committee. I asked him if he 
had ever engaged you on this subject. He said no. It is my 
belief that an intra agency task force between Department of 
Education and the Army Services Committee and others would be 
valuable, if not voluntary on your part, something that 
Congress should require to happen in some form.
    So with that, I yield back.
    Chairman SCOTT. Thank you. The gentlelady from 
Pennsylvania, Ms. Wild.
    Ms. WILD. Thank you, Mr. Chairman. Good afternoon, 
Secretary. I have good news. I think we can agree on a point 
that was made in your opening Statement, and I think I am 
quoting it properly that ``Great education should not be 
dependent on family income.'' Is that a correct quote? And I 
assume that also includes, it should not be dependent on ZIP 
Code, fair to say.
    And can we agree that should be one of the primary goals of 
the Department of Education, that a good education is not 
dependent on those factors?
    Secretary DEVOS. Yes, that is certainly one of my goals.
    Ms. WILD. I have grave concerns that the program that you 
talked about, the Education Freedom Scholarship, does not bring 
us closer to that goal. And since it has been several hours 
since you discussed that proposal, I will remind everyone that 
this would be a Federal tax credit, dollar-for-dollar tax 
credit, to encourage voluntary contributions of up to $5 
billion each year for scholarships to elementary and secondary 
students. And that is called the Education Freedom Scholarship.
    But I have to concur with what my colleague Representative 
Fudge said, that just creates another hole in our Federal 
budget. Your written testimony that the proposal does not 
divert a single penny away from public school teachers or 
public school students is just, with all due respect, 
inaccurate. Because of course it does. Because it takes away 
tax dollars that can be devoted to education.
    So the other thing about the Education Freedom Scholarship 
that I have to note is that it is completely dependent on 
voluntary contributions. And I do not understand how that will 
lift up poorer States or students in low-income districts.
    In response to one of my colleagues from Pennsylvania who 
made a statement earlier, you responded by saying, and I am 
from Pennsylvania also, Madam Secretary, ``Pennsylvania has had 
great success in meeting students' needs.'' Well, I have to 
differ with you on that.
    The students in my district are not all on a level playing 
field. Indeed, we have a few districts that are terrific, great 
school districts. But we also have distressed school districts, 
and those school districts are not likely to benefit in any way 
from Education Freedom Scholarships because the people who live 
in those districts, or even in the Commonwealth of 
Pennsylvania, are very unlikely to contribute money because 
they simply don't have the wherewithal.
    I want to switch gears for a moment. I want to talk about 
the Every Student Succeeds Act, ESSA. And it is my 
understanding that it was to strike an important balance in 
updating K through 12 law by putting States and districts in 
charge of how to best support struggling schools. But with the 
expectation that meaningful action would be taken to close 
persistent achievement gaps.
    And I am sure you would agree with me, wouldn't you, Madam 
Secretary, that you are charged with implementing ESSA through 
oversight, monitoring, and enforcement of the law's 
requirements? You would agree with me on that?
    Secretary DEVOS. Yes.
    Ms. WILD. Okay. I know that the Department recently 
released 2018 performance reports for six States. And all six 
from that report were flagged to take immediate action to 
address significant compliance and quality concerns related to 
ESSA implementation. And I personally was very troubled by the 
number and the breadth of the issues that were revealed in 
those performance reports, particularly the findings that the 
States are not implementing their approved ESSA plans with 
fidelity. And that without strong Federal oversight of the 
accountability measures in ESSA, there is little incentive for 
States to improve educational outcomes, at least under that 
law.
    So I am concerned that your reorganization of the 
Department may have diminished further the Department's 
capacity to conduct adequate monitoring for non-compliance. And 
I ask if you could comment on that.
    Secretary DEVOS. Well, Congresswoman, let me just say that 
we are committed to ensuring that States implement their ESSA 
plans per the law, and that they are continuing to raise the 
bar for themselves and for students. And I have confidence that 
State leaders and State leadership want to see the best for 
their students. And we are wanting to be partners with them in 
ensuring that they are following through on their plans as 
designated.
    And then let me just comment one moment on--
    Ms. WILD. Well, I am going to be running out of time and I 
want to--
    Secretary DEVOS [continuing]. scholarship, in fact, that 
was absolutely--
    Ms. WILD. I want to get back to my question, please.
    So regarding ESSA, is it your testimony that there has been 
no reduction in capacity for Department staff that is charged 
with oversight and monitoring of the States?
    Secretary DEVOS. No, the elementary and secondary education 
staff is very focused on ensuring that ESSA monitoring and 
compliance--
    Ms. WILD. I don't think that answers my question. Because 
my question wasn't whether they are focused. My question was 
whether their capacity, because of reduction of Department 
staff, has been affected?
    Secretary DEVOS. No. The capacity is not impacted now.
    Ms. WILD. Do you have the same number of Department staff 
who are still charged with compliance?
    Secretary DEVOS. We have had some attrition Department-
wide.
    Ms. WILD. Do you replace those people who leave?
    Secretary DEVOS. The ones that need to be replaced, the 
positions that need to be replaced, are being replaced or have 
been replaced.
    Ms. WILD. Let me move on. Each State was given 30 days to 
provide fresh evidence to the Department to resolve those 
issues. And three States were required to submit amendments to 
their approved ESSA plans. Has that happened? Have you received 
that evidence?
    Secretary DEVOS. I don't have the specific data on that. I 
would be happy to get back with you if you would like to 
submit--
    Ms. WILD. Are there deadlines for the States to submit the 
evidence?
    Secretary DEVOS. I am sure there are. And again, if you 
have specific questions in that area I would be happy with--
    Ms. WILD. We will followup with those. Thank you. Thank 
you, Mr. Chairman.
    Chairman SCOTT. Thank you. The gentleman from Idaho, Mr. 
Fulcher.
    Mr. FULCHER. Thank you, Mr. Chairman and Madam Secretary. I 
represent the State of Idaho, and the culture there is a little 
bit different than other parts of the country. It has a 
tendency to be more independent, self-sufficient, so you 
probably won't hear us make as much noise in seeking Federal 
help a lot of the time.
    But we do have some unique situations there. We have got 
about two-thirds of our land mass which is federally owned, 
which takes those resources out, takes property tax off the 
table, but yet we still have the same constitutional 
responsibility for providing schools.
    And so I wanted to just ask you to speak to perhaps some of 
the provisions and/or flexibility for using the funds that we 
do receive, to address some of the unique characteristics of 
our State. Broadband in rural parts of the State, for example, 
or enhanced transportation to try to make that more accessible 
for our student base, that type of thing.
    Can you speak to that just with what is in the budget or 
possible flexibility in those areas?
    Secretary DEVOS. Sure. The Every Student Succeeds Act has a 
provision that actually no local districts have actually 
applied for yet, that would allow them to take up to 5 percent 
of their Title I funding and use it around a student-centered 
pilot. And that is something that could interject a lot more 
creativity into how students' needs were met. I would love to 
see a local district actually take advantage of this 
flexibility that was built into the law.
    And then I would say a companion to that is the Education 
Freedom Scholarships proposal that, if Idaho were to become a 
part of that, would give a lot of flexibility around providing 
transportation for students to get perhaps from a small rural 
school to a career and technical education center, or to 
enhance a career and technical education center experience and 
opportunity for students from a large region, really would give 
a great latitude to Idaho to be able to craft a program or 
programs that would be unique to the needs of Idaho.
    Mr. FULCHER. Thank you for that. And just to followup, if I 
may. Along with those maybe a little bit unique needs, in 
particular in the rural areas, there is a significant 
percentage of faith-based education facilities and also 
homeschool. Same question, do these provisions apply in those 
situations?
    Secretary DEVOS. Well, an Education Freedom Scholarship 
proposal enacted and opted into by Idaho would allow Idaho to 
address those particular communities and allow for students to 
choose those or to choose to be supported by those if that is 
what Idaho decided to use the funds for.
    Mr. FULCHER. Thank you, Madam Secretary. I yield the 
balance of my time to Representative Foxx.
    Mrs. FOXX. Thank you very much. Madam Secretary, I would 
like to pursue the issue of ESSA a little bit.
    You have assured us that the Department is carrying out its 
responsivities appropriately, State plans have been approved, 
States are identifying their first batch of low performance 
schools for improvement, and issuing a national report card on 
the student and school performance.
    Could you update the committee on the support you are 
offering States and school districts as implementation of the 
law continues, and expand on anything you were not allowed to 
say by my colleagues about this?
    Secretary DEVOS. Well, thanks, Congresswoman. We have begun 
to receive waiver requests. And in addition to the regular 
monitoring and regular updating on ESSA plans and 
implementation, we are considering these waiver requests. We 
have received 72 thus far, 50 of them have been approved. Most 
of them related to the 1 percent alternative assessment cap 
based on regulations that were finalized under the previous 
administration. And so we are continuing to work with States as 
they have amendments to and/or waiver requests for their plans.
    And then with regard to the previous exchange here, I just 
want to again reiterate the fact that contributions to 
Education Freedom Scholarships are from individuals' funds, 
they are not taxpayer funds. They are voluntary contributions 
to be made by individuals or corporations.
    And I do not agree with the Congresswoman from 
Pennsylvania's notion that there would be no participants in 
Pennsylvania that would want to contribute. I know very much to 
the contrary because they have a couple of tax credit programs 
in the State today that many from within Pennsylvania 
contribute to. And anyone can contribute to any State in the 
country, any 501(c)(3) across the country. So those are just 
fallacies.
    Mrs. FOXX. Thank you.
    Chairman SCOTT. The gentlelady from Georgia, Ms. McBath.
    Ms. McBath. Thank you, Mr. Chairman. And thank you, 
Secretary DeVos, for being here today.
    Madam Secretary, on March 13th, myself and 73 of my House 
colleagues sent you a letter regarding your actions preceding 
the closure of 24 colleges in the Argosy chain. This issue is 
very personal to me as one of those now-closed campuses is in 
my district, leaving constituents of Georgia's Sixth District 
wanting answers.
    Federal court appointed a receiver to wind down operations 
at Argosy. After reviewing the financial records of the 
education management corporation sale to Dream Center, the 
court-appointed receiver Stated in Federal court filings that 
within 60 days of the sale, executives at Dream Center knew 
that the institutions were, and I quote, ``Failing without the 
hope of redemption.''
    Chairman, I ask for unanimous consent to enter these court 
filings into the record.
    Chairman SCOTT. Without objection.
    Ms. McBath. Thank you. Secretary DeVos, my question for you 
is when did the Department obtain this information?
    Secretary DEVOS. Well, Congresswoman, again, let me just 
say that any school closure is unfortunate, and our focus has 
always been on helping students in those situations. We have 
been working with those--
    Ms. McBath. Secretary DeVos, you are not answering my 
question. Please answer the question. When did the Department 
obtain this information?
    Secretary DEVOS. About the financial distress of the 
school?
    Ms. McBath. The question that I asked is, what I am asking 
is, when did the Department obtain the information about the 
closure of these schools?
    Secretary DEVOS. Well, we obtained the information when the 
schools communicated their financial distress. And we engaged 
immediately to ensure that students were helped in finding 
alternative programs to transfer to. Our focus, again, was on 
ensuring that students had opportunities other than the schools 
that they were going to--
    Ms. McBath. Secretary DeVos, we know that you did not 
sufficiently look into the financials of this institution at 
the time of transfer. Have you investigated the financials of 
this institution more recently? And also, do you think that you 
are better equipped to determine the State of the financial 
situation of a school than a court-appointed official 
responsible for cleaning up your mess?
    Secretary DEVOS. The Dream Center transaction was not 
approved by the Department. It was still being studied and 
examined and so there was no finality to a transfer. And the 
transaction was not formally approved by the Department. So 
again, school closure are very unfortunate.
    Ms. McBath. Secretary DeVos, the core function of the 
Department in college oversight is ensuring the financial 
responsibility and administrative capacity of these 
institutions. Further, it was over a billion taxpayer dollars 
flowing to those schools annually as of the conversion.
    You are sending these schools billions of dollars. If the 
buck doesn't stop with you, where does it stop?
    Secretary DEVOS. Congresswoman, we are very attentive to 
the needs of every student and every school that is serving 
them. And the fact is that we have continued to work with 
schools--
    Ms. McBath. Secretary DeVos, you are not answering my 
question.
    Secretary DEVOS [continuing]. and let me just say that the 
previous administration went to war on these schools--
    Ms. McBath. Secretary DeVos, you are not answering my 
question. My students in my district and people on this 
committee deserve to have reasonable answers to reasonable 
questions. So I am going to go on and ask my second question.
    Secretary DEVOS. We have been working with the students in 
your schools.
    Ms. McBath. My second question to you is, if students had 
known that these schools are failing without hope for 
redemption, do you think they would have enrolled?
    Secretary DEVOS. Students have chosen the schools based on 
the programs offered. And again, it is unfortunate when schools 
close. We have been working with students from every school to 
help them find an alternative to complete their programs. If 
they are not able to do so or they choose not to do so, you 
know that they will go into the closed school loan forgiveness 
and that is the process. We are intent on helping students and 
helping schools in a situation where they are having to be 
enforced--
    Ms. McBath. Secretary DeVos, excuse me. You are going to 
have to deal with the fact that the individual appointed by a 
Federal judge made that decision. Correct?
    Secretary DEVOS. Made the decision. I am sorry, the 
decision of what?
    Ms. McBath. Made the decision for closing the schools with 
no hope for redemption.
    Secretary DEVOS. I am sorry, I am not sure I am following 
your question.
    Ms. McBath. Okay.
    Secretary DEVOS. The receiver?
    Ms. McBath. Yes, the receiver.
    Secretary DEVOS. Well, the receiver stepped into the 
situation and we have been working with the schools and the 
receiver appropriately to continue to try to help students find 
an alternative program to transfer to.
    Ms. McBath. Okay. Madam Secretary, I just have to say that 
these are insufficient answers to reasonable questions. The 
1,500 students in my district, they need answers. And it is 
your role to discharge these loans, it is your role to protect 
those students. These students are counting on you. The 
Department's failures under your leadership led to this crisis, 
and I urge you to assume responsibility and take the actions 
necessary to make these students whole.
    I yield back my time.
    Chairman SCOTT. Thank you. The gentlelady from Illinois, 
Ms. Underwood.
    Ms. UNDERWOOD. Secretary DeVos, hi. I want to focus on 
students with significant cognitive disabilities. Like all 
students with disabilities, they have the right to the same 
opportunities as their peers without disabilities. Unlike their 
peers though, students with significant cognitive disabilities 
may need what's called an alternative assessment so they can 
access an education that allows them to fulfill their 
incredible potential.
    Research shows, though, that some kids' educational 
opportunities were being limited by the overuse of alternative 
assessments for students who didn't actually need them. So ESSA 
made an important fix by capping the number of students being 
tested with the alternative assessment.
    Now knowing that States would need time to adjust to this 
new cap, Congress allowed for a waiver for this provision, and 
that was in 2015. I am deeply concerned that now, in 2019, 
under your leadership, the Department appears to be rubber 
stamping States' applications for these waivers, and failing to 
be transparent.
    In the 2017 to 2018 school year, 23 States received waivers 
for at least two subject areas. Now, under waiver application 
States must include a plan and a timeline for improvement so 
they can meet the cap requirement in the future.
    Secretary DeVos, I only have 5 minutes, or 4 minutes now, 
so I am just looking for a number, if you would. How many of 
those waiver applications have you made public?
    Secretary DEVOS. Again, we have received 70 waivers, we 
have granted 52 of them.
    Ms. UNDERWOOD. Right. How many have you made public?
    Secretary DEVOS. Based on the regulations from the Obama 
Administration.
    Ms. UNDERWOOD. So how many have you made public, ma'am?
    Secretary DEVOS. When the waiver requests are decided upon, 
they go up onto the website. They are all available when they 
have been decided.
    Ms. UNDERWOOD. So the actual waiver? The actual waiver.
    Secretary DEVOS. We don't put the waiver request on the 
website prior to deciding whether it is going to be approved or 
denied.
    Ms. UNDERWOOD. Okay. So the actual waiver has not been made 
public. However, this transparency is critical, that is why the 
information is required. If parents can't be sure that their 
kids are getting the right assessments, they can't be sure that 
their kids are getting a good education that allows them to 
fulfill their full amazing potential.
    Will you commit to making these waiver applications public, 
the actual application?
    Secretary DEVOS. No. We are not going to use the website as 
a filing cabinet. We are going to put the waiver requests, once 
they have been decided whether they are approved or denied, as 
we have, we will continue to do so.
    Ms. UNDERWOOD. Right. I understand your willingness to 
release the outcome, we are looking for the application.
    Secretary DEVOS. No, we are not going to do that.
    Ms. UNDERWOOD. Okay. Your staff has already committed to 
this in conversations with our committee and our committee 
staff. Why won't you commit to it here today?
    Secretary DEVOS. Well, I will be happy to circle back with 
the staff, but we have not as a matter of course put the 
applications on the website, but only the decisions once they 
have been made.
    Ms. UNDERWOOD. Well, I am just asking for simple 
transparency on something that is really at its core a civil 
rights issue that your agency is bound by law to implement. So 
I am really disappointed to hear that outcome, ma'am, and we 
will be following up on it.
    My next question is about the waivers that the States must 
demonstrate substantial progress toward achieving each 
component of the prior year's plan and timeline for 
improvement. As of February 27th, when you most recently 
provided this information to the committee in writing, you had 
approved six States for waiver extensions for this school year, 
2018 to 2019. Did those States demonstrate substantial progress 
toward improvement, as required by law?
    Secretary DEVOS. Again, we have in total received 70 waiver 
requests, 17 of them have been denied, 52 of them have been 
approved. Most of them have been around the 1 percent 
alternative assessment cap.
    Ms. UNDERWOOD. Well what we are looking for, ma'am, is 
transparency, and that they be made public. There is no way for 
us to know if you are not willing to release that information 
publicly. The outcome on its own is not enough. How would 
stakeholders know progress has been made given that these plans 
aren't public?
    Secretary DEVOS. But they are made public. All of the 
waiver requests are made public once the decision has been 
made. It is all public.
    Ms. UNDERWOOD. I am looking for the exact number of the 
waivers that you have approved this year for States that 
received waivers last year.
    Secretary DEVOS. If you would like to submit a question for 
the record, I will be happy to followup with the specific 
information that you have required. But I have tried to be 
accurate in the number of waiver requests we have received, 
what we have decided upon, and the fact that all of those 
requests have been put up on the website once the decision has 
been made.
    Ms. UNDERWOOD. Okay. We will be following up. But it seems 
to me if you are going to come and ask this committee for a 
certain number of dollars for the upcoming year, that this is a 
very reasonable question to be asked in this setting, ma'am. 
And so the punting to the question for the record, I think, 
speaks to the transparency issue that we have been getting at 
this morning. Withholding this information does prevent 
families and educators and IEP teams, these individual 
education plan teams, from being able to make informed 
decisions about the education of students with disabilities.
    It violates students' civil rights, it violates morality, 
and it violates both the spirit and the letter of Federal law. 
And students with disabilities deserve better.
    Thank you for holding this hearing, Mr. Chairman, and 
Secretary DeVos, I will be following up. Thank you.
    Chairman SCOTT. Thank you. The gentlelady from Washington, 
Ms. Schrier.
    Ms. SCHRIER. Thank you, Mr. Chairman. And, Madam Secretary, 
thank you for joining us today.
    Your recent appearances have generated considerable media 
attention regarding the administration's proposal, now for the 
third year in a row, to eliminate all Federal funding for the 
Special Olympics. And I just want to say as a pediatrician that 
I can tell you firsthand that my patients with Down syndrome 
and with disabilities consider the Special Olympics to be the 
absolute highlight of their lives. And it takes some special 
kind of heartlessness to cut funding for the Special Olympics.
    And that is why despite wanting to cut that, Congress has 
consistently funded the Special Olympics for these past 3 
years. And we know that funding is safe, but I think the whole 
discussion really pulled the curtain back on some other cuts 
that really put families and children with special needs at 
risk. And these are really significant ones.
    So the first is that you have proposed flat funding of Part 
C of the Individuals with Disabilities Education Act, IDEA. 
Which in light of increasing need, it really is more like a cut 
in spending for infants and toddlers with disabilities. And 
this is a time, you know, again, as a pediatrician, I talked 
with one of my colleagues this morning, with a remarkable and 
devastating increase in the number of babies who are born 
addicted or exposed to drugs in utero, and those are exactly 
the children who will rely on these special programs. And as a 
pediatrician I send kids all the time to the zero to three 
programs. And they do require that.
    You have also proposed flat funding of the IDEA Act, Part 
B. And if Part B were really fully funded, like it is supposed 
to be, the Federal Government would cover 40 percent of the 
cost to educate a K to 12 student with disabilities. Now, right 
now, embarrassingly, we are only funding 14, 14.7 percent, and 
your flat funding would even cut that further to 13 percent for 
Fiscal Year 2020. And so I believe we are headed in the wrong 
direction for the youngest children and for the K to 12 
children. And if you put this together with the attacks on 
Medicaid and on healthcare, because this matters for kids with 
disabilities.
    You say that individuals with disabilities are a priority 
for this administration, but your actions suggest otherwise. 
And I was just wondering, given all this, how can you justify 
that claim that individuals with disabilities are priority for 
this administration?
    Secretary DEVOS. Congresswoman, thanks for that question. 
We both share love of and desire to help all students, 
including and especially those with disabilities.
    The reality is that we had to present a budget that fell 
within Congress' caps. We had to cut the budget by 10 percent 
to meet that. That required making decisions that were 
difficult. And we propose the budget, but Congress disposes, 
and so you will decide what you are going to fund and what you 
are not going to fund.
    We wanted to prioritize those programs that were going to 
most directly help those with the most needs and the most 
vulnerable: level funding for Title 1, level funding for IDEA, 
and level funding for English language learners.
    Ms. SCHRIER. As I mentioned--
    Secretary DEVOS. Up to $13.2 billion for IDEA. And I have 
been before this committee before talking about the fact that 
Congress, when IDEA was passed, committed to funding IDEA at a 
much higher percentage than it is today.
    Ms. SCHRIER. I hear you. So let me just say, the flat 
funding is really falling short for the families that I take 
care of. And really--
    Secretary DEVOS. Again, we had to fall within the 
congressional parameters on the budget. So if, you know, this 
is something for Congress to address and potentially change.
    Ms. SCHRIER. I am going to reclaim some time here because 
there is another question I really wanted to get to, which is 
that I am in a district that is very geographically diverse. I 
have a lot of rural territory, and this concerns rural schools. 
And this committee recently marked up H.R. 865, the Rebuild 
America Schools Act. And this supports public school repairs 
and modernization, things like protecting from lead in the 
water and black mold and temperature extremes. And I am sure 
that you know that your own Department has estimated it would 
cost nearly 150 billion per year to bring schools into just 
good condition. And these rural schools, you know, almost 
always have the greatest need and yet the fewest resources. And 
so even this morning you said, let's see here, ``Contrast 
between $100 billion for buildings versus $5 billion for 
students, and this administration urges the body to invest in 
students.''
    I would just remind you that investing in schools or 
students' learning is investing in students. And that wanting 
to put this money into--this is really another voucher scheme 
where you are wanting to take public dollars from public 
schools, especially in rural areas, and give them to private 
schools, which don't even exist in those areas.
    And so I am out of time, but I just wanted to say this is 
really a disservice to the rural districts, the rural schools 
in my district.
    Secretary DEVOS. Well, the Education Freedom Scholarships 
would actually have the potential to help many rural students 
through course choice, through transportation, through 
technical education centers. It would provide a lot of 
opportunity to create--
    Ms. SCHRIER. That just don't exist in a lot of these areas.
    Secretary DEVOS. That is what this would do would be to 
help create some new opportunities for them.
    Chairman SCOTT. The gentlelady from Florida, Ms. Shalala.
    Ms. SHALALA. Thank you, Madam Secretary. I admire your 
persistence of--I have sat there for hours in my previous life. 
Thank you for coming.
    I would like to begin my questions on a topic of great 
importance to me and to my community. And that is the equity in 
IDEA rule known as significant disproportionality.
    The IDEA, as you know, requires States to identify school 
districts that have significant disproportionality for students 
of color with disabilities in their identification, placement, 
and discipline. The States have been very uneven in 
administrating this. So in 2016, the previous administration 
issued the final regulation to set a long overdue compliance 
standard for this important statutory requirement.
    The regulation actually came out of a large and growing 
body of research, which I have read pretty carefully, that 
demonstrated that students of color were being over-identified 
for special educational services, placed in more restrictive 
learning environments, and punished with harsher disciplines 
than their white peers.
    Last year you chose to delay this rule despite many of the 
States that were working toward implementation, and you chose 
to delay it for 2 years. Shortly after that delay you were sued 
by the Council of Parent Attorneys and Advocates, and on March 
7th, a month ago, the U.S. District Court for the District of 
Columbia ruled in favor of the parents and students and ordered 
you to begin implementing this regulation immediately.
    Are you implementing the equity in IDEA rule, the 
significant disproportionality rule, as required by the Federal 
court order?
    Secretary DEVOS. Congresswoman, first let me say thank you 
for acknowledging the difficulty of being in this seat. But I 
am concerned that every student receive the services they need. 
We are currently reviewing the district court order and 
deciding on next steps. We are moving toward implementation. 
But I am also concerned about either over-identification or 
under-identification of students in need of special education 
services.
    So I think we share the same goal of ensuring that 
students' needs are met. And we are, again, reviewing the court 
order and moving in the direction of implementation.
    Ms. SHALALA. Okay. Moving in the direction of 
implementation, you have had a month to review the order. The 
order isn't very complicated, it is only 43 pages. I read it in 
20 minutes. I could have written the guidance legislation, the 
guidance letter for you in a very short period of time.
    Is there any reason why you can't do this, send out the 
guidance, and put the implementation plan in place in the next 
month?
    Secretary DEVOS. Well, let me just say that we feel 
students need to be treated as individuals and not as 
statistics or groups. And so we are going to continue to look 
at the way to implement this, look at the court's decision and 
ensure that we are moving in the direction of supporting 
students.
    Ms. SHALALA. I understand your point about an individual, 
but this is standard methodology to treat every student fairly, 
that is exactly what the rule was set up to do. It is a pretty 
strong rule. And it is to make sure that, as you said, that 
great education should not depend on where a student happens to 
live. To treat students of color, students with disabilities 
fairly. And that is what the rule was set out to do.
    It went through a rulemaking process, every stakeholder had 
a chance to talk about it. So why can't you implement it, start 
the implementation process immediately? Why can't you send out 
a guidance letter right now?
    Secretary DEVOS. Well, as you know, working in a large 
agency, some of these things take more than a couple of days. 
And so, again, we are continuing to move in the direction of 
implementation and we are concerned with every single student 
and that they not be over identified or under identified.
    Ms. SHALALA. Well, you are suggesting to me that you are 
not willing to follow the law. The court said immediately. And 
so tell me your timeframe for implementing this court order.
    Secretary DEVOS. We are in process of implementing.
    Ms. SHALALA. Okay. What is your timeframe?
    Secretary DEVOS. Well, I will be happy to get you a more 
specific timeframe if you would like to--
    Ms. SHALALA. Okay. Can you get it to me in the next week?
    Secretary DEVOS. I think we can.
    Ms. SHALALA. Okay. But it has got to be reasonable. Look, 
children are suffering. As you well know, equity delayed is 
equity denied. And if this continues, children are suffering 
every day. It is very important that we have a very specific 
timeline for the implementation of this rule.
    I yield back my time.
    Chairman SCOTT. Thank you. The gentleman from Michigan, Mr. 
Levin.
    Mr. LEVIN. Thank you, Mr. Chairman. Secretary DeVos, thanks 
for being here today.
    I am concerned about your failure to decide and grant 
borrower defense applications, what Mr. Takano was talking 
about earlier, which is supposed to allow students who believe 
they were defrauded by their college, to apply for loan 
forgiveness.
    As of December 31, 2018, there were 158,110 borrower 
defense claims pending. And the total number of approved claims 
had not changed in more than a year: zero approved or denied. I 
am very concerned by this administration's failure, that the 
administration is failing to protect our students and denying 
justice to those who have been defrauded.
    Secretary DeVos, I trust you are aware of the court order 
in Manriquez v. DeVos on this matter.
    Secretary DEVOS. I am.
    Mr. LEVIN. Okay. I will quote from the Federal Student Aid 
webpage to describe the Manriquez v. DeVos decision. ``It 
prevents the Department from collecting on Federal student 
loans from covered Corinthian borrowers.'' Okay?
    So are you aware that FSA is violating that court order?
    Secretary DEVOS. Well, Congressman, we have continued to--
    Mr. LEVIN. Are you aware that they are violating the court 
order?
    Secretary DEVOS. Let me just say--
    Mr. LEVIN. It is a yes or no question.
    Secretary DEVOS. It is not a yes or no answer. We have 
completed 16,519 eligible borrowers and--
    Mr. LEVIN. I know you are reading from the same thing that 
you said. I am going to reclaim my time.
    Secretary DEVOS [continuing]. student loans and automatic 
closed school discharge--
    Mr. LEVIN. I am going to reclaim my time, Madam Secretary.
    Secretary DEVOS. Most of those were--
    Mr. LEVIN. Mr. Chairman--
    Secretary DEVOS [continuing]. Corinthian college students.
    Mr. LEVIN. I would seek unanimous consent to enter into the 
record evidence from Nadine Stewart.
    Chairman SCOTT. Without objection.
    Mr. LEVIN. Nadine was a student at Everest, a Corinthian 
subsidiary, and she is protected by that court order from 
having her loans put in repayment. When she contacted the 
Borrower Defense Hotline she was incorrectly informed that she 
had to actively request forbearance. They eventually put her in 
forbearance, but only after incorrectly insisting that had she 
not called in, her loans would not have been able to be put in 
forbearance.
    Madam Secretary, do you know how many other borrowers FSA 
has illegally ordered collections on, in addition to her?
    Secretary DEVOS. Congressman, we continue to work very 
diligently on the whole borrower defense claims issue. We have, 
as I said--
    Mr. LEVIN. So do you know? I don't want you to read your 
notes again. Madam Secretary--
    Secretary DEVOS [continuing]. almost 48,000 that have been 
approved, and for whom relief has been provided.
    Mr. LEVIN. I have heard you read your Statement before to 
Mr. Takano.
    Secretary DEVOS. Well, do you want to have the numbers or 
do you not?
    Mr. LEVIN. Do you have a number of--
    Secretary DEVOS. I have numbers.
    Mr. LEVIN. A number of--I asked you a question. I am not 
asking to say any number that you feel like saying. Do you know 
how many other students like Nadine Stewart were incorrectly 
collected on by the FSA? Yes or no. Do you have a number? You 
said you had a number.
    Secretary DEVOS. Incorrectly collected on?
    Mr. LEVIN. Yes.
    Secretary DEVOS. That is not a category that I would--
    Mr. LEVIN. I wish you would keep track of that category, 
Madam Secretary, that would be super for the students of this 
country.
    Reclaiming my time. On March 15, 2019, the Department 
issued guidance on the 2016 borrower defense regulation. My 
concern is that the guidance does not State that the Department 
will enforce the rule against institutions that seek to enforce 
pre-dispute arbitration agreements against students with 
borrower defense claims. We are talking about pre-dispute 
arbitration agreements.
    Under the terms of the 2016 regulation, any institution 
that relies on a pre-dispute arbitration agreement or class 
action waiver has violated the terms of its program 
participation agreement with the Department and should 
immediately lose eligibility. No pre-dispute agreements are 
allowed.
    At least one school, represented by a law firm that is a 
repeat player with the Department of Education, has forced 
students into arbitration since the 2016 rule has gone into 
effect.
    Do you commit to revoking the eligibility of schools that 
rely on pre-dispute arbitration agreements, which are not 
allowed under the regulations?
    Secretary DEVOS. Congressman, we are continuing to address 
the applications made, both by students that have been part of 
closed schools and by those who are submitting claims--
    Mr. LEVIN. So let me ask you, did Corinthian College use 
arbitration against students?
    Secretary DEVOS. Corinthian College students are--
    Mr. LEVIN. They did.
    Secretary DEVOS [continuing]. due closed school relief--
    Mr. LEVIN. Did ITT use arbitration against students?
    Secretary DEVOS [continuing]. and we have continued to 
address their applications.
    Mr. LEVIN. Let me just ask you, did EDMC and Dream Center, 
with brands like Art Institutes and Argosy, use arbitration 
agreements against students? Did Vatterott, did ECA, Virginia 
College and Brightwood? They all did. And I am gravely 
concerned, Madam Secretary, that these are just some examples 
of how the Department under your leadership has been less 
concerned with protecting students than with giving cover to 
profit-driven actors.
    Secretary DEVOS. Congressman, we are concerned with--
    Mr. LEVIN. My time has expired.
    Secretary DEVOS. We are concerned with not--
    Mr. LEVIN. You are not showing it by your actions, Madam 
Secretary.
    Secretary DEVOS. Not only to protect the students--
    Mr. LEVIN. What matters is your actions.
    Secretary DEVOS [continuing]. but also protecting campuses.
    Mr. LEVIN. Mr. Chairman, my time has expired.
    Chairman SCOTT. The gentleman from Maryland, Mr. Trone.
    Mr. TRONE. Next month is the 65th anniversary of Brown v. 
Board of Education, the landmark ruling that established school 
segregation is unconstitutional. The fact of the matter is this 
is an issue we have stopped discussing, but it is a problem 
that we have not stopped having.
    In 2016, GAO found that public schools have actually become 
more segregated by race and class than any time since 1960. 
Unfortunately, we are seeing this in my district. A court 
recently found that Montgomery County high schools are 
stratified by income, race, ethnicity, and that an achievement 
gap between high and low poverty schools has widened.
    Madam Secretary, do you believe that racial segregation in 
public schools poses a threat to the educational opportunity 
for children of color? Just looking for a yes or a no.
    Secretary DEVOS. Congressman, I am concerned about every 
student no matter where they are and where they go to school.
    Mr. TRONE. I know you are concerned about every student, 
but racial segregation poses a threat for children. That is an 
easy one. Give me a yes on that one.
    Secretary DEVOS. Congressman, I am concerned with every 
single student.
    Mr. TRONE. Madam Secretary, we know that racially isolated 
schools tend to have fewer resources. Yet last summer the 
administration rescinded voluntary Federal guidance on student 
diversity, voluntary guidance, put in place by the Obama 
Administration. Part of that nonbinding guidance helped school 
districts understand how to develop and implement voluntary 
integration efforts.
    You are familiar with the K to 12 diversity guidance 
document, ma'am?
    Secretary DEVOS. Congressman, we continue to be most 
concerned about all students and--
    Mr. TRONE. Are you familiar with that document?
    Secretary DEVOS. I am not familiar with that particular 
document.
    Mr. TRONE. Okay. Rescission of that guidance has caused 
confusion and fear about the intent of the Trump 
administration, so I would like to give you an opportunity to 
clarify. I want to be clear that no matter what your action is, 
Federal law and Supreme Court precedent still stands on the use 
of race in school assignment.
    With this understanding, are you familiar with the case of 
Parents Involved v. Seattle School District 1, specifically 
Justice Kennedy's concurrence?
    Secretary DEVOS. I am not familiar with that particular 
case.
    Mr. TRONE. Justice Kennedy wrote, ``A compelling interest 
exists in avoiding racial isolation, an interest that a school 
district, in its discretion and expertise, may choose to 
pursue.'' He then went on to State to the Court's decision in 
Parents Involved ``should not prevent school districts from 
continuing the important work of bringing together students of 
different racial, ethnic, and economic backgrounds.''
    Do you agree with Justice Kennedy's comments? Yes or no.
    Secretary DEVOS. Congressman, I agree that it is valuable 
for every student to be in a school setting that has great 
diversity. I think it is valuable for every student and it is--
    Mr. TRONE. Excellent. So you support the autonomy of K to 
12 school districts to use constitutionally permitted race-
conscious methods to achieve racial and economic integration? 
We need to be unequivocally clear on this for our local 
leaders. A yes or a no.
    Secretary DEVOS. Well, Congressman, the Supreme Court has 
opined on this and given parameters around where race can be 
considered.
    Mr. TRONE. So you support the autonomy of colleges and 
universities to use constitutionally permitted race-conscious 
methods to achieve racial and economic integration? And your 
agency will agree not to intervene to stop these efforts?
    Secretary DEVOS. Congressman, again, the goal should be to 
have diversity of every sort. And the Supreme Court has opined 
in this and has given very clear guidance and direction around 
this. And we will defer to and obey what the courts have 
decided.
    Mr. TRONE. I will take that is close to a yes.
    One last thing, Secretary. We want local leaders to have 
the ability to improve diversity efforts in their schools if 
they choose. Would you commit to working with Congress to 
strike Section 426 from GEPA so that local leaders have the 
flexibility to use racial and socioeconomic diversity efforts 
as a means for school improvement under ESSA?
    Secretary DEVOS. Congressman, again, our goal is to ensure 
that every student has an equal opportunity to get a great 
education. Today there are too many kids going to schools to 
which they are assigned that have no choice to go anywhere 
else. Students, all students, need to have those kinds of 
opportunities, not just wealthy ones, not just ones who--
    Mr. TRONE. That is great. I don't hear a no, so I think we 
will work with you together on that. We are in complete 
agreement.
    In closing I would like to leave you with the words of 
Justice Kennedy's concurrence. ``It's an American tradition to 
continue confronting flaws and injustices in our systems, even 
if we have made progress already. It is a quality that is that 
important. This is especially true when we seek assurance that 
opportunity is not denied on account of race. Enduring hope is 
that race should not matter. The reality is it too often 
does.''
    Thank you, ma'am. I yield back my time.
    Chairman SCOTT. Thank you. My colleague from Virginia, Mr. 
Cline.
    Mr. CLINE. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here today.
    Secretary DeVos, as policymakers we hold the responsibility 
of consistently thinking about how what we do now impacts the 
future. And one of the best ways this plays out is through the 
cost of higher education. As you mentioned, the Federal student 
aid loan portfolio is the largest consumer loan portfolio in 
America at almost $1.5 trillion.
    I am particularly concerned about the 43 percent that you 
mentioned are at risk. Unlimited loaning, lending, and granting 
of money does not provide a true benefit if it is not coupled 
with accountability and responsibility. And that is by all 
parties, including students and institutions, lenders, and, in 
fact, the Federal Government as well.
    Market competition needs to open up more options that are 
straightforward for students, and innovation should be 
encouraged so that higher ed institutions can create options as 
well, that actually work for students, and allow them to 
graduate without insurmountable debt.
    I worked very hard in the State legislature in Virginia to 
create an online bachelor's degree that lowers the cost for 
Virginia students recognizing that these goals is just the 
first part of the challenge that we face.
    Secretary DeVos, I would asked you, what are we currently 
doing to ensure that students, institutions, and the private 
sector, in addition to the Federal Government, are all partners 
in making higher education accessible and more affordable?
    Secretary DEVOS. Well, Congressman, we share the goal of 
accessibility and affordability for students, and also the 
concern about the continued rising costs. I would just cite an 
example, a very, I think worthy example that others should look 
at and emulate at Purdue University where for the eighth 
straight year tuition has been held steady, where income share 
agreements have been introduced as an option for students to 
participate in.
    I think those are creative approaches that other 
institutions should look at closely, and there should be some 
robust discussion in this chamber and elsewhere about how to 
change up the equation so that students--first of all students 
are not running up student loan debt to a point where they 
cannot afford to pay it off again. And where institutions have 
some kind of a vested interest in seeing their students succeed 
and complete.
    Mr. CLINE. For someone who is still repaying his law loans 
I agree with you completely, but I have made sure that when I 
was looking at how much it was going to cost, whether I could 
afford to pay it back with the degree that I was pursuing. 
Because a lot of times, if you are pursuing a degree that is 
going to give you opportunities for jobs in a certain sector of 
the economy, that is not going to enable you to pay those loans 
back in a reasonable amount of time, and you need to reconsider 
whether that is an appropriate school for you, course of study 
for you, and plan for you.
    So, everybody needs to take a little bit more 
accountability and responsibility, including the institutions 
which I believe should--there should be a tie back to how much 
the institution is charging as it relates to how much the 
students can borrow. So, I want to make that point as well, and 
I appreciate your comments.
    Mr. Chairman, at this point I would yield my remaining time 
to the ranking member, Dr. Foxx.
    Secretary DEVOS. Congressman, could I just make one comment 
to--
    Mr. WALBERG. I am glad to have it yielded to me as ranking 
member right now, and I would followup and ask the Secretary if 
there are some additional comments you would like to add.
    Secretary DEVOS. Thank you, Congressman. I was just going 
to add that we will be adding this fall additional information 
to the college scorecard that will get at exactly what you have 
talked about. Providing students program level data by 
institution so that they can compare between institutions, 
programs specific to institutions, and see what the cost is, 
what their likely earning potential is.
    And at a program level, this will be much more meaningful 
than what is currently shared, which is the average cost--I 
mean, yes, the average earning and the average cost per 
institution. This will help students be better prepared and 
hopefully make better decisions.
    Mr. WALBERG. if I could continue. Thank you for yielding. 
Going back to the question coming from the representative from 
Pennsylvania, about the inability in certain parts of her 
district of schools, of individuals, having incapability of 
paying for this education.
    Could you address that a little more clearly? The fact that 
they are not paying for it, it is a tax credit that they will 
have the opportunity for?
    Secretary DEVOS. Right. Indeed, with the Tax Credit 
Scholarship Program, Pennsylvania would have the opportunity to 
participate and then formulate programs to either enhance 
choice programs they have there or create new ones or both, and 
the district that she was particularly referring to, would be 
able to participate. Presumably, there would be opportunities 
to expand the options for students in that district to meet the 
needs specific to that district.
    Mr. WALBERG. Thank you.
    Chairman SCOTT. Thank you. The gentlelady from Nevada, Ms. 
Lee?
    Ms. LEE. Thank you, Chairman. Thank you, Secretary DeVos, 
for being here this very long day. I wanted to talk to you 
about students who fall victim to predatory schools, and the 
mechanisms we have in place to help protect them, but also 
protect abuse of taxpayer dollars.
    In Nevada, where I am from, 30 institutions have folded in 
the last decade alone, leaving thousands of students without a 
degree, broken futures, and thousands of dollars of student 
debt.
    These institutions, sadly, prey on some of our most 
vulnerable students, students I have served who are low-income 
and students of color and often veterans. And there are 
students like a 22-year-old mother of two named Chelsea, who 
went to Brightwood to get a nursing degree. She received a Pell 
Grant, took out a Federal student loan, took out a personal 
loan, a private loan, not to mention the hours of childcare 
that she paid for. And as we know, Brightwood closed in 
December of 2018 leaving Chelsea 11 weeks away from becoming a 
nurse and $30,000 into debt.
    I just want to ask you, again, a quick yes/no, do you 
believe, assuming that Chelsea has no viable option to complete 
her degree, do you believe that students like her deserve a 
legal avenue to have their loans discharged in these cases?
    Secretary DEVOS. Well, Congresswoman, yes, it sounds like 
if she doesn't find an alternative, she would fall into the 
closed school discharge category, and her loans will be 
relieved. Let me just say, though, it is really regrettable the 
number of institutions that have been closing, and I would say 
it is due in large part to the policies of the previous 
administration really going after these entities and these 
institutions. And we are seeing closures, not only, by those in 
the--
    Ms. LEE. Well, this was actually an institution, it was 
closed by ACICS, believe it or not. But students who have been 
defrauded, as you say, do have a legal right through the 
borrower defensive repayment rule.
    Right now you are under a court order to implement this 
regulation which not only helps get these students the timely 
discharge of their loans, but also requires the Department to 
collect information on these institutions that is a predictor 
of their financial distress. You are then required to use that 
information to determine, identify these risky schools, and 
then require them to get a letter of credit that protects 
taxpayers from their risky behavior.
    And my question to you, again, is a yes/no, are you 
currently collecting this information that allows you to 
determine if these schools are at risk of going under?
    Secretary DEVOS. Well, we are implementing the 2016 rule 
per the judge's order, but at the same time, we are also 
working on amending that rule so that it is better reflective 
of the policies that we believe are more balanced between 
student and taxpayer concerns because we do not agree that the 
previous administration--
    Ms. LEE. No, it is a court--excuse me, it is a court order.
    Secretary DEVOS. Yes. And we are implementing--yes.
    Ms. LEE. So, you can't amend a court order. I mean, it is a 
court order. That it was very clearly, October 2018, very 
clearly said, you must immediately begin collecting this 
information, so just a yes/no. I assume you are.
    Secretary DEVOS. And yes, we have.
    Ms. LEE. Okay.
    Secretary DEVOS. I just wanted to say, we are continuing to 
work on revising the rule in general.
    Ms. LEE. Okay. Well, since you are collecting this 
information, which is great news, I would like to--that means 
you must have sent a letter of guidance to institutions 
requesting certain information. And my request of you is, have 
you sent this letter? And if so, can we receive a copy of it, 
plus a list of the institutions that you have requested this 
information from?
    Secretary DEVOS. If you would submit a specific question 
for the record around what specific information you want, we 
will be happy to give that.
    Ms. LEE. I am submitting it right now.
    Secretary DEVOS. Okay.
    Ms. LEE. The request for the record is, I would like you to 
give us the letter that you sent to institutions across the 
country requesting this information. I don't know what 
information you requested, if we could have that letter and the 
institutions you sent it to within the next 2 weeks, that would 
be fabulous.
    Secretary DEVOS. I will be happy to provide.
    Ms. LEE. Thank you. And that is all I really have. You 
know, I think that--I want to thank you for being here. I mean, 
clearly, you know that a lot is at stake, this borrower 
defense, you know, not only was here to protect students, but 
it also allows us to protect taxpayer dollars, and so based on 
your response today, I am glad you are implementing that and 
collecting that information. We look forward to it.
    And I don't have any time to yield. Thank you.
    Chairman SCOTT. The gentlelady from North Carolina, Dr. 
Foxx.
    Mrs. FOXX. I'll wait on the time.
    Chairman SCOTT. The gentleman from Texas, Mr. Castro.
    Mr. CASTRO. Thank you, Chairman. Secretary DeVos, thank you 
for your testimony. You know, over the last many years, we have 
had very heated debates and important debates about things like 
teacher pay, many of us believed they deserve a raise, 
credentialing in the 1980's and 1990's, and whether students 
are college ready or substantively prepared to go on to 
college, and a lot of that debate is centered around testing in 
States.
    But there are important things that happen inside the 
school but outside the classroom. And in many States like mine, 
Texas, the ratio of counselors to students is 300-to-1, 400-to-
1, or even more.
    So, my question to you is, what is your Department doing to 
make sure that not only are we substantively preparing students 
to go to college, but actually building an infrastructure to 
help guide them there?
    Secretary DEVOS. Well, Congressman, the Federal Department 
has a limited role in that regard. States and communities have 
a much greater role, and we continue to see that in spite of 
the fact that the Federal Government has been involved with 
investing billions of dollars over the last 50 years, we have 
seen no real difference or improvement in outcomes for the 
students that we purported to help the most.
    So, we will continue to work with and encourage and support 
States in their roles of supporting students--
    Mr. CASTRO. Well, I guess I am asking you, what is the 
Department doing now? A very specific question. What are you 
doing now to help guide students to college? If the answer is 
nothing, then it is nothing.
    Secretary DEVOS. To help guide students to college?
    Mr. CASTRO. To college or their careers, sure.
    Secretary DEVOS. We are continuing to support the programs 
as authorized by Congress that--
    Mr. CASTRO. Which programs are you speaking about?
    Secretary DEVOS. That will help students, the preparation 
programs that you have committed Title I funding dollars for, 
IDEA dollars, English Language Learners, in addition to a host 
of other programs. We are--the budget for the Department is 
this year $64 billion proposed, and so there is a lot of 
investment in education, and yet we still have not seen the 
kinds of changes for students, or the kinds of outcomes that 
one would expect after 50 years of trying to engineer these 
things from the Federal level.
    Mr. CASTRO. But I guess it would--
    Secretary DEVOS. Our administration continues to aspire 
to--
    Mr. CASTRO. Let me reclaim my time for a second. But it 
sounds as though you have given up on the idea--
    Secretary DEVOS. Not at all.
    Mr. CASTRO [continuing]. that the Federal Government can be 
helpful. Is that the case?
    Secretary DEVOS. Not at all. That is why we propose a pivot 
to something different through the Education Freedom 
Scholarship proposal, to allow States and local communities to 
craft programs that are going to give students that need the 
most help, the access to choices that they need to make.
    Mr. CASTRO. I understand that. And that is a matter of 
money, right, that is making sure that financial aid is 
available to somebody. I am asking you a slightly different--
    Secretary DEVOS. No. It is a matter of providing different 
opportunities and choices.
    Mr. CASTRO. Right. But it is still about--it is making sure 
that financial resources are available to someone. I am asking 
you a different question, which is the infrastructure of having 
counselors or college advisors or people who are helping guide 
students. Many of these folks have parents that never went to 
college. These processes, like applying for financial aid and 
admissions, are not always intuitive processes. And so what is 
your Department doing to build that infrastructure or improve 
upon it? Or are you leaving it all to the States?
    Secretary DEVOS. We believe that States and communities 
have the biggest role to play. They are the ones closest to 
families, they are the ones closest to students. And we, in 
fact, believe that empowering students to find the right fit 
for them for their education is highly important. Those who are 
wealthy and powerful have those choices and opportunities 
today. We believe all students should have those opportunities.
    Mr. CASTRO. Well, thank you for your response. I would just 
hope that you all would really think about what your Department 
can do to be helpful to students, many of whom are first-time 
or could be first-time college students in their families and 
are struggling to figure out the whole process of applying for 
admissions and financial aid.
    Thank you, Secretary.
    Chairman SCOTT. And yield time to the chair?
    Mr. CASTRO. Of course.
    Chairman SCOTT. Thank you. Madam Secretary, you heard the 
previous question about school infrastructure, that we are 
hundreds of billions of dollars in need, no heat, no air-
conditioning. Is that a problem? And if so, what is your plan?
    Secretary DEVOS. Well, Chairman, as I said in my opening 
Statement we believe that after billions and billions of 
dollars invested at the Federal level trying to engineer 
improvement in student outcomes and achievement, that we need 
to pivot and try something different and empower students at 
the most local level, to make different choices and decisions.
    Chairman SCOTT. Do I understand you to say--did I 
understand you to say that you do not have a plan for 
infrastructure for crumbling schools?
    Secretary DEVOS. We know that there are schools today that 
have been empty for years. We know that there are schools that 
underutilized. It is not about buildings. It is about helping 
support students to find their path and their fit.
    Chairman SCOTT. And so in those areas where there are 
crumbling schools, do you see that as a problem? And if so--
    Secretary DEVOS. Those are State and local issues to really 
deal with. We know that the States and the communities really 
are investing in over 90 percent of the funding to education, 
and so that is really their issue to deal with.
    Chairman SCOTT. Okay. Thank you. I think we have gotten 
your response, that you have no plan for crumbling 
infrastructure.
    The gentlelady from North Carolina, Ms. Foxx.
    Mrs. FOXX. Thank you, Mr. Chairman. Madam Secretary, I 
would like to ask you about the Public Service Loan Forgiveness 
programs. Is it true that Congress set the terms and conditions 
borrowers must meet to receive PSLF?
    Secretary DEVOS. Yes, that is the case.
    Mrs. FOXX. Is it true that the previous administration had 
8 years to issue clarifying guidance to students and 
contractors about PSLF?
    Secretary DEVOS. Correct.
    Mrs. FOXX. Furthermore, is it true that the previous 
administration had 8 years in which to spread the word about 
the requirements of PSLF?
    Secretary DEVOS. That is correct.
    Mrs. FOXX. During your tenure at the Department, Congress 
has made available hundreds of millions of dollars to 
temporarily expand PSLF to those borrowers in the wrong 
repayment plan. Can you confirm you did not set those terms and 
conditions, but that Congress determined those qualifications?
    Secretary DEVOS. That will be correct.
    Mrs. FOXX. Now that we have clarified who exactly is and 
was responsible for the PSLF Program, I would like to hear from 
you about the work your Department has done to make borrowers 
aware of the program and help them navigate the application 
process. Could you update us on this work?
    Secretary DEVOS. We are continuing to look at and deal with 
applications for public service loan forgiveness, as you have 
identified. Congress set up a difficult program, difficult to 
qualify for. And to date we have had 49,000, nearly 50,000 
applications, 32,000 of which do not meet the program 
requirements and almost 12,000 of them had missing information, 
so we are communicating with them, letting them know that 
information is missing.
    But as you have identified, Congress set up a program that 
is hard to qualify for, and we are continuing to address every 
application. And for those who do qualify we are proceeding 
with their loan forgiveness.
    And as you well know, our budget proposes actually phasing 
out public service loan forgiveness, because we don't think 
that one type of a job, one type of role should be incentivized 
over another.
    And Congresswoman, you have used the example yourself, of a 
nurse that goes to work in a not-for-profit hospital has the 
chance of qualifying, if they jump through the right hoops, for 
the public service loan forgiveness, while a nurse that goes to 
work in a hospital that happens to be organized as a for-profit 
doing the same kind of work, a public service, does not 
qualify.
    And so we continue to believe that we should be equally 
incentivizing all students to pursue the direction that is 
right for them, and not favoring one kind of a role or job over 
another.
    Mrs. FOXX. Well, I think our colleagues have pointed out 
lots of places that we would like to spend more money, and I 
think the PSLF Program which is projected to cost $24 billion 
over the next 10 years, I think we probably could have found 
better places to have used that money.
    Madam Secretary, let us talk a little bit about NEGREG, and 
let us see if we can get that straightened out a little bit. 
You have done a fantastic job today of trying to educate our 
members on the facts of things. And I appreciate what you have 
done on that.
    But let us talk a little bit about NEGREG and see if we can 
do a little more educating. Is it accurate that the NEGREG 
process was established by Congress?
    Secretary DEVOS. That is correct.
    Mrs. FOXX. Correct. Okay. So, the panel included--isn't it 
true that the panel included both the student representatives, 
State representatives, and a consumer advocate each with their 
own vote?
    Secretary DEVOS. Correct.
    Mrs. FOXX. Okay. It is my understanding also that the State 
attorney general did get a chance to weigh in through 
participation in a subcommittee. Is that correct?
    Secretary DEVOS. That would be correct.
    Mrs. FOXX. All right. So, the whole purpose of NEGREG is to 
ensure the voices of the stakeholders are at the table. Is that 
correct?
    Secretary DEVOS. Yes.
    Mrs. FOXX. That is how Congress wrote it into the law. Is 
that correct?
    Secretary DEVOS. That is correct.
    Mrs. FOXX. So, Mr. Chairman, the Secretary was skewered on 
the issue a little bit ago, on NEGREG, and I want to make it 
clear that if anybody wants to skewer anybody on the NEGREG 
process, it ought to be us because we set it up and not the 
Secretary.
    And with that, I will yield back.
    Chairman SCOTT. Thank you. The gentlelady from 
Massachusetts, Ms. Trahan.
    Ms. TRAHAN. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here.
    Funding accessible, high-quality public education is an 
investment in our children, our economy, and our future. Yet we 
hear so many heart-wrenching stories in higher education where 
students and families from communities, like the one I grew up 
in, are cheated of their dreams.
    There are giant for-profits pouring money and resources 
into ads and recruitment, then collapsing without notice on 
tens of thousands of students leaving them in debt with useless 
college credits.
    From my own State of Massachusetts 24 colleges have shut 
their doors in the last 4 years, and 22 of them were for-
profits. So, we have an epidemic of schools failing to create 
contingency plans, wasting taxpayer dollars without answering 
to anyone on their financial viability.
    So it is apparent to me now more than ever that we need 
protections in place and watchdogs to hold these institutions 
accountable. Under the last administration the Enforcement Unit 
was created to investigate abuses and protect students from 
getting ripped off.
    Secretary DeVos, at the start of your time at the Education 
Department, the Enforcement Unit was adequately staffed with 
lawyers and investigators who looked into misleading 
advertising, recruitment practices and job placement claims.
    But according to the last update that your staff submitted 
to this Congress, there are only two full-time investigators 
overseeing thousands of schools and 130 billion in taxpayer 
dollars. So, why the dramatic cut? And what specific 
enforcement actions has this unit of two taken to project our 
kids?
    Secretary DEVOS. Well, Congresswoman, enforcement was a 
part of the Department, a part of Federal student aid before a 
separate unit was set up. It continues to be a very important 
part of the focus of Federal student aid. We take that very 
seriously and continue to do so. We are adequately staffed.
    Ms. TRAHAN. How many people are in charge of enforcing it?
    Secretary DEVOS. I don't have that number here. I would be 
happy to get that to you if you desire.
    Ms. TRAHAN. I would love that. You know, I don't have to 
tell you how valuable the data is in terms of identifying 
patterns or indicators for failing schools. And one thing that 
would be helpful is if the data that has been collected, is 
something that you can provide to this committee?
    So, we have heard plenty today about how we are scrambling 
to take care of students when these schools shut down. But 
nothing about preventing these closures from happening in the 
first place. Is that something you can deliver to this 
committee?
    Secretary DEVOS. I don't--if you have specific data you 
can--
    Ms. TRAHAN. Well, the data that is being collected from the 
Enforcement Unit.
    Secretary DEVOS. All of the data that is being collected?
    Ms. TRAHAN. In terms of what is being enforced. I mean, 
there is a unit of two people who were enforcing--
    Secretary DEVOS. There are more than two people involved in 
Enforcement. If you would like to submit a question for the 
record that clarifies what information you are seeking, we will 
be happy to respond.
    Ms. TRAHAN. I would like to know the specific enforcement 
actions by the unit of two, that was set forth in the GAO 
Report that was last submitted to this Congress?
    Secretary DEVOS. Yes.
    Ms. TRAHAN. Okay. Great. Let me ask another question. The 
gainful employment rule is a critical consumer protection tool 
that protects students from low-quality career training 
programs and for profit colleges. Secretary DeVos, did you or 
anyone from your Department ask Social Security or IRS 
officials directly or indirectly to prevent or delay the 
development of an MOU for gainful employment purposes?
    Secretary DEVOS. Congresswoman, we have continued to work 
on the gainful employment regulation. It is one with which we 
did not agree that policy with the previous administration.
    Ms. TRAHAN. That is fair. The question, though, is simple, 
and I hate to do this, but it is a yes or no. Did you or 
anybody in your Department talk to, directly or indirectly, 
with the SSA or the IRS about delaying an MOU for gainful 
employment purposes?
    Secretary DEVOS. I am not aware of that conversation, no.
    Ms. TRAHAN. You know, the Department has hidden behind this 
SSA legal decision as rationale for not implementing gainful 
employment rule even though we have done so for so many years. 
Can you share with this committee a copy of that legal opinion 
from SSA?
    Secretary DEVOS. Again, if you want to submit that as a 
question for the record, I would be happy to respond.
    Ms. TRAHAN. I will submit it in writing. You know, I press 
upon it because this legal opinion directly impacts your 
ability to protect our college students, which is something we 
so clearly need today.
    Madam Secretary, we have covered a lot of ground today, but 
given the irresponsible cuts to programs with a proven track 
record, the weak enforcement of predatory institutions, and 
your top hires are hailing from the for-profit industry, not to 
mention the discriminatory policies you have leveled against 
LGBT students, victims of sexual assault, and students of 
color.
    It is clear to me that you and your Department are either 
out of touch with people like me who relied on public education 
and was the first to graduate from college in my family, or you 
are knowingly putting special interests ahead of our students.
    I do not believe in this budget. It reveals that you and 
your Department are not equipped to set the educational 
priorities for this country.
    Thank you. I yield back.
    Secretary DEVOS. If I could just comment, Mr. Chairman?
    Chairman SCOTT. Thank you.
    Secretary DEVOS. Congresswoman, you have mischaracterized a 
number of things, and I just want to call that to your 
attention, and just say that the budget that was submitted, 
those were proposals, as you know, and you and your colleagues 
will decide. And so I wanted to make sure to mention both of 
those things.
    Ms. TRAHAN. I appreciate that. But budgets are a reflection 
of our priorities.
    Secretary DEVOS. And we had to stay within Congress' 
bounds, so we had to submit a budget that was 10 percent lower 
than last year's.
    Chairman SCOTT. Thank you. The gentlelady from Connecticut, 
Ms. Hayes.
    Ms. HAYES. Thank you, Mr. Chair. Thank you, Madam 
Secretary. I know personally that students, teachers, parents 
are waiting to hear from you, so I want to move this right 
along.
    So, I am going to let you know that my questions today will 
be singularly focused on using Federal funds to arm teachers, 
not about the Freedom Scholarship, not about professional 
development choice, not about career training.
    So, on May 21, 2018, the Superintendent of the Porter, 
Oklahoma, Consolidated School District, Charles McMann, wrote 
to President Trump saying, and I quote, ``We have implemented 
and armed staff policy at my school, and was wondering if there 
is any money or grants that can help. It would be great if 
there was some money for schools that arm and train their 
staff.''
    According to records received through a FOIA request by 
Democracy Forward, this letter was quickly transferred to the 
Department of Education for a response and became the subject 
of several emails and senior staff meetings.
    Mr. Chairman, I ask unanimous consent to enter these 
documents.
    Chairman SCOTT. Without objection.
    Ms. HAYES. Madam Secretary, did the Department of Education 
provide a response, either orally or in writing, to 
Superintendent McMann's request to use Federal funds to arm 
teachers, yes or no?
    Secretary DEVOS. Well, Congresswoman, it is not a yes or no 
answer. First of all--
    Ms. HAYES. Can you respond?
    Secretary DEVOS. I am sorry--
    Ms. HAYES. No. I am not going to let you do that, I saw 
you--
    Secretary DEVOS. I have never advocated for or against.
    Ms. HAYES. I didn't ask that question.
    Secretary DEVOS. I am for--
    Ms. HAYES. Madam Secretary, my question is, did you 
respond? And I know you know how to answer a yes or no question 
because I just saw you answer it from my colleague, Ms. Foxx.
    Secretary DEVOS. It is not a yes or no answer because--
    Ms. HAYES. I would just like the same courtesy. My question 
is, did you respond? That is it. Just did you respond, not what 
your response was. Did you respond? Just did you respond?
    Secretary DEVOS. Probably, ultimately, yes. Yes.
    Ms. HAYES. Okay. So there is a limited universe of how you 
could have responded to this request. Either yes, you can use 
Federal funds to arm teachers; yes, you can use Federal funds 
to train teachers; or no, you cannot use Federal funds to do 
any of these things. Do you know how your office--
    Secretary DEVOS. Congresswoman, Title IV was set up for 
States to decide how to use the funds.
    Ms. HAYES. Do you know--I am not there yet.
    Secretary DEVOS. It was set up for States to decide--
    Ms. HAYES. You are jumping way ahead.
    Secretary DEVOS [continuing]. not for the Department of 
Education.
    Ms. HAYES. So, the Department of Education can't decide how 
Title I funds are used?
    Secretary DEVOS. Title IV funds are to be decided--
    Ms. HAYES. I am sorry. Title IV, I am sorry.
    Secretary DEVOS [continuing]. are to be decided by the 
States. That is how Congress set it up, and that is how we have 
totally respected that particular set up.
    Ms. HAYES. So, your position is that Title IV funds, it is 
not up to you to decide how they can be used?
    Secretary DEVOS. We have not advocated for, nor against, 
and have--
    Ms. HAYES. Do you feel like you can though?
    Secretary DEVOS. No. Congress set this up. The Department 
of Education did not.
    Ms. HAYES. Okay, thank you. Thank you. So, in August of 
2018, it was reported by the New York Times and other outlets 
that the Department was considering the use of Federal funds to 
arm teachers. In all of your previous statements and even just 
now, you have maintained that you lack the authority to approve 
or deny requests to purchase firearms for school staff and 
taxpayer money and using taxpayer funds under Title IV-A.
    Secretary DEVOS. That is correct because it is the State's 
decision.
    Ms. HAYES. That is correct, thank you, Mr. Chair. In the 
documents I have just submitted, there are emails from staff at 
your Department that discuss a decision memo on IV-A. Are you 
familiar with that decision memo?
    Secretary DEVOS. I am not with whatever memo you're citing.
    Ms. HAYES. Okay, so I will tell you what it says. On page 4 
of the memo that came out of your Department with the advice of 
your general counsel it says, ``The Department's Office of the 
General Counsel has advised that the Secretary has discretion 
to interpret the broad language of the statute as to its 
permissiveness regarding the purchase of firearms and the 
training and use of firearms.'' It continues on page 7 to say, 
``It is, therefore, reasonable for the Secretary to disallow 
this particular use of funds absent, absent, specific 
congressional authorization. And it is unlikely that this 
interpretation would be subject to a successful legal 
challenge.''
    That is from your Department based on advice from your 
legal counsel. In light of the contents of this memo--
    Secretary DEVOS. And as I have said, I have neither 
advocated for nor against--
    Ms. HAYES. No, you are absolutely right, you have not 
advocated for or against. But in light of the contents of this 
memo, you have the ability to make a decision. Your silence is 
a decision. You have the authority to say that we cannot use 
Federal funds to arm teachers. You are in line for Presidential 
succession--
    Secretary DEVOS. States and local communities.
    Ms. HAYES. Make a decision on this. You have the authority 
to do it. Will you prohibit the use of Federal funds to arm 
teachers, yes or no, Madam Secretary?
    Secretary DEVOS. This is a matter for States and local 
communities to decide upon.
    Ms. HAYES. You have the authority to do it. Read your memo.
    Secretary DEVOS. Congress has the authority to make that 
decision.
    Ms. HAYES. You have the authority if you so choose. Read 
the memo.
    Chairman SCOTT. Does the gentlelady offer those documents 
for the record?
    Ms. HAYES. I do. I would like to submit these documents for 
the record so that the Secretary has the opportunity to read 
the memo that came from her office.
    Chairman SCOTT. Without objection. The gentleman from 
California, Mr. DeSaulnier.
    Mr. DESAULNIER. Thank you, Mr. Chairman. I want to thank 
you and the ranking member and the Secretary. We are almost 
through, Madam Secretary. I also want to acknowledge my friend, 
the ranking member and occasionally when we disagree, we do it 
in the spirit of friendship. So, I want to talk about public 
service loan forgiveness. This is the general--the GAO report 
on this. The Congress appropriated $2.3 million for 2018 and 
2019 to help with the problems that the ranking member alluded 
to in her comments.
    Now, this is in the context when I will respectfully 
disagree with her that this program, the first cohort that 
qualified for this program came about when your administration 
took place. So, Congress authorized this act, it is a statute 
and as you have recognized in your testimony, Congress does 
have a role in governing the Department of Education. This is a 
Federal law.
    You indicated in your comments when the ranking member was 
questioning you about this that, and I am inferring here, that 
you didn't think it was the best thing to decide what 
professions people go into. With all due respect, I don't read 
the statute as giving you that subjectivity. It is a statue if 
you want to change the statute, you should get a member to 
introduce something that will eliminate it.
    So, first question is how have you expended this $2.3 
million and how do you plan to expend it, because Congress gave 
it to you to help with the outreach given that only 1 percent 
of people who apply for this qualify. And I will say this in 
the context of my interest is personal because our district 
office in Northern California has had multiple people who were 
told by the service provider that they qualified. They made a 
decision. For 10 years they went into public service, the law 
is what it is and now they are being told that they don't 
qualify. You can imagine if you are living paycheck to paycheck 
and you made this career choice, I would imagine, that would be 
difficult. So, if we are going to change the law, we should do 
it constitutionally as prescribed. So, the question is, how 
have you spent the money?
    Secretary DEVOS. Well, Congressman, first let me say I 
acknowledge it is not the Department of Education's role to 
change the law, it is your role to do so if that is to happen. 
That is why it is part of our budget proposal. But with regard 
to the actual implementation of and processing of applications, 
we are continuing to do so diligently. As I said before, this 
is a very--
    Mr. DESAULNIER. Pardon me, you are claiming my time, Madam 
Secretary and I don't want to be disrespectful.
    Secretary DEVOS. But this is very difficult.
    Mr. DESAULNIER. I had a specific question, how are you 
spending the money. So, if you could help me with specificity 
and I ask this question in the spirit of, I would like to fix 
the problem and I would be happy to work with you on it, given 
that the statute is the statute. People are suffering, they 
have been misled, so how do we help you administer the law 
properly? That is the spirit I ask the question. How are you 
spending the money?
    Secretary DEVOS. The program is a very difficult one to 
qualify for. 10 years before you even are considered, and 120 
consecutive payments. If someone makes a payment,--
    Mr. DESAULNIER. Madam Secretary, no, no, no.
    Secretary DEVOS. Can I just tell you one of the problems 
here?
    Mr. DESAULNIER. No, you cannot because I had a specific 
question.
    Secretary DEVOS. Well, if you want to know the problem I 
have to be able to tell you.
    Mr. DESAULNIER. Yes, but I want to be clear as to what I am 
asking. So, I have two simple questions. How are you spending 
the money that Congress appropriated for you in this Fiscal 
Year to help with communication? It was to get the service 
provider to help today if somebody calls. I acknowledge that 
you think it is complicated.
    Secretary DEVOS. The temporary program.
    Mr. DESAULNIER. So, how did you spend it, No. 1?
    And No. 2, so I don't have to interrupt you again, if you 
could just answer the questions, I would be satisfied. I 
don't--my mother taught me not to be rude and I am not trying 
to be rude. Second question is are you going to implement the 
four recommendations in the GAO report and do you have a 
timeline to do it as suggested by the GAO? Two questions. What 
are you doing with the money to help facilitate communication 
with the servers and when are you going to implement the GAO 
recommendations?
    Secretary DEVOS. For the $2.3 million, we will answer on a 
question for the record in detail. I don't have all of those 
details here with me.
    Mr. DESAULNIER. That would be good.
    Secretary DEVOS. So, I will be happy to provide those. But 
with regard to the program itself, the temporary program was a 
great step by Congress. However, it still doesn't take care of 
the fact that it is a very difficult program to qualify for. 
And if a student pays their loan a year in advance, that is not 
looked at as 12 payments, that is 1 payment. So, 120 
consecutive payments doesn't quite add up then over 10 years.
    Mr. DESAULNIER. Are you using the money so that the service 
provider can communicate this to that--
    Secretary DEVOS. Yes, of course.
    Mr. DESAULNIER. Okay, that is what the question was. To the 
degree that you can provide that to the committee in 
specificity, that would be appreciated. Second part is, when 
are you going to implement the general county offices 
recommendations?
    Secretary DEVOS. We have implemented all of them to my 
knowledge.
    Mr. DESAULNIER. That is not what the GAO says. So, can we 
get that straight, please? And with that, seriously, my office 
would like to work with your office. Your acknowledgement the 
statute is the statute--
    Secretary DEVOS. I would welcome that.
    Mr. DESAULNIER. People are suffering right now in terms of 
what we are telling them. And rather than bait and switch, we 
should help them as much as possible, I am sure you agree. And 
then if we need to change the statute, we are more than willing 
to work with you. Thank you, Madam Chair, I yield back.
    Chairman SCOTT. Thank you. I think this is the final 
questioner. The gentlelady from Michigan, Ms. Stevens.
    Ms. STEVENS. The gentlelady from Michigan addresses the 
Secretary of Education. I would like to talk to you a little 
bit about our home State of Michigan. Where decades of 
disinvestment in our schools has had an impact on our students. 
From 1995 to 2015, Michigan ranked last in total education 
revenue growth. And not surprisingly since 2003, Michigan ranks 
last in proficiency growth. And your budget proposal for the 
Department of Education requests an $8.5 billion decrease in 
spending and eliminates 29 programs. Do you mind explaining how 
disinvestment of this scale will serve our country's students 
when it has failed in Michigan?
    Secretary DEVOS. Well, Congresswoman, we had to submit a 
budget that did reduce our overall spending by 10 percent 
because of Congress' requirements to hit those caps. So, we 
were following Congress' mandate in that regard. And we had to 
make difficult choices around what areas to propose cutbacks 
in. These are all proposals and you will all decide what you 
are going to spend. So, we submit them to you as proposals 
acknowledging that we tried to hold harmless those programs 
that are going to most benefit and most reach students who are 
most vulnerable and most in need of the assistance.
    Ms. STEVENS. And we certainly don't like to make 
determinations around which programs are successful versus 
which ones aren't just because of legacy considerations. I was 
particularly inspired by my colleague, Congressman Harder's 
questioning and around literacy which is certainly a pervasive 
issue in Michigan. And, you know, we don't cut fire departments 
or police departments just because crime is going up, you know, 
we figure out a way to double down and work together.
    My district is home to wonderful communities. I am a 
product of our public school system. I graduated from Seaholm 
High School. I don't know if you have ever had a chance to 
visit Seaholm.
    Secretary DEVOS. I have not but I have had friends that 
graduated from Seaholm.
    Ms. STEVENS. Excellent. Well, you know, one of the things 
in Michigan is we have the per pupil funding standards. And, 
you know, it strikes me that just because you are a resident of 
Birmingham, Michigan, and, you know, able to send your children 
to Seaholm, it shouldn't mean that if you are a resident of 
Detroit, per se, that you shouldn't have the same 
opportunities. You should be able to send your student to the 
same quality school. Is that what you would agree with?
    Secretary DEVOS. Well, I think every student should be able 
to find a school that works for them, yes.
    Ms. STEVENS. Right. And so, your budget proposes to 
eliminate billions of dollars in K-12 programs from 
professional development for teachers and principals to after 
school programming to mental health services and one of my 
personal favorites, STEM education. And obviously, we have 
heard you talk about some of the hard decisions that you have 
had to make yet somehow, we found, you found, $60 million for 
an increase in the Federal Charter School program. And I just 
really wonder if charter schools are the answer here where as 
it really should be the Title I funding.
    So, a recent report by the Network for Public Education 
found that more than $1 billion in Charter School Program funds 
have gone to support charter schools that have either, you 
know, they never opened or they have closed, they have kind of 
abandoned some of the children and families. And since 2010, 25 
schools in Michigan that have received $1.7 million in charter 
school funding just never even opened. And the Inspector 
General found waste, fraud, abuse due to the frequency of 
school closures in the Charter School Program.
    Can you just explain for me the mark of effective programs 
here and can you justify the proposed increase for the Charter 
School Program and on what measures or studies that you have 
been using?
    Secretary DEVOS. Let me first comment that the study you 
are referring to, I am not sure we can even call it a study. We 
are looking more closely at it, of course, and anything that is 
truly waste, fraud, or abuse, we will certainly address. But 
the reality is that study was really funded by and promoted by 
those who have a political agenda against charter schools.
    And the other reality is that there are currently over a 
million students on wait lists for charter schools in the 
country. So, we want to see more charter schools not fewer. 
More students that can access options that are right for them, 
not fewer.
    Ms. STEVENS. At the expense of public education funding?
    Secretary DEVOS. Charter schools are public schools.
    Ms. STEVEN. I would just say with the remaining seconds 
that I have left that roughly 20 percent of my district is 
under the age of 18 and those individuals are counting on us. 
And we are here to have some tough discussions about how we can 
improve the lives of our students and educational outcomes. And 
I very much appreciate that the title of this hearing, 
Examining the Policies and Priorities of the U.S. Department of 
Education, revealed some of your priorities to us. Thank you.
    Chairman SCOTT. Thank you. We have come to the end of the 
hearing and I want to remind my colleagues that pursuant to 
committee practice, materials for submission of the record must 
be submitted in proper form within the next 14 days. I want to 
remind the Secretary, that she will be receiving questions for 
the record and the hearing record will be held open for 14 days 
to receive your responses. And pursuant to committee practice, 
witnesses, witness questions for the record must be submitted 
to committee staff within the next 7 days.
    I now recognize the ranking member, Dr. Foxx, for your 
closing Statement.
    Mrs. FOXX. Thank you, Mr. Chairman. Madam Secretary, thank 
you for your participation in this hearing. It is clear to us 
on the Republican side of the aisle that you are committed to 
implementing the laws as Congress wrote them. It is also clear 
to us you are doing everything in your power to help students 
and families understand and pursue the education opportunities 
they choose so they may realize the American dream. And for 
that, we and the American people are grateful for your tireless 
efforts.
    In the Higher Ed Accountability hearing, Representative 
Adams gave us all a definition of bipartisanship. This hearing 
could use a working definition of accountability since that is 
the entire premise behind having a cabinet official testify. 
Accountability is asking an agency official a tough question 
and listening for the answer before deciding they are wrong, is 
not grilling the witness and talking over them the moment you 
don't here what you wanted to hear.
    My Democrat colleagues have tried for the better part of 4 
hours to twist your words out of context. After doing so, they 
did not allow you to respond and instead, filled the time with 
what they wanted to hear. Chairman Scott, the gentleman that he 
is, has tried to correct this on a few occasions this afternoon 
and I thank him for that courtesy.
    This is a gotcha hearing, not an honest attempt to learn 
how the government can better serve students. The arrogance 
exhibited in this committee today has been breathtaking. 
Indeed, rarely have I heard so many people tell you how to do 
your job and say they know how to do it better than you do. In 
your opening comments, you reminded us of Congress' commitment 
when the Department of Education was created 40 years ago. You 
reminded us that at that time, Congress vowed that it would 
``not increase the authority of the Federal Government over 
education or diminish the responsibility for education which is 
reserved from the States.'' I promise you; I am going to start 
quoting that a lot and I thank you for bringing it to our 
attention.
    I have to tell you, a lot of the things I am hearing my 
Democrat colleagues try to get you to commit to doing sounds a 
little bit of a set up. They want you to commit to doing what 
we all agreed decades ago was not the mission of the Department 
of Education. And they argue that you are not doing your job 
because you haven't overstepped your authority or don't agree 
with their priorities.
    Madam Secretary, you said today that if a school does not 
serve the best interest of students, it should not continue to 
operate. I could not agree with you more. This is especially 
important when it comes to overseeing institutions of higher 
education.
    Republicans are equally committed to holding all 
institutions accountable for the educational outcomes of their 
students. I look forward to working with you to reform the HEA 
to make sure all students at all institutions get the service 
they deserve. And when we bring out some other statistics that 
haven't been brought out, I think we will see the need to hold 
all institutions accountable. You have a number of tools at 
your disposal to come down on bad actors. As I said, any 
institution that does not serve students should not continue to 
exist and you said as much earlier in the hearing.
    I want to thank you for your commitment to implement 
policies in the best interest of students and taxpayers. You 
should know, as I hope you already know, that Republicans look 
forward to standing with you to protect students access to 
educational opportunities to make a better life for themselves 
and I would welcome our Democrat colleagues to make the same 
commitment. I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you. And Madam Secretary, I want to 
thank you for being with us today. You will be receiving, as I 
indicated, questions for the record to clarify some of the 
things that came up. One of the areas you can expect questions 
would be the reinstatement of ACICS. We had asked you questions 
about this before, particularly in light of the fact that there 
seem to be--they seem not to qualify under the rules for 
reinstatement.
    And also, questions about the subsequent firing and 
reinstatement of the Inspector General which appeared to be 
part of that same process.
    You were asked about the Obama guidance that was rescinded 
under your administration on racial diversity K-12 and higher 
education and you seemed to be a little unclear on that. We 
will be following through to see what you are doing on that 
particularly in light of the GAO report.
    There are two court orders that are pending, one on the 
equity and idea rule. The court has ordered that be implemented 
immediately. Another on borrowers defense where there is a 
court order and there are over 100,000 students waiting for 
relief.
    There was a question on the waivers and what information is 
being published. It appears to me that what is being published 
is the fact of the waiver, not the application to see what was 
being waived or the rationale for the decision. And so, we will 
be following up on that.
    And ESSA implementation, you indicated that you are 
following the rules but we were informed that several States 
are failing to disaggregate data by race which would make it 
impossible. If they are not providing that information, you 
can't ascertain whether there are achievement gaps or if 
anything is being done. We will be following through on that.
    And finally, the tax credit program where you said it is 
contributions. With 100 percent tax credit, it is not a 
contribution because it is 100 percent reimbursed as a tax 
credit. We have also indicated if you could find $5 billion in 
the tax expenditure, at the same time we are cutting the 
education budget $8 billion, you frequently referred to the 
fact that the budget is being cut 10 percent. We were required 
to cut 10 percent but, in fact, the budget was cut 12 percent 
which meant that maybe some of those literacy programs and 
others would not have to be cut.
    But you will be getting those questions and we can clarify 
those answers. But I wanted to express my appreciation for your 
being here. We apologize for the time taken to go vote and that 
extended the time a little bit. I want to thank the Ranking 
Member for being here the whole time and thank you, Madam 
Secretary, for being with us and allocating time so that 
everybody could ask questions.
    With that, is there any further business before the 
Committee? If not, the committee stands adjourned.
    [Additional submissions by Mr. Courtney follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    [Additional submission by Mrs. Foxx follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Ms. Fudge follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Ms. Hayes follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Additional submissions by Mr. Levin follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Ms. McBath follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    
    [Additional submissions by Mr. Morelle follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon at 2:35 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
